<html>
<title> - ESTABLISHING THE GRAND STAIRCASE-ESCALANTE NATIONAL MONUMENT</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
      ESTABLISHING THE GRAND STAIRCASE-ESCALANTE NATIONAL MONUMENT

=======================================================================

                           OVERSIGHT HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

  ESTABLISHMENT OF THE GRAND STAIRCASE-ESCALANTE NATIONAL MONUMENT BY 
                PRESIDENT CLINTON ON SEPTEMBER 18, 1996

                               __________

                     APRIL 29, 1997-WASHINGTON, DC

                               __________

                           Serial No. 105-20

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 41-269 CC                   WASHINGTON : 1997
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402


                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas
                        Allen Freemyer, Counsel
                    Steve Hodapp, Professional Staff
                    Liz Birnbaum, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held April 29, 1997......................................     1

Statements of Members:
    Bennett, Hon. Robert F., a U.S. Senator from Utah............    16
    Cannon, Hon. Chris, a U.S. Representative from Utah..........     7
    Chenoweth, Hon. Helen, a U.S. Representative from Idaho......     8
    Cook, Hon. Merrill, a U.S. Representative from Utah..........     9
    Duncan, Hon. John, a U.S. Representative from Tennessee......     4
    Faleomavaega, Hon. Eni, a U.S. Delegate from the Territory of 
      American Samoa.............................................     3
    Hansen, Hon. James, a U.S. Representative from Utah; and 
      Chairman, Subcommittee on National Parks and Public Lands..     1
    Hatch, Hon. Orrin G., a U.S. Senator from Utah...............    11
    Hinchey, Hon. Maurice, a U.S. Representative from New York...     4
    Vento, Hon. Bruce, a U.S. Representative from Minnesota......    10

Statements of witnesses:
    Austin, Mark, CEO, Boulder Mountain Lodge....................    87
        Prepared statement.......................................   141
    Babbitt, Bruce, Secretary, Department of the Interior........    28
        Prepared statement.......................................   123
    Gill, Ruland J., Jr., Chairman, Board of Trustees, Utah 
      School and Institutional Trust Lands Administration 
      (prepared statement).......................................   136
    Harja, John, Vice Chairman, Utah School & Institutional Trust 
      Lands Administration, on behalf of Ruland J. Gill, Jr., 
      Chairman...................................................    76
    Judd, Joe, County Commissioner, Kane County, Utah............    73
        Prepared statement.......................................   132
    Leavitt, Michael O., Governor, State of Utah.................    21
        Prepared statement.......................................   109
    Liston, Louise, County Commissioner, Garfield County, Utah...    72
        Prepared statement.......................................   127
    McGinty, Kathleen, Chair, Council on Environmental Quality...    26
        Prepared statement.......................................   116
    Roosevelt, Theodore, IV, Managing Director, Lehman Brothers..    91
    Till, Tom, Owner, Tom Till Photography.......................    89

Additional material supplied:
    Text of:
        H.R. 413.................................................   101
        H.R. 596.................................................   103
        H.R. 597.................................................   105
        H.R. 1127................................................   107


    ESTABLISHMENT OF THE GRAND STAIRCASE-ESCALANTE NATIONAL MONUMENT

                              ----------                              



                        TUESDAY, APRIL 29, 1997

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 9:35 a.m., in 
room 1324, Longworth House Office Building, Hon. James V. 
Hansen (Chairman of the Subcommittee) presiding.

 STATEMENT OF HON. JAMES V. HANSEN, A U.S. REPRESENTATIVE FROM 
 UTAH; AND CHAIRMAN, SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC 
                             LANDS

    Mr. Hansen. The committee will come to order. The 
Subcommittee on National Parks and Public Lands convenes to 
conduct oversight on establishment of the Grand Staircase-
Escalante National Monument by President Clinton on September 
the 18th, 1996.
    I welcome all our witnesses but especially welcome our 
Governor, Mike Leavitt; Commissioners Louise Liston and Joe 
Judd; other witnesses from Utah, Mr. Austin and Mr. Till. I 
also welcome Senator Hatch, Senator Bennett, Congressman 
Cannon, Congressman Cook; Secretary of the Interior, Bruce 
Babbitt; and Kathleen McGinty, Director for the Council on 
Environmental Quality. We welcome our witnesses.
    This is a very important hearing for the Utah Delegation, 
the people of Utah, and for all public lands States. As noted 
on the agenda, we have listed the numerous bills that call for 
amendments to the 1906 Antiquities Act.
    This Act gives the President incredible authority to 
instantaneously designate Federal lands as a monument. Today's 
hearing will demonstrate how this Act can be abused and how 
this Administration insists on conducting its affairs behind 
closed doors and without public involvement or concern for the 
affected people.
    As many are aware, the unilateral action by the President 
created a lot of contention in southern Utah which is already 
the site of many polarized battles over the use of public 
lands. I requested Secretary Babbitt and Miss McGinty to join 
us to answer questions regarding the entire process and the 
reasons behind the President's actions.
    By way of the 1906 Antiquities Law, President Clinton 
designated 1.7 million acres of southern Utah as a national 
monument. Standing in another State, surrounded only by 
celebrities and those privileged enough to be invited, 
President Clinton locked

up the largest deposit of compliance coal in the United States 
and took billions of dollars from the school children of Utah.
    Moreover, President Clinton has denied the Federal Treasury 
of billions in revenues from the resources locked up by the 
monument designation. We will hear the impact this has had on 
the school children, the people who live in and around the 
monument, and impacts on the State.
    I cannot stress enough what this action has done to the 
State of Utah. Utah has been the hot bed of contention 
regarding wilderness, RS 2477 roads, endangered species, water, 
timber production, draining of Lake Powell, and the list goes 
on and on. Although we, as a State, are working hard to solve 
some of these problems, it is clear to me that this 
Administration is not interested in solution but is only 
interested in contention and photo opportunities.
    Documents--and I stress that--documents we have received 
make it clear that this new monument had very little to do with 
preservation of lands but was focused on political advantage, 
photo opportunities, and stopping a legitimate coal project. In 
a memo authored by Miss McGinty to senior White House staff, 
she goes into great length about the political advantages of 
designation, where the most scenic site would be, and how 
designation would give the Department of Interior ``leverage'' 
to stop the proposed coal mine.
    These polarized issues are difficult enough to deal with 
based on facts and opinions, but when politics, scenic 
backdrops, and leverage drive natural resource management, we 
are bound to reach the ``train wreck'' that Secretary Babbitt 
refers to so often.
    Secondly, it is not clear that the Administration used any 
science or data to support this designation. From the documents 
produced, the experts consulted were Hollywood celebrities, ex-
political officials, and elite interest groups. This is hardly 
the type of science-based management our Federal lands deserve.
    In fact, the Administration knew so little about the area 
and its resources that they had a law professor from the 
University of Colorado draft the proclamation for the 
President. It is interesting that there are plenty of staff 
available for political maneuvering, but we must contract out 
for the real work.
    For anyone who knows this area, the boundaries alone make 
little or no sense. There are eight oil wells in the monument, 
private lands, houses, and the boundaries are drawn right next 
to towns. These are the type of decisions we get when the 
managers on the ground and the public are excluded from the 
process.
    NEPA and FLPMA were completely ignored in this process, yet 
the Administration always opposes the most minor waivers 
contained in legislation. It is troubling that the public 
process required by NEPA is good for Congress but can be 
ignored by the Administration when it is politically 
advantageous.
    I want to be clear that I firmly believe there are lands 
within the Kaiparowits Plateau that deserve protection. I 
supported the ultimate protection of wilderness designation for 
nearly 500,000 acres of this area, yet, once again, those on 
the other side would rather continue the battles as opposed to 
protecting the lands.
    Secretary Babbitt and Miss McGinty, I did not request your 
presence simply to demagogue this issue, but we have serious 
questions

that the people of Utah, this committee, and Congress deserve 
to have answered. I hope you can provide candid answers to our 
many questions, and I look forward to your testimony and 
exchange of information. I ask unanimous consent that the 
documents submitted by the Administration be inserted into the 
record as provided. Is there objection? Hearing none, so 
ordered.
    [Documents follow:] ???
    Mr. Hansen. I further ask unanimous consent that the 
Delegation from Utah and the Governor of the State may be 
allowed to sit on the dais after their testimony. Is there 
objection? Hearing none, so ordered. I will turn to my friend 
from American Samoa for his opening statement, the ranking 
member of the committee.

STATEMENT OF HON. ENI FALEOMAVAEGA, A DELEGATE IN CONGRESS FROM 
                THE TERRITORY OF AMERICAN SAMOA

    Mr. Faleomavaega. Mr. Chairman, I am pleased that we are 
having this oversight hearing on the important action taken by 
President Clinton to designate the Grand Staircase-Escalante 
National Monument. The designation has engendered strong 
passions, to say the least.
    While there may be disagreements on how the monument was 
established, I hope we don't lose sight of the fact that this 
great area contains significant resource values. Governor 
Leavitt referred to this area as a treasure. The rugged scenic 
beauty of the unique geology, the wealth of archeological and 
historical sites combine to form rich in beauty and history.
    I know there is a strong temptation to use today's hearing 
to second-guess President Clinton's decision. I think we should 
be wise to heed the actions of Governor Leavitt who has worked 
constructively with the Administration since the monument was 
established to see that the best possible management plan could 
be put in place for the monument. I commend the Governor for 
his efforts.
    I look forward to the testimony of the witnesses today on 
how we can all constructively provide for the management of the 
monument for the benefit of all Americans especially the good 
citizens of Utah.
    And, Mr. Chairman, I, as an alumni of one of the great 
universities of the State of Utah, namely, Brigham Young 
University, I would be remiss if I would not recognize and give 
a special welcome to the distinguished members of the Utah 
Congressional Delegation, certainly Senator Hatch, Senator 
Bennett, Congressman Cannon, and Congressman Cook for their 
presence here, and especially also to welcome personally 
Governor Leavitt from the State of Utah.
    And, Mr. Chairman, I also would be remiss if I did not give 
a special recognition to a gentleman that has been a very 
special guest of our people in my district where just a couple 
of weeks ago or, to say more specifically, last week, we 
honored the celebration of the raising of the American flag in 
American Samoa for our 97th year now. And we were very honored 
to have Secretary Babbitt join us as our special guest in the 
territory. I say this more especially because he was there to 
dedicate our national park.
    It is a 9,000 acre national park, unique in the sense that 
it contains the only tropical rain forest under the umbrella of 
the administration of the United States.
    And given proper recognition that from this tropical rain 
forest in my district, Mr. Chairman, there are approximately 
150 plants that are now being made a serious study for cancer 
research at the National Institute of Health thanks to the work 
and the leadership under the gentleman who is a botanist at 
Brigham Young University, Dr. Paul Cox.
    And I want to say that Dr. Cox has been a very avid 
supporter of not only national parks, but certainly in this 
tropical rain forest--unique only in that I think Puerto Rico 
and American Samoa are the only areas that can make this claim 
under the jurisdiction of the United States.
    And I would say that I would like to offer my personal 
welcome to Secretary Babbitt for his presence here in our 
hearing this morning. And given the fact that he was privileged 
to visit one of the most unique coral formations in all the 
world, and it is in American Samoa. And I hope that in the 
upcoming worldwide conference on the importance of saving coral 
reef formations, I am sure that Secretary Babbitt's 
contribution in this area will be very well received in this 
world conference.
    And, again, I want to welcome Secretary Babbitt and also 
Miss McGinty who is Chairman of this environmental council that 
we are going to be hearing from her testimony this morning. 
Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. We will turn to members of the 
committee for brief opening remarks they may have. The 
gentleman from Tennessee, Mr. Duncan.

   STATEMENT OF HON. JOHN DUNCAN, A U.S. REPRESENTATIVE FROM 
                           TENNESSEE

    Mr. Duncan. Mr. Chairman, I have no formal opening 
statement, but I did read with interest the statement by your 
Governor that, ``The first reports of this that I or any other 
elected official in the State of Utah had received were from a 
story in the Washington Post only nine days prior to Mr. 
Clinton's public proclamation.''
    And I would simply say it appears that there was an 
intentional effort made to cover up or hide this major event 
from the people most affected. And I think that is terrible, 
and I think it is very undemocratic. And I think sadly I would 
say that that is something that I think would happen in the 
former Soviet Union or some Third World dictatorship but surely 
not in the United States of America. And I think it is a very 
sad event that occurred in this country. Thank you very much.
    Mr. Hansen. Thank you. The gentleman from New York, Mr. 
Hinchey.

 STATEMENT OF HON. MAURICE HINCHEY, A U.S. REPRESENTATIVE FROM 
                            NEW YORK

    Mr. Hinchey. Thank you very much, Mr. Chairman. I would 
like to begin by joining you and our ranking member, Mr. 
Faleomavaega, in welcoming the women and the men of this very 
distinguished panel--Senators, Governor, Miss McGinty, Mr. 
Secretary. We are grateful for your presence here today, and we 
look forward to hearing from you.
    I would like to also, Mr. Chairman, begin my statement by 
quoting from a letter that I wrote to the people of Utah 
through the Utah press last year regarding the issue of Utah 
wilderness and the debate surrounding it in which I have played 
a role.
    It says as follows: ``I became involved in the debate over 
the Utah wilderness and its future because I care about the 
environment. I care about wilderness, and I care about Utah's 
strikingly beautiful desert land. I introduced H.R. 1500, 
originally Wayne Owens's bill, in the hope that it will be 
seriously considered whenever Congress considers the question 
of Utah lands, and of the hope that Congress will thoroughly 
review the issues at stake. I hope the debate will always be 
conducted in a civil and mutually respectful manner.''
    The letter went on to say that, ``Congressman Jim Hansen's 
position on the future of those lands is very different from 
mine. But as Chairman of the Subcommittee on National Parks, 
Forests, and Lands, Congressman Hansen has always treated me 
and everyone else in this issue with great respect and allowed 
me and others who support H.R. 1500 fair opportunity to present 
our views at the hearings that he conducted on Utah wilderness.
    ``This issue can best be resolved if we debate the facts 
and do not let personal attacks interfere with or cloud the 
issues. In this regard, Congressman Hansen and I are on common 
ground. We want a debate that honors the land, not one that 
detracts us from the integrity that wilderness represents.'' 
Mr. Chairman, you were gracious enough to thank me for that 
letter at the time, and I hope that today's hearing will 
proceed in that same spirit of civility and respect.
    Those of us who supported the President's designation of 
the Grand Staircase-Escalante National Monument last fall know 
that the designation was controversial. And we know also, of 
course, that there was opposition. We know too that even some 
of those people who believe this land should be protected 
permanently did not like to see the President acting 
unilaterally to designate it as a monument.
    The bills placed before the Subcommittee today reflect 
that. They aim to restrict the President's power under the 
Antiquities Act to take such actions. We have seen some pretty 
strong statements objecting to the President's power under that 
law. I have collected a few from Utah newspapers.
    From a State official quoted in the Deseret News, ``Locking 
up this land is robbing the people of Utah of income from 
mining and development.'' An elected official was quoted as 
charging that the President's action ``robs Utah school 
children of millions of dollars.''
    The Vice President of the Utah Cattlemen's Association 
quoted in the Salt Lake City Tribune said, ``I don't know 
whether this action is vindictive or not, but Utah certainly 
has a role other than being a playground for Easterners.'' 
Another representative of Utah's grazing industry added, ``This 
act is going to cause further economic reductions and further 
depletions of towns. We should have had hearings prior to doing 
it in this manner. We just lost some more freedoms.''
    An elected official called designation ``a slap at my State 
of Utah,'' and complained, assuming apparently that the 
Interior Secretary and the President who signed the order acted 
as one, that the Interior Secretary acted ``with no notice 
whatsoever without hearing any interested group without prior 
consultation or discussion with the State officials.''
    ``Even a common criminal is entitled to a notice of a 
hearing,'' he added, that the action was ``dictatorial and 
arrogant, flaunting of the expressed wishes of the people of 
Utah.'' The Tribune editorialized against it calling it 
``arbitrary, a land grab that should not be allowed to stand.''
    I am sure these statements sound familiar to all of us who 
have followed the monument debate. But none of them concern the 
Grand Staircase-Escalante designation. All of them concerned an 
earlier ``outrage,'' and that was President Lyndon Johnson's 
decision to expand Capitol Reef and Arches National Monument 
back in 1969. Both of them are now national parks, and they are 
among Utah's most popular tourist attractions and her most 
prized possessions.
    The Town of Moab, the place that was said to be threatened 
with ``economic depletion,'' has grown and prospered. 
Ironically, several of the people I just quoted went on to say 
that the only saving grace in the President's designation--
President Johnson's designation--was that Arches and Capitol 
Reef were monuments, not national parks, and so extractive 
industries could be allowed there. I understand that today one 
of our Utah representatives wants to expand Arches National 
Park. So opinions do change with time.
    Most of Utah's national parks, all but one, began as 
presidentially designated monuments, not as the product of 
hearings or consultations with State officials. I do not mean 
that as a criticism of past officials in the State. I say only 
that it took the imagination and foresight of Presidents acting 
on their own beginning with those great Republicans, Theodore 
Roosevelt and William Howard Taft, to see that these lands 
merited protection, and that their highest and best use was not 
mineral extraction or development.
    Today, I think most Utahans agree that those lands deserve 
protection and also understand the economic benefits of those 
designations. Just recently, my colleague, Mr. Cannon, told me 
that he expected the monument designation would bring millions 
of new visitors to Utah. Presumably, they will bring some money 
with them.
    Many Utahans whom I know who are contributing to the State 
were originally attracted to the State by its parks, monuments, 
and wilderness areas. One of them is here today, Mark Austin, 
from Boulder, Utah. Boulder is the town whose board voted in 
1969 to rename itself ``Johnson's Folly'' in order to criticize 
the President's monument designation. They said it would turn 
the town into a ghost town. Well, of course, that hasn't 
happened; quite the contrary.
    We need to remember today that we are talking about Federal 
lands, lands that belong to all the American people no matter 
where they were born, no matter where they live now.
    The Antiquities Act invested powers in the President 
specifically so that he could rise above local interests and 
temporary concerns to act in the long-term interests of all 
Americans. Theodore Roosevelt did that with the Grand Canyon; 
President Taft with Zion; Franklin Roosevelt with Capitol Reef; 
and Lyndon Johnson with Arches and Capitol Reef again. Most 
Americans and most Utahans thank them for their actions. I 
think most Americans thank President Clinton for his actions in 
this case, and I think that most Utahans either do now or will 
eventually agree. I thank you very much, Mr. Chairman.
    Mr. Hansen. I would appreciate it if the members on their 
opening statements should be as brief as possible. We have a 
panel, and I am sure people are very busy. But thank you for 
your statement. The gentleman from Colorado, Mr. Hefley.
    Mr. Hefley. Mr. Chairman, I think we ought to get to the 
panel, and I will relinquish my time at this point.
    Mr. Hansen. The gentlelady from the Virgin Islands.
    Ms. Christian-Green. Thank you, Mr. Chairman. No opening 
statement. I would just like to welcome the panel.
    Mr. Hansen. The gentleman from Utah, Mr. Cannon. Most of 
this--in fact, all of this is in Mr. Cannon's district. We will 
give you the full five minutes, Mr. Cannon.

STATEMENT OF HON. CHRIS CANNON, A U.S. REPRESENTATIVE FROM UTAH

    Mr. Cannon. Thank you, Mr. Chairman, and members of the 
Subcommittee on National Parks and Public Lands. I represent 
Utah's Third District, and the entire Grand Staircase-Escalante 
National Monument, all 1.7 million acres of it, is in my 
district.
    Last fall, on September 18, under the authority of the 1906 
Antiquities Act, President Clinton, with a few quick words and 
the stroke of a pen, created this incredibly massive national 
monument. The issue is not really what should happen with this 
land; the issue is process.
    Utahns are angry. If this had been done through an open and 
thoughtful process, I think Utahans could have embraced 
something in the area. But that is not what happened. Instead, 
this monument was created without discussion, without 
consultation, and apparently without consideration, although I 
hope we will learn a little bit more about that today. 
Essentially, the President chose to deliberately circumvent the 
democratic process.
    Over the past decade, the debate over Utah wilderness has 
been a vigorous one. In the area that is now the new monument, 
there were strong conflicting opinions over how much land 
should be set aside and protected as wilderness.
    Some suggested as few as 300,000 acres, while others 
proposed as much as 1.3 million acres. Although it was 
difficult, the two groups were voicing their opinions in the 
public forum. The process of reaching a compromise between the 
two sides was a public one with give-and-take between 
conflicting viewpoints.
    President Clinton entered the debate with a complete 
disregard for the public political process underway. He took 
the most dramatic action possible, one beyond the bounds of the 
public debate, by setting aside 1.7 million acres, far more 
than had been talked about publicly.
    Today, we have the chance to revisit this action. The key 
question is why President Clinton, Secretary Babbitt, and Katie 
McGinty attempted to solve the issues in southern Utah under a 
cloud of secrecy, behind closed doors. And, more importantly, 
why those in Utah who would have been affected the most were 
entirely ignored. I have come today, along with the rest of the 
Utah Delegation, to get some plain and simple answers.
    The first time anyone in Utah, including my Democratic 
predecessor, ever heard about the possibility of such an action 
was in the pages of the Washington Post, a mere 11 days before 
the creation of the monument. During the week before September 
18, Utah's congressional delegation and Governor were told 
repeatedly that ``nothing was imminent.'' Of course, something 
was.
    This monument's designation has brought a great deal of 
concern to my constituents across the State. As this massive 
national monument becomes a part of their daily lives, they are 
confronted with the changes that accompany it in their 
counties, towns, schools, and individual homes. I have been 
repeatedly asked by my constituents: ``Why was this monument 
created? How was it done? What was the process? Why were 
Utahans not consulted with beforehand? And what will it mean to 
our future?''
    I am pleased that we are holding these hearings today. I 
hope to get some answers to take back to my constituents. I am 
sure you will agree they deserve it. I thank the Chairman for 
holding these important hearings and for allowing me and my 
fellow members of the Utah Delegation to participate.
    Let me just say in addition that I am deeply concerned 
about the tone of these hearings. As a practical matter, in the 
audience today we have people with very different views about 
the land in Utah and how it should be used. I thank the 
Chairman and appreciate Mr. Hinchey's words about the civility 
that has existed in this committee in the past. And while I 
expect that we will have some very direct questions, I hope 
that this hearing can go forward with clarity in answers and 
civility. Thank you.
    Mr. Hansen. Thank you, Mr. Cannon. The gentleman from 
Wisconsin.
    Mr. Kind. Thank you, Mr. Chairman. I too would like to 
welcome the distinguished panel here today. And with the hope 
of getting to them sooner, I will relinquish the remainder of 
my time as well. Thank you.
    Mr. Hansen. Thank you. The gentleman from California, Mr. 
Pombo. The gentlelady from Idaho, Mrs. Chenoweth.
    Mrs. Chenoweth. Mr. Chairman, I do have a statement, but in 
the essence of time, I would like to just submit it for the 
record. Thank you.
    [Statement of Mrs. Chenoweth follows:]

  Statement of Hon. Helen Chenoweth, a U.S. Representative from Idaho

    Mr. Chairman, thank you for scheduling this hearing on 
President Clinton's action to establish what has become known 
as the Utah Monument. I, too, have grave concern about the 
President's unilateral action. Not only did he clearly violate 
the procedure of public participation as required by the 
National Environmental Policy Act (NEPA), but he abused the 
intent behind the Antiquities Act.
    To ensure that this never happens again, I have introduced 
two bills, Mr. Chairman, and I appreciate your willingness to 
hear them today. The first, H.R. 596, would prohibit further 
extension or establishment of any national monument without an 
express Act of Congress. The second is H.R. 597, the same bill, 
but only applicable to Idaho. Wyoming and Alaska are already 
protected by statute from such arrogant actions as occurred in 
Utah. My intent is to work to stop this from happening to my 
constituents in Idaho, which is the reason for two versions of 
my legislative proposal.
    Mr. Chairman, I want to briefly outline what exactly it is 
the President did. With the stroke of his pen, and without any 
public or local input, President Clinton locked up 1.7 million 
acres of land in Utah. Not only did he not take public comment 
as required by NEPA, numerous BLM officials have told me, both 
publicly and privately, that they were not informed. Imagine, 
Mr. Chairman, the amount of arrogance it takes for an 
Administration to lock up so much wealth.
    Was the impact to Utah considered? Was the impact to the 
taxpayers considered? We'll never know, because the President 
violated the public input procedures required by NEPA. The 
United States Geological Survey (USGS) tells us that there are 
approximately 62 billion tons of coal locked up by the 
designation, including one billion tons owned by the Utah 
school trust. This represents $1.1 billion to Utah's school 
children, $2.0 billion to the State of Utah, and $5.0 billion 
to the U.S. Treasury. All of this was done with a mere stroke 
of the pen. The problem, however, is that it turned out to be a 
devastating loss for the Utah school children and the U.S. 
taxpayer.
    Mr. Chairman, this simply can never happen again. We must 
take steps to remove the ability of one person to take such an 
arrogant, expensive and economically damaging action. My bills, 
H.R. 596 and H.R. 597, do just that. I will continue to work 
with you to ensure that they become law.
    Again, Mr. Chairman, thank you for holding this hearing.

    Mr. Hansen. We would ask our colleague from the Second 
District in Utah to join us, Mr. Cook.

STATEMENT OF HON. MERRILL COOK, A U.S. REPRESENTATIVE FROM UTAH

    Mr. Cook. Well, thank you, Mr. Chairman. And I do 
appreciate the invitation to be here today, although I am not a 
member of the House Resources Committee. I think the opinion of 
the monument in the district that I represent and throughout 
the State of Utah is varied--and it is wide--from those who 
believe strongly in it, that are very grateful for it, to those 
who think it is not a good thing at all for the State.
    But regardless of where people are on the issue, I think 
there is almost unanimous feeling among the citizens of the 
State of Utah that the method, the process by which the Grand 
Staircase-Escalante Monument was created was seriously flawed. 
And it was flawed because the people of Utah, the elected 
officials were simply not consulted in the process, and that 
was, I think, an insult to the feelings and went right to the 
heart of trying to restore trust in the Federal Government on 
the part of the people of this country and particularly the 
people of the State of Utah.
    For someone who feels as I do, that the monument presents 
great opportunities, and if it could be a scaled-back version, 
if the amount of acreage were less than was created by 
presidential fiat, that it could be a very beneficial thing to 
the State of Utah. I just can't stress enough the importance of 
prior consultation.
    In that connection, I am co-sponsoring an amendment to the 
Antiquities Act that would require the President of the United 
States or the Administration or the Secretary of the Interior 
to give at least 90 days' notice to the Governor anytime 
something like this would happen in Utah or any other State.
    And I do feel that many of the issues that obviously will 
be a part of this hearing today and the questions and the real 
concerns and the answers--a lot of it could have been avoided 
if we had just followed those steps. So I am very interested.
    I am particularly interested in hearing whether there is a 
chance for scaled-back acreage in the monument. What is going 
to happen to existing property rights? The President was very 
clear in his statements in Arizona that they would be 
protected, and I would like to hear something about the 
assurance of those protections, and also on the general 
multiple use issues that affect the areas contained within the 
1.7 million acres, and whether or not those multiple use issues 
could be better satisfied and preserved if we scaled back the 
acreage in the monument.
    Again, I want to thank the Chairman for the opportunity to 
be here, and I want to commend Representatives Cannon and 
Hansen for the solid work they have done regarding land issues, 
and certainly our two Senators, Senator Bennett and Senator 
Hatch, for the real leadership this entire delegation has shown 
on this very important issue.
    Mr. Hansen. Thank you, Mr. Cook. Now, I am embarrassed that 
so many folks are standing there. It has been the custom of 
this committee, if you so desire, you can take this lower tier. 
If you would like to sit down, feel free to do so. I recognize 
the gentleman from Minnesota, Mr. Vento.

   STATEMENT OF HON. BRUCE VENTO, A U.S. REPRESENTATIVE FROM 
                           MINNESOTA

    Mr. Vento. Well, thank you, Mr. Chairman. Southern Utah, 
the red rock country, the Escalante National Monument--this 
area has been the focus of study and recommendations for 60-70 
years, going back to the 1930's and then Secretary of Interior 
Ickes, and recommendations to make the entire area a 
conservation designation or a park. And to suggest that it 
hasn't been considered or studied, I think, obviously, is at 
odds with some of the analysis and recommendations.
    I understand that the land use process in Utah has 
polarized, in my judgment, for a lot of reasons. I think we 
were on the right path when we did some work on Forest Service 
wilderness and made some modifications. And I think it started 
with the BLM wilderness study and the disagreements that 
occurred over what was appropriate for study at that time.
    And so I think that if we want to take the action by itself 
last year and look at it unconnected to the threat of 
consideration that had existed, we would have to realize we 
missed an opportunity with then Governor Scott Matheson in his 
discussions about the ability to try and consolidate Federal 
landownership and to eliminate some of the problems, as you 
know, within Utah and perhaps without. There was a resistance 
to, in fact, move in that direction. I was there and we did 
hearings with other members on topics of that nature, but 
things had become polarized.
    And I had hoped that this year after the President took the 
action precipitated by his concern that we were not able to 
move, and we can point fingers at one another--we all observed 
the problems we had in the House last year and the problems 
that our two friends or colleagues in the Senate had with 
moving a Utah wilderness bill.
    So I think we have to go back and look at that. I hope that 
this hearing will be the beginning of setting a new tenor with 
regards to working out that BLM wilderness bill and addressing 
the monument and the concerns the President had in terms of 
this designation.
    We have worked out literally hundreds of bills in the years 
that I have served on this committee which were very 
contentious. I know the monument designations from time to time 
have been used for other purposes. I think this by any 
definition has the characteristics. I don't think the answer 
lies in stripping the President of this extraordinary power. I 
think usually it has been used very prudently.
    But I think we do have the opportunity to come back and 
work with this President on dealing with this monument and 
dealing with a policy path for the land use of the BLM 
wilderness and other areas in Utah. And I hope that this 
hearing will rather than accentuate that polarization and 
continue with it, we will be able to come to find some common 
ground today with the principals.
    I certainly welcome our Senators, Senator Bennett and 
Senator Hatch, my classmates, and the Governor, and, of course, 
Secretary Babbitt, and Chairwoman McGinty. Thank you, Mr. 
Chairman.
    Mr. Hansen. Thank you. The gentleman from North Carolina, 
Mr. Jones.
    Mr. Walter Jones. Mr. Chairman, I will relinquish my time.
    Mr. Hansen. Thank you. The gentleman from Montana, Mr. 
Hill.
    Mr. Hill. Likewise, Mr. Chairman, I would like to get on 
with the hearing.
    Mr. Hansen. The gentleman from Nevada. Thank you. Well, 
thank you so much for your opening statements. We are very 
grateful for the panel that is here. We will start with Senator 
Orrin Hatch and then go to Senator Bennett and Governor 
Leavitt, Kathleen McGinty, and Secretary Babbitt. Senator 
Hatch.

STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM THE STATE 
                            OF UTAH

    Senator Hatch. Thank you, Mr. Chairman. I am pleased to be 
here with all of you here at the dais--at the table here, 
especially my colleagues, Governor Leavitt and Senator 
Bennett--on a matter of great concern to the people of Utah and 
of growing interest to the people of the United States.
    This, of course, involves the unilateral creation of the 
Grand Staircase-Escalante National Monument by the President by 
means of a process in which the elected representatives of Utah 
were not consulted and, thus, played no role in the decision. 
Consequently, the people of Utah had no say in the matter, even 
though the Escalante region is of great scenic, archeological, 
cultural, and economic interest to the State of Utah.
    On September 18, 1996, President Clinton invoked the 
Antiquities Act of 1906 to create the Grand Staircase-Escalante 
National Monument. The 1.7 million acre monument, larger in 
size than the States of Rhode Island and Delaware combined, 
locks up more than 200,000 acres of State lands, along with the 
vast energy reserves located beneath the surface.
    What was particularly and still is particularly galling to 
me, Mr. Chairman, is the fact that both Secretary Babbitt and 
CEQ Director McGinty assured myself and Senator Bennett in a 
meeting just a week prior to the President's announcement that 
the leaks concerning a designation of a monument in Utah were 
not true, and that no such action was contemplated. If it were, 
we were told, the Utah Delegation would be fully apprised and 
consulted.
    But as we all know, this promise was not kept. The biggest 
presidential land set-aside in almost 20 years was a sneak 
attack on the State of Utah--as I have said before--the mother 
of all land grabs. Without any notification, let alone 
consultation or negotiation with our Governor or State 
officials in Utah, the President set aside this acreage as a 
national monument by the stroke of his pen.
    Let me emphasize this point. There was no consultation, no 
hearings, no town meetings, no TV or radio discussion shows, no 
nothing. No input from Federal managers who work in Utah and 
manage our public lands. And as I stated last September, in all 
my 20 years in the U.S. Senate, I have never seen a clearer 
example of the arrogance of Federal power than the proclamation 
creating this monument.
    This President has a propensity to bypass Congress and the 
States and rule by executive order; in other words, by fiat. 
Although acting pursuant to the authority designated him by the 
Antiquities Act, President Clinton, by not consulting Utah's 
elected Federal or State representatives, ignored our tradition 
of due process of law.
    Due process of law, originally termed law of the land, 
derives from Chapter 39 of the Magna Carta of 1217. This 
provision was intended to ensure that only those convicted for 
a known statute could be punished, not punished at the mere 
will or whim of the king. This principle was codified and 
extended to require hearings for deprivations of rights by the 
Fifth and Fourteenth Amendments to the Constitution.
    The purpose of due process, therefore, was to prevent 
arbitrary executive behavior. It was also designed in no small 
part to guarantee that only the legislature could pass a law, 
that there would be government by consent. By not consulting 
with the representatives of the people of Utah or with 
Congress, President Clinton's proclamation is akin to a royal 
edict.
    Now, I am not necessarily contending that the proclamation 
was totally unlawful, after all, it was promulgated pursuant to 
the power delegated to the President by Congress. But I am 
saying that consultation with interested parties would have 
made the national monument designation more efficacious and 
perhaps avoided the legal and other pitfalls that may yet arise 
from this designation.
    If there was proper and sober consultation, the 
Administration would have learned that Utahans and their 
representatives have two chief concerns with the President's 
proclamation in addition to the manner in which it was made: 
first, there were 200,000 acres of school trust lands, set 
aside for the benefit of Utah's school children, captured 
within the monument boundary; and, second, the President has 
locked up more than an estimated 11 billion tons of 
recoverable, low-sulfur, clean-burning, environmentally sound 
coal.
    Indeed, the monument designation will basically withdraw 
from future development the largest untapped energy resource in 
the United States, or reserve in the United States, the 
Kaiparowits Coal Basin. This reserve has been valued at over $1 
trillion, comparable to 20 to 30 billion barrels of OPEC oil. 
Designating this area as part of the monument will deprive the 
Treasury and thus the American taxpayers of approximately 6 to 
$9 billion in lost Federal royalty tax revenues.
    Under the monument designation, this resource will not be 
available for our posterity. It is beyond question that the use 
of this environment-friendly coal could have had beneficial 
impact on our air pollution problems in this county. Yet, no 
interested parties or outside experts were consulted before the 
proclamation was made. Where is the rule of law here? Where is 
government by consent?
    With regard to the school trust lands, it is important to 
remember that at the time Utah became a State, certain lands 
were deeded to the State of Utah by the Federal Government to 
be held in trust specifically for the education of our Utah 
school children. The inability to access the natural resources 
contained on these lands will have a devastating impact on our 
State's ability to provide crucial funds for Utah's public 
school educational system.
    The Utah Congress of Parents and Teachers has indicated 
that ``the income from the mineral resources within the 
monument could have made a significant difference in the 
funding of Utah schools now and for many generations to come.'' 
It remains to be seen the manner in which the President will 
fulfill the promises he made to the children of Utah last 
September when he created the new monument.
    Specifically, he said, ``Creating this national monument 
should not and will not come at the expense of Utah's 
children.'' He also added that it is his desire to ``both 
protect the natural heritage of Utah's children and ensure them 
a quality educational heritage.''
    However, Lee Allison, Director of the Utah Geological 
Survey, recently testified that, ``It is questionable whether 
the Federal Government has sufficient coal and other resources 
in Utah comparable to the school trust's coal in the 
Kaiparowits coal field, let alone the trust's other energy and 
mineral resources within the monument.''
    This is not encouraging. Everyone wants to know how the 
Administration expects to compensate Utah's school children for 
the lost revenues contained on the trust lands within the 
monument. And I am very hopeful that we will learn about the 
Administration's plans in that regard today.
    Remember, our wilderness bill considered last year proposed 
designation of approximately one-quarter of the monument-
designated land as wilderness. This wilderness designation 
would have given greater environmental protection to the scenic 
Escalante region. Monument status, on the other hand, allows 
buildings of roads, tourist centers, rest rooms, and eateries.
    This is the great irony: the stated purpose of the 
President's proclamation was increased environmental 
protection. Yet, our wilderness bill would have provided much 
greater protection to the most scenic and historic areas of the 
Escalante region. But we were not consulted; we were not asked; 
nor was our opinion sought. Rather, in an effort to score 
political points with a powerful interest group 48 days before 
a national election, President Clinton unilaterally acted.
    In taking this action in this way, the President did it 
backwards. Instead of knowing how the decision would be carried 
out and knowing the ramifications of its implementation and the 
best ways to accommodate them, the President has designated the 
monument and now expects over the next three years to make the 
designation work. The formal designation should have come after 
the discussion period. It is how we normally do things in our 
country.
    Unfortunately, however, the decision is now fait accompli, 
and we will have to deal with it as best we can. I hope the 
President will be there to help our people in rural Utah and 
our school system as the implementation of the designation 
order takes place.
    When an area the size of the Grand Staircase-Escalante 
National Monument is withdrawn from public use and given the 
special designation, there are many ramifications, both 
economically and socially, that need to be addressed, the 
burden of which falls primarily on the shoulders of the local 
community.
    These include amending county land-use plans to be 
consistent with the new monument; improving the infrastructure 
so as to prepare the existing inadequate transportation system 
for the massive inflow of new visitors to the area; and 
improving services provided by local government, such as law 
enforcement, emergency, search-and-rescue, solid waste 
collection, and disposition of water and other natural 
resources, in anticipation of greater visitation to the area.
    These are just a few of the items that are currently being 
discussed and reviewed by local leaders in the area of the new 
national monument. These are not trivial matters; they are 
critical to continuing the livelihood of the cities and towns 
in the area. So no one should think that creating a new 
monument of this size, as endearing a concept as that is, does 
not create significant problems that must be addressed.
    Now, I could go on but let me just say this. As you know, 
Mr. Chairman, I filed a bill that would give the President--
would allow him to retain his unfettered authority under the 
Antiquities Act over monument designations of 5,000 acres or 
less. The 5,000 acre limitation will give effect to the 
``smallest area compatible'' clause, contained within the 
current Antiquities Act, which both the Courts and the past 
Presidents have often ignored. And I could go on on that. I 
will ask that the rest of my remarks in that regard be placed 
in the record.
    Mr. Chairman, today we will lay the groundwork for reform. 
Secretary Babbitt and CEQ Director McGinty will answer 
questions concerning the monument designation. And I look 
forward to finding out the true reasons why the designation was 
made and why it was made in such a secretive fashion.
    I also want to ensure that a fair and thorough process is 
followed on any future large-scale monument designations under 
the authority granted in the Antiquities Act. Since Utah is 
home to many other areas of significant beauty and grandeur, I 
am concerned that this President or others within his 
Administration, or a future President or Administration, might 
consider using this authority in the same manner as last 
September. In other words, it would be deja vu all over again.
    And we cannot afford to have the entire land area of our 
State subject to the whims of any President. Many have proposed 
plans, including myself, for these areas, that have been the 
subject of considerable public scrutiny and comment. The 
consensus building process must be allowed to continue without 
the threat that a presidential pen will intervene to destroy 
the progress and goodwill that has been established or that may 
be underway among the citizens of our State.
    In short, we must ensure due process of law and government 
by consent. So I am very grateful for you and the other members 
of this committee in holding these hearings, and I have 
appreciated the comments that have been made here today. And we 
will look forward to getting to the bottom of this and seeing 
what can be done to resolve some of the tremendous conflicts 
and problems that exist as a result of this unilateral 
declaration. Thank you, Mr. Chairman.
    [Remainder of statement of Senator Hatch follows:]

                  Remainder of Sen. Hatch's Statement

    The lack of consultation and all the problems this matter 
has brought about has led to the introduction of several 
legislative proposals in the 105th Congress to amend the 
Antiquities Act, including my own bill, S. 477, the National 
Monument Fairness Act. This bill is designed to correct the 
problems highlighted by the Clinton Antiquities Act 
proclamation in Utah in two significant ways.
    First, under the Act, the President would retain his almost 
unfettered authority under the Antiquities Act over monument 
designations 5,000 acres or less. The 5,000 acre limitation 
will give effect to the ``smallest area compatible'' clause, 
contained within the Antiquities Act, which both the courts and 
past Presidents have often ignored.
    For areas larger than 5,000 acres, the President must 
consult with the Governor of the state or states affected by 
the proposed proclamation. This consultation will prevent 
executive agencies from rolling over local concerns--local 
concerns that, under the dictates of modern land policy laws 
such as the Federal Land Policy and Management Act of 1976 
(FLPMA) and the National Environmental Policy Act, certainly 
deserve to be aired.
    Second, the National Monument Fairness Act allows all 
citizens of the United States to voice their concerns on large 
designations through Congress. The Act provides that Congress 
must pass into law a proposed designation over 5,000 acres and 
send it to the President for signature before the proposal 
becomes final and effective. Thus, the nation, through its 
elected representatives, will make the decision whether certain 
lands will become national monuments. This is the way our 
democracy ought to operate. Indeed, it furthers the intent of 
the Framers in the Constitution who anticipated that laws and 
actions affecting one or more individual states would be placed 
before the legislature and debated, with a state's 
representatives and senators able to defend the interests of 
their state.
    Would the citizens of other states balk at a presidential 
order declaring such an enormous portion of their own states 
out of circulation without even the opportunity to register 
their views on the subject? I daresay they would.
    Enactment of this bill will restore the rule of law and 
government by consent. It would reform the Antiquities Act, 
which is itself antiquated and subject to abuse.
    But today, we will lay the ground work for such reform. 
Secretary Babbitt and CEQ Director McGinty will answer 
questions concerning the monument designation. I look forward 
to finding out the true reasons why the designation was made 
and why it was made in such a secretive fashion.
    I also want to ensure that a fair and thorough process is 
followed on any future large-scale monument designations under 
the authority granted in the Antiquities Act. Since Utah is 
home to many other areas of significant beauty and grandeur, I 
am concerned that this President or those within his 
Administration, or a future president or Administration, might 
consider using this authority in the same manner as last 
September. In other words, it will be ``deja vu all over 
again.''
    We cannot afford to have the entire land area of our state 
subject to the whims of any president. Many have proposed 
plans, including myself, for these areas, that have been the 
subject of considerable public scrutiny and comment. The 
consensus building process must be allowed to continue without 
the threat that a presidential pen will intervene to destroy 
the progress and goodwill that has been established or that may 
be underway among the citizens of our state. In short, we must 
ensure due process of law and government by consent.
    Thank you.

    Mr. Hansen. Thank you, Senator Hatch. Senator Bennett.

 STATEMENT OF HON. ROBERT F. BENNETT, A U.S. SENATOR FROM THE 
                         STATE OF UTAH

    Senator Bennett. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here and join with my colleague, Senator 
Hatch, and always delighted to be with the Governor. I am glad 
that Secretary Babbitt and Chairman McGinty are with us so that 
we can maybe begin to have a kind of dialog on this issue that 
I think we should have had prior to the designation of the 
monument.
    I won't go through the entire chronology--it is familiar to 
most--about how we first heard about this in the Washington 
Post on the 7th of September. On the 11th of September, I 
called Bruce Babbitt and said, ``Bruce, what is going on?''
    And I must say that the Secretary was as forthcoming as I 
think he was able to be under the circumstances that he was in 
the Administration, and I have always appreciated his 
willingness to be candid with me.
    He told me on that occasion that the ultimate decision was 
not in his hands, that this was something that was being 
handled at the White House. We had subsequent meetings, and 
they have been referred to here. I won't reiterate those.
    But I do remember meeting on the Monday in which the 
announcement was made in the Senate in our offices in which 
White House representatives told us that this was an Interior 
Department decision. And I said, ``Well, the Interior 
Department says the White House is in charge. The White House 
is saying the Interior Department is in charge. I wish somebody 
would step forward and admit to being in charge.''
    On that occasion, we asked for maps to know what was being 
considered. We were told, ``No maps are available because no 
decision has been made. Once the decision has been made, then 
we will be able to give you a map.'' That was on Monday. On 
Wednesday, I read an editorial in the New York Times praising 
the creation of this monument covered complete with a map. They 
had maps available for newspaper reporters but not maps 
available for Members of Congress.
    Well, I received a phone call on that day, the 18th of 
September, from Leon Panetta. And he outlined for me what the 
President would be saying at the Grand Canyon that afternoon. I 
was not at all surprised to get that phone call, even though we 
had had all of the assurances that no decision had been made 
and that we would be consulted.
    As he went through the various points of the President's 
statement, Mr. Panetta summarized that those who held valid 
mineral leases in the area of the monument would receive 
appropriate compensation in the form of swaps; that is, land of 
equal value would be swapped with the land that they had in the 
monument.
    I said to Mr. Panetta regarding the coal, ``There is no 
equivalent land outside of the monument,'' to which he replied, 
``I am beginning to find that out.'' I find that a very 
compelling kind of statement. Here is the Chief of Staff of the 
White House who on the day of the announcement is just 
beginning to find out the value of the resource that is being 
dealt with here. Well, we talked back and forth, and he 
concluded that conversation with this statement, as best as I 
can recall it. He said, ``Well, Senator, at least we have three 
years in which to pick up the pieces.''
    After that announcement and comment by Leon Panetta, I have 
engaged in an effort to find out exactly what did happen in the 
process of creating this monument. Miss McGinty and I have had 
some exchanges in the hearing process, as she has come before 
various committees with the Senate defending her appropriation, 
and I have asked her repeatedly to give me information about 
how this was done and names of people who were involved.
    She assured me absolutely she would do that, but nothing 
was forthcoming. So I wrote her a letter. Her staff responded 
to that letter and said, ``This was an oversight, and we will 
send you everything relating to the monument,'' after which I 
received a very slim package with a very few documents, none of 
which, with one possible exception, in my opinion, was 
responsive to my request.
    And so I repeated the request while she was before the 
Senate Appropriations Committee seeking approval for her 
budget. In response to that, she contacted the Salt Lake 
Tribune and notified them that I had received everything I had 
asked for. She even put that notification in writing saying 
that Senator Bennett had been given everything he had asked for 
and everything he needed.
    We made it clear that we did not consider that I had 
received everything I had asked for, and perhaps in response to 
that continued pressure from my office, we then received the 
following box. This is in addition to everything I had asked 
for according to her statements to the Salt Lake Tribune.
    My staff has sacrificed their weekend getting ready for 
this hearing and has gone through these documents. They tell me 
that this constitutes about 20 or 30 percent of what I had 
asked for, but it is a good start. And I would like, Mr. 
Chairman, to get into these documents for a few quick 
references.
    In these documents, we have found, among other things, the 
following--I will not take the time to go through every page 
that is yellow-tabbed. My staff considered every yellow tab to 
be something of a smoking gun, but I will just talk about a few 
of them.
    We found a letter from the Solicitor of the Interior 
Department, Mr. Leshy, to Charles Wilkins. He is a professor in 
Colorado who actually drafted the proclamation. In that letter 
Mr. Leshy says, ``I can't emphasize confidentiality too much. 
If word leaks out, it probably won't happen so take care.''
    A memo from Miss McGinty to Marcia Hales at the White 
House, ``Leon Panetta asked that I prepare talking''--first, 
let me give you the dates. The date of the first one from Mr. 
Leshy is the 26th of July. On the 5th of August, Miss McGinty 
sends a memo to the White House in which she mentions the 
following: ``Roy Romer, Governor Miller, Mike Sullivan, former 
Governor Schwinden, Senators Reid and Bryan, and Representative 
Richardson to test the waters.'' No mention of anyone in Utah. 
And this comment, ``Any public release of the information will 
probably foreclose the President's option to proceed.''
    On the 26th of August, an e-mail from Mr. Brian Johnson to 
Mr. Tom Jenson, lower level officials but important officials 
involved in this. Mr. Jenson apparently asks why a Mr. 
Kenworthy had called. Brian Johnson replies he was just 
checking around. ``No idea where the Sierra Club thing came 
from, but we can ask Katie''--the indication that while no one 
from Utah was being consulted, people from the Sierra Club were 
in on this conversation. I could go on and perhaps will during 
the questioning period. I have a number of examples of that 
kind.
    Let me summarize my concern here. This is as serious a 
decision as we have made respecting public lands in this 
country. It was done entirely in secret with deliberate attempt 
to keep it secret right from the beginning. The issues that 
should have been raised in any kind of public exposure of this 
conversation have been swept aside, and, in the words of Mr. 
Panetta, ``We have three years in which to pick up the 
pieces,'' after the fact.
    Issue number 1, from my point of view: we can't have it 
both ways with respect to the economic impact of this land. 
Either it is going to produce millions and millions of tourist 
dollars, thereby making sure the land will not be wilderness 
because millions of tourists and wilderness are not compatible, 
or the promises of the economic benefit from those tourists 
will not be met.
    We must have an open discussion in this three-year period 
of exactly how many tourists we really want in this land. If it 
is as magnificent as the President indicated and should be 
preserved and kept in pristine fashion, we don't want any 
tourists there. As I said in my conversation with Secretary 
Babbitt, national monuments means paved roads, visitor centers, 
money for law enforcement, all kinds of things that are not 
necessarily--indeed, that are inimical to the wilderness 
proposal.
    Next, of course, is the school lands issue. Senator Hatch 
has already addressed that. The clear question is how is the 
President going to keep his promise that Utah's school children 
will be made whole. Are we going to have direct appropriations 
in Congress to compensate Utah school children? We don't know. 
Those are some of the pieces we have to pick up in this three-
year period to which Chief of Staff Panetta referred.
    Finally, of course, there is the issue of minerals on this 
land. We have already talked about the coal and the fact that 
there are no comparable lands to swap. But since the 
designation has been made, we have discovered that there is 
possibly oil in this area. Conoco has been given clearance to 
go ahead and drill a test well inside the monument on the piece 
of land owned by the State of Utah School Trust, not Federal 
land.
    What happens if Conoco hits in the deep well they are going 
to drill and we find that there is oil of worth comparable to 
the coal in this land? And how do we deal with that as we go 
through the three-year period in which we pick up the pieces?
    Those who draft legislation in secret, those who draft 
proclamations without an open process run the risk of being 
surprised when new information becomes available to them, and 
that is what has happened in this circumstance.
    My concern is that as we go through the three years in 
which to pick up the pieces, we now do so in an atmosphere of 
enormous distrust created by the process through which this 
monument was made. A more open process at the front end would 
allow us to have greater trust, negotiation, and solution on 
the back end. But the atmosphere of distrust has been created. 
It is all pervasive, and it is not getting any better.
    I sat there on my birthday, the 18th of September, and 
heard the President of the United States use my name on 
national television--every politician's dream of having the 
President identify him on national television. The President 
promised that I would be appointed to some kind of body or 
commission to discuss and ultimately resolve the issue of 
Utah's school lands.
    That has been well over six months ago--over half a year. 
We have only three years in which to pick up the pieces. One-
half of those three years is now long gone. I am still waiting 
for my phone to ring. I am still waiting for somebody to call 
me and say, ``That commission to which the President appointed 
you by name on national television is going to meet next 
Tuesday. Can you please come?''
    In this atmosphere of distrust, spawned by the method in 
which this monument was created, I have great concern that that 
commission will not come to pass, that the issue of swapping 
out the school lands will not be addressed, and that once again 
the school children of Utah will be shortchanged.
    One final note on history. We have been told that the 
President's action is in the historic pattern of past 
Presidents, going all the way back to Theodore Roosevelt. We 
have checked Theodore Roosevelt's designation of the Grand 
Canyon as a national monument. And we have found that prior to 
making that designation, Theodore Roosevelt had full and open 
consultation with the governors of every State involved, that 
it came at the end of a consultation process and not at the 
beginning.
    Theodore Roosevelt's White House did not have boxes of 
documents that they were hiding that had to be pried loose from 
them after the fact in order to find out what he had on his 
mind. Had this monument been created in the same process and 
the same way that Theodore Roosevelt created the Grand Canyon, 
I would be sitting here today applauding it and saying that it 
will be wonderful for our children and future generations.
    As I sit here waiting for my phone to ring for the 
President to fulfill his promises, I am filled with great 
concern that the three years in which we have to pick up the 
pieces is rapidly slipping away from us, and the pieces are 
still scattered all over the landscape. Thank you, Mr. 
Chairman.
    [Statement of Senator Bennett follows:]

     Statement of Hon. Robert F. Bennett, a U.S. Senator from Utah

    Mr. Chairman, I am pleased to participate in today's 
hearing to discuss the process by which the Grand Staircase-
Escalante National Monument came into being. I look forward to 
your questions on this important event.
    On September 7, 1996, the world was informed that the 
President was considering creating a national monument in the 
State of Utah that was somewhere around two million acres in 
size. This came as unexpected news to members of the Utah 
delegation. When we began to ask questions, we were told ``Oh 
no, nothing is really under consideration. These are just 
discussions taking place in the White House and they probably 
should not have been leaked. There shouldn't be any 
speculation, because nothing is really going to happen.''
    But rumors persisted. After a meeting held with our staff 
and Katie McGinty on September 11, the Administration's intent 
became even more clouded. That night, I called Secretary 
Babbitt myself. Again, I was assured that nothing was going to 
happen, that he knew very little and he would certainly let me 
know if some thing was to happen. Just to be safe, after our 
conversation, I drafted a letter to him asking three important 
questions about the Administration's positions on mineral 
leases, water and the school trust lands. The response was less 
than satisfactory, it essentially stated: ``I look forward to 
discussing these issues with you further.''
    During that week, some speculated this was just the 
Administration getting back at the Republicans in Congress. One 
problem with that speculation: The Democratic Congressman who 
represented the Third Congressional District where the monument 
was located was uttering the same concerns. He expressed 
amazement that he had not been consulted and came away from his 
meeting with the Secretary saying ``I have been assured that 
there is nothing imminent going to happen.'' Unfortunately for 
Congressman Orton, this event had been planned well in advance, 
despite the assurances he had received.
    On Saturday, September 14th, Senator Hatch and I were 
summoned to Secretary Babbitt's office for a meeting to ``calm 
our fears'' and to lay out a full statement of what was going 
on. Imagine my surprise when Secretary Babbitt began the 
presentation by saying, ``We're here just to listen to your 
concerns.'' We thought we were there to learn about the 
proposal. At that meeting, Senator Hatch and I registered our 
deepest concerns that an action as significant as this would be 
taken without consultation with Congress, let alone members of 
the Utah delegation.
    Congress as a whole, having historically played a 
significant role in the creation of National Monuments was 
being entirely cut out of the process. At that meeting, 
Secretary Babbitt told us ``I can tell you categorically, no 
decision has been made with respect to this proposal.'' When 
confronted by the press, again, he reiterated: ``No decision 
has been made.''
    I went away from that meeting convinced that in spite of 
the assurances that had been made to us that no decision had 
been made, in fact, we were on track toward a certainty of an 
announcement. Of course, this came just four days later.
    Now, the documents finally provided to us almost six months 
after the fact, prove that numerous individuals, ranging from 
members of environmental groups to members of the media, and 
elected officials from the Democratic party outside of Utah 
were all privy to information regarding the establishment of 
the monument far in advance to any notification of the Utah 
delegation--despite the personal assurances of both Ms. McGinty 
and Mr. Babbitt to the contrary, that no decision had been 
made. There appears now an intent to deceive the people of Utah 
and this should disturb the members of this Committee.
    On Wednesday, September 18th, I received a phone call from 
Leon Panetta. I was not surprised when he told me that the 
President would announce the creation of a new national 
monument. This was not necessarily news, because the rest of 
the world was tipped off on Monday when CNN announced that the 
President would travel to the Grand Canyon to make ``a major 
environmental announcement.''
    That morning, both the New York Times and the Washington 
Post published editorials in favor of the new monument. The 
Times editorial was entitled ``A New and Needed National 
Monument.'' The fact that this appeared in the New York Times 
the day the President made his announcement illustrates that 
almost everyone with close ties to the Administration was 
informed of this far in advance of our official notification by 
the White House.
    In my conversation with Leon Panetta, it was revealed to me 
that the issue that impacted the State of Utah the most--School 
Trust Lands--was merely an afterthought to this administration. 
I informed Mr. Panetta that he would be hard pressed to find 
anywhere in the State of Utah, or in the nation for that 
matter, an energy reserve large enough to make the school kids 
of Utah whole again. His reply to me ``I am beginning to find 
that out.''
    And that afternoon, the President made a lovely speech on 
the Rim of the Grand Canyon. He signed a Presidential 
Proclamation creating a 1.7 million-acre National Monument in 
Utah. One hour later, he was back on Air Force One, off to 
another campaign event.
    Unfortunately, Utahns were left to pick up the pieces. We 
were given a vague promise of an unprecedented three-year 
planning process, which would solve all of the problems that 
arise with the monument's creation. ``Trust me,'' he said. But 
after receiving additional documentation, Mr. Chairman, given 
the history leading up to the announcement, it is fairly 
difficult for many people in Utah, to trust the administration 
on this one.
    Throughout this whole process, the Administration adopted a 
``Trust Me'' attitude. The Administration took the approach of 
``We are going to turn the process completely around. Instead 
of going through the development of the Monument proposal and 
then creating the monument, we will create the monument and 
then develop the plan after the fact.... but trust us.''
    ``We will take care of all your concerns.'' We were told. 
But when it came to even trying to learn the names of those 
involved in the process and the development of the monument, to 
have further discussions with those individuals, our requests 
for information were refused.
    Ms. McGinty and I participated in a rather pointed exchange 
on September 26, where she promised to provide a list of those 
participants in the process as well as full documentation of 
the decision making process. She claims she did provide that 
information. The Record shows clearly now, that she did not.
    And this is why we find ourselves here today. Were it not 
for the reluctance of this administration to provide us 
information early on, to bring us into the decision making 
process, we would have had answers to our questions.
    Now, after several requests, information has finally been 
provided. It is my expectation that today's hearing, members of 
this committee will see how distorted this unfortunate process 
had become. The fact that we are here today is a testament to 
how the public process should work. Unfortunately, it is a 
luxury that the people of Utah were never afforded by this 
Administration. I thank the Committee for this opportunity to 
participate in the public process and I welcome your questions.

    Mr. Hansen. Thank you, Senator Bennett, and I assume your 
phone will ring this afternoon, however. We are always honored 
to have Governor Leavitt with us. Governor Leavitt, we will 
turn to you, sir.

 STATEMENT OF GOVERNOR MICHAEL O. LEAVITT OF THE STATE OF UTAH

    Governor Leavitt. Thank you, Mr. Chairman, and to my 
esteemed colleagues, I express appreciation of the opportunity 
to be here to represent the people of our State. And my formal 
remarks, I will detail the events as they unfolded with respect 
to my office. I will make a short version of those and will 
make some comments at the end with respect to my feelings about 
the needs for the Antiquities Act to be amended in significant 
ways.
    We in Utah have worked hard to build relationships and to 
forge partnerships and to lay groundwork for interagency 
cooperation unmatched by other public land States. For these 
reasons, the chain of events that surrounded the establishment 
of the Grand Staircase-Escalante National Monument have caused 
me and others in Utah great concern and have created a greater 
distrust, regrettably, of the governmental process by many of 
the people who live in the State of Utah.
    On September 18, when the President invoked the provision 
of the 1906 Antiquities Act to designate 1.7 million acres of 
southern Utah as the Grand Staircase-Escalante National 
Monument, the first reports of which I heard, as been referred 
to earlier, was an article in the Washington Post some nine 
days earlier.
    The following day, on Monday, September the 9th, I called 
the Secretary and had a conversation where he told me that he 
was currently not involved in the discussions and that I should 
call the White House. When I called the White House, I spoke 
with Marcia Hales, who is the Director of Intergovernmental 
Affairs. She told me that she too had seen the story and that 
she was not certain where it had come from, but she would get 
back to me to tell me how serious a proposal it was.
    On Wednesday, September the 11th, a few days later, Ms. 
Hales called to report to me that while there had been a 
discussion, no decision had been made. I asked, ``What is the 
timing on this matter?'' She said, ``Well, that is what the 
decision is.'' I said, ``That doesn't sound to me like a 
decision that hasn't been made. It sounds to me a decision has 
been made, and you are just trying to decide when you should 
announce it.''
    ``Well,'' she said, ``I think we are a little ahead of 
ourself on that piece,'' but I said, ``It seems very clear to 
me that I need to speak with the President on this matter, or 
if he is unavailable, I would like to speak with Mr. Panetta.'' 
Later that week, an appointment was confirmed with Mr. Panetta 
for the following Tuesday.
    On Friday, September the 13th, my office became aware 
through the news media that there was an important 
environmental announcement planned for the Grand Canyon the 
following week. Preparations were already being made by 
environmental groups for transportation to the Grand Canyon for 
the announcement. Local governments in Utah were becoming more 
and more concerned.
    On two occasions during that week, again I spoke with Mr. 
Babbitt's office. As was indicated, we were referred to the 
White House. When we called the White House, we were referred 
to the Interior Department.
    Late Friday afternoon, the Secretary called again and 
invited me to an emergency meeting in his office the next day 
on Saturday. The congressional delegation was invited. I was 
not able to attend because of my travel schedule earlier, going 
out the next day, and others have referred to that. But a sense 
of inevitability just continued to grow.
    On Monday, after a weekend that was just a blur of phone 
calls and meetings with local governmental officials, despite 
the fact that the buses were being organized to take Utahans to 
Arizona for the announcement, when the Governor's office would 
call to get confirmation, we would not even be given a 
confirmation of where and when or if an event was going to be 
held.
    I traveled then to meet with Mr. Panetta. On Tuesday, the 
17th, I met with Mr. Panetta. I was told that he was 
responsible for making a recommendation to the President. Mr. 
Panetta said he set aside the afternoon to prepare that 
recommendation. Miss McGinty and also Marcia Hales and another 
member of the White House staff were present for that meeting.
    My presentation focused primarily on the problems that 
would be caused by the complete abandonment of public process. 
I explained that it was our deep desire as a State to have many 
parts of this land and this region protected. I detailed for 
them a proposal that ironically we called ``Canyons of the 
Escalante: A National EcoRegion.'' I described for them that, 
you know, proposal that had resulted from an intergovernmental 
public planning process that I had initiated three years 
earlier to protect this very beautiful area.
    The concept was developed by State and local and Federal 
land managers working together for over a year. It would have 
provided flexibility, and yet it gave more stringent protection 
for some of its more pristine areas even than that which was 
ultimately proposed.
    I also spent considerable time that day discussing our 
school trust lands. Mr. Panetta asked me to explain the status 
of those lands. Prior to our discussion, he told me that he was 
unaware of their existence or their importance and asked me to 
explain our relationship with them and the relationship with 
the school children in our State.
    Our meeting lasted just under an hour. Mr. Panetta told me 
that it was the first time that he had had a chance to really 
focus on the issue. He reiterated that he would make a 
recommendation to the President that afternoon. He told me that 
he didn't like making decisions in a vacuum like this.
    At the conclusion of the presentation, Mr. Panetta said, 
``You have made a compelling case,'' to which I replied, ``If 
this is compelling to you, then before the President sets aside 
a piece of land equal to the State of Rhode Island, Delaware, 
and the District of Columbia combined, he needs to hear the 
same information directly from the Governor of the State.'' I 
was told that Mr. Clinton was campaigning in Illinois and 
Michigan, but that he would call me later in the evening.
    Wednesday now, September 18, the day that the monument was 
to be declared, at 1:58 a.m. Washington time, my telephone 
rang. It was the President. The President told me that he was 
just beginning to review this matter and the recommendations. I 
restated in short form the material that I had discussed with 
Mr. Panetta.
    The call lasted nearly 30 minutes. At 2:30 a.m., we were 
both very tired, and I offered to write a memo to the President 
that he could read when he was fresher in the morning. He 
requested that I write the memo.
    I sat at my desk in the hotel room and prepared a 
handwritten two-plus-page memo to the President. It was faxed 
to him at his temporary quarters in Illinois at four o'clock 
that morning. The memo told the President that if the monument 
was to be created that he should create a commission that 
included State and local officials to recommend boundaries and 
to solve a number of the management questions.
    I told him that he should work toward a policy that 
protects the land but also preserves the asset and maintains 
the integrity most importantly of a public process. I knew that 
the local government leaders in that area would welcome such a 
process. I knew that from having spoken with them many times.
    At 7:30 in the morning, I spoke with Mr. Panetta. He had 
also reviewed the memo that I had written for the President, 
and, again, he indicated that he felt my ideas had merit. He 
said he would be reviewing the matter again with the President. 
The President had to leave shortly to fly to Arizona.
    Later in the morning, Mr. Panetta called to inform me that 
the monument would be announced. He detailed the conditions of 
his action which gratefully incorporated some of the 
suggestions that we had made relative to water and wildlife 
access and the planning process with local and State 
participation.
    At two o'clock eastern time, the President stood at the 
north rim of the Grand Canyon to announce the creation of the 
Grand Staircase-Escalante National Monument and its 1.7 million 
acre expanse of Utah's Garfield and Kane Counties. As has been 
mentioned, no Member of Congress, no local official, or had the 
Governor ever been consulted, nor had the public.
    As the Governor, I had not seen a map. I had not read the 
proclamation, or, for that matter, was I even invited. This 
isn't about courtesy, it is about process. It is about public 
trust. A major land decision, perhaps the biggest land decision 
that has been made or will be made in the next two decades, had 
occurred. Obviously, this is not the way public land decisions 
should or were ever intended to be made.
    In 1976, this nation made an important public policy 
decision. Congress passed landmark legislation, FLPMA, 
requiring that we have great deliberation and that we take 
great care in making decisions about public lands and how they 
be used.
    That act, and other related legislation, contained 
protections for State and local governments. It is going to be 
the policy of this Administration and is currently that we will 
not be denied those protections, and we will do all that we 
have to do to assure that we are afforded them.
    The President's use of the Antiquities Act to create a 
monument was a clear example of inadequate protection. Our 
system of government was constructed to prevent any one person 
from having that much power. The law was originally intended to 
provide emergency power to protect Indian ruins and other 
matters of historic importance.
    Over the past 90 years, the Federal Courts have allowed the 
gradual expansion of those powers. The President's recent 
proclamation was a classic demonstration of why the founders of 
this nation divided power. Power unchecked is power abused. 
Utah and other States need protection from further abuses of 
the 1906 Antiquities Act. My Administration and other States I 
hope will join with us in supporting appropriate amendments.
    Land preservation decisions must be considered in 
relationship to the land and the local economy. And the State 
of Utah intends to intensify our efforts to assure that that 
occurs. Historically, whenever the Federal Government has 
determined that a local interest is subordinate to a national 
interest, then some kind of Federal assistance is afforded. We 
should all focus on how that should be done.
    Mention has been made already of the school trust lands and 
their importance. And more will be stated, and my formal 
testimony includes more. And I will, in the interest of time, 
not mention those except how deeply we believe that the 
national government owes us compensation and must do as the 
President suggested in making compensation in favor of the 
school children.
    I want to say that I appreciate the President's remarks 
concerning the trust lands that he made at the time he signed 
the declaration. And I appreciate his decision to resolve any 
reasonable differences, as I have suggested, in their favor.
    But I will also like to point out that there is 
considerable expense involved in going through this process. We 
estimate it may be as much as 5 to $10 million on the behalf of 
our school trust just to go through these negotiations. And we 
would ask that the national government compensate our school 
trust for those particular expenses.
    I would also like to emphasize in that we are now into this 
three-year period to pick up the pieces, the State of Utah is 
committed to being a full partner in this process. Promises 
have been made by the President and the Secretary to ensure 
that the State has a prominent role, and to this point, those 
have been kept.
    I did ask, however, that the proclamation be amended to 
include the President's promises to me directly and those that 
he made to the American people on national television. That 
proclamation has not been amended, nor have they indicated a 
willingness to do that. There is legislation pending before the 
Congress that would memorialize that language. I would urge its 
adoption.
    In closing, may I just like to reiterate again that we 
believe that some kind of protection to this sensitive and 
spectacular lands of the Escalante area needs to occur. 
However, I deeply regret that President Clinton didn't keep 
public trust by choosing to follow the process in protecting 
this area.
    Had Mr. Clinton been willing to discuss his ideas with 
those in Utah, he would have found that we were anxious to do 
so, that we would have worked closely with them, and local and 
State representatives were ready and willing to work with his 
staff to make the best protection possible. Obviously, this 
didn't happen.
    President Clinton was unwilling to reveal his plan to any 
elected official. Perhaps the only thing more disappointing to 
me in this whole process is the fact that while he was not 
willing to consult with us, he was willing to consult with 
other western leaders, as Senator Bennett has suggested. My 
colleagues in other States were consulted. Former governors 
from other States were consulted long before this. Members of 
Congress in other States were consulted. The Governor of the 
State, nor local officials were not.
    The memo that Senator Bennett refers to causes me great 
distress. It makes reference to the clear fact that if, in 
fact, this became a matter of public knowledge, it might change 
the course of it. And I think that is an absolute certainty.
    The events constituted a partisan political rally that had 
been planned and executed to be an under-the-cover-of-darkness 
event--a surprise. I find it regrettable that someone that we 
have entrusted to the highest office of the United States would 
be willing to undertake a process that was purely partisan on a 
matter of such importance.
    We as a nation need to examine the power that is given to a 
single person in this case. It is too late for residents of 
southern Utah living in the area of the Grand Staircase, but it 
is not too late for other areas of Utah or of the United 
States. And, Mr. Chairman, we urge consideration of the 
amendments that are being proposed.
    [Statement of Governor Leavitt may be found at end of 
hearing.]
    Mr. Hansen. Thank you, Governor. We appreciate your 
testimony. Kathleen McGinty, we appreciate your attendance 
here. We will turn the time to you now.

STATEMENT OF KATHLEEN MCGINTY, CHAIR, COUNCIL ON ENVIRONMENTAL 
                            QUALITY

    Miss McGinty. Thank you, Chairman. Mr. Chairman and members 
of the Subcommittee, thank----
    Mr. Hansen. Could I ask you to pull that mike up just a wee 
bit closer if you would please? Thank you very much.
    Miss McGinty. Thank you for the opportunity to present 
testimony concerning the Grand Staircase-Escalante National 
Monument. As I have testified on previous occasions, I was 
directly involved in the President's decision to establish the 
monument.
    I understand that different people have different views of 
these lands. For my own part, I have never seen a place as 
beautiful, as wild, as close to the hand of God. The earth's 
own history is openly told as nowhere else in the canyons and 
plateaus, the slickrock, and the sandstone.
    The history of courageous, resourceful people graces this 
land. In a continent of rising noise, urbanization, and 
busyness, I think this rural, remote, quiet, often austere 
Federal land deserves protection. But I do respect the views of 
others, including some here today who saw other values in the 
land.
    I also understand that different people have different 
views about the President's proclamation itself. For my part, I 
think the establishment of the monument was one of the most 
profound and appropriate acts of land stewardship ever taken in 
this nation.
    It is an understatement to say that the lands contain 
objects of scientific or historic interest as the Antiquities 
Act requires. Conservation of the lands has been hotly debated 
for decades and by last year the lands were in real jeopardy. 
The President exercised his authority, despite potential 
political risk, to assure their continued protection.
    He protected the land and traditional uses, the multiple 
uses of the land such as grazing and hunting that are central 
to the area's rural values and quality of life. I think the 
President did exactly the right thing. But, again, I respect 
the views of those who see this differently.
    You have asked me to describe how the monument proclamation 
came to be, and I am pleased to do so. The record on this 
matter tells a simple and straightforward story. Protection of 
Federal lands and resources has been a priority for this 
Administration since our first days in office. Their protection 
remains a priority today.
    Federal lands in Utah were not often in the national 
spotlight during the first two years of the Administration. 
That status changed, however, with the advent of the 104th 
Congress. Throughout late 1995 and early 1996, Congress and, in 
turn, the President personally brought increasing attention to 
public land issues in Utah largely in connection with 
congressional efforts to enact legislation that would have 
removed Federal lands from wilderness protection.
    Indeed, by November of 1995, the Salt Lake Tribune covered 
the emerging debate in a story headlined, ``Utah Wilderness 
Battle Becoming a U.S. Issue.'' Editorials ran in many national 
and regional papers sharply condemning the proposed 
legislation.
    In this context, the Interior Department repeatedly 
testified that the agency would recommend that the President 
veto the Utah Delegation's proposed legislation. In December 
1995, the Office of Management and Budget and the Executive 
Office of the President elevated the issue by sending a 
statement of Administration policy that conveyed the 
Administration's many objections to the bill and made clear 
that if presented to the President, the Secretary would 
recommend a veto.
    The President's concern intensified. In March, the Office 
of Management and Budget again advised the Congress the 
Secretary would recommend a veto even of the Omnibus Parks 
bill, pending legislation that this committee is aware 
contained essential priorities of the President. But if that 
bill contained the pending Utah legislation, the Secretary 
would recommend a veto. In that same month, the Vice President 
issued a statement underscoring once again the President's 
determination on this front.
    The President's focus on southern Utah lands also reflected 
widespread and building concern that proposed coal mining in 
the area could irreversibly damage Federal lands and resources. 
This concern was reinforced by provisions within the proposed 
legislation that promoted mining on the Kaiparowits Plateau.
    In light of these pressures, in June of 1996, the President 
decided to ask the Secretary of the Interior for advice on 
whether there were Federal lands in southern Utah that were 
eligible and appropriate for protection under the Antiquities 
Act. I relayed the President's request orally to Interior 
Solicitor John Leshy in a meeting in my office on July 3, 1996, 
and the President spoke directly with Secretary Babbitt over 
the July 4th weekend. This request was restated by the 
President in writing on August 7.
    In response to the President's request, the Interior 
Department conducted an extensive analysis and prepared a 
recommendation. The Department's recommendation was transmitted 
on August 15 and was supported by extensive documentation. I 
strongly supported the Department's recommendation.
    The Antiquities Act has been used more than 100 times since 
its inception. For example, the Grand Canyon, Grand Teton, 
Arches, Capitol Reef, Cedar Breaks, Dinosaur, Natural Bridges, 
and Zion were all originally protected by Presidential orders 
issued under the Antiquities Act. In fact, since this century, 
every President except three has established national 
monuments.
    In late August and early September 1996, at least two press 
accounts emerged that reported, in essence, that the President 
was reviewing the Department's recommendation. During the same 
period, the President and many of his senior staff and cabinet 
had numerous conversations with Members of Congress and their 
staffs, governors, and other interested parties. These 
conversations continued until September 18, 1996, the day the 
President issued the proclamation establishing the monument.
    The President made his decision only after speaking 
directly with or otherwise being made fully aware of the 
perspective of Utah officials and many others. The President's 
proclamation reflects the broad range of advice he received, 
considered, and balanced.
    For example, in establishing the monument, the President 
protected State water rights. In order to ensure important 
rural values, the President directed that hunting and fishing 
would remain top uses of the land. He also directed that 
existing grazing permits, leases, and levels would not be 
affected. And he called for an extensive public planning 
process that would directly involve local communities.
    The President committed his Administration to land exchange 
measures benefiting Utah's schools, and he directed the 
Secretary of Interior to establish an unprecedented partnership 
with the State of Utah. The President has followed up each one 
of these commitments with the funding and budget requests that 
are necessary to get the job done.
    Members of this committee know well that for decades people 
of goodwill and divergent opinions have debated the proper 
management of Federal lands in Utah. Questions have remained 
unresolved for two generations or more.
    The President's establishment of the Grand Staircase-
Escalante assures Americans from Utah and elsewhere that they 
can continue to use and enjoy the area essentially as they 
always have. In addition, the President has put forward the 
mechanism finally to break loose a large and important area of 
Federal lands in Utah from the gridlock that otherwise has 
prevailed for nearly 100 years.
    Today, this Administration, the State of Utah, Utah 
residents, and interested Americans from around the country are 
commencing the critical work of deciding how the lands are to 
be managed. The collaborative intergovernmental planning 
process led by Secretary Babbitt is a fair, open venue 
reflecting the breadth and balance of the President's 
proclamation. This process has ample room to safeguard rural 
community values and the land itself.
    In this regard, I would like to commend and acknowledge the 
leadership of Governor Leavitt, who is personally engaged in 
this effort and has committed his own time and top staff 
resources to ensure that this effort gets underway and engaged 
in a very positive manner indeed. It is good news that now in 
the final years of the 20th century we are finally moving 
forward and moving away from the gridlock that otherwise has 
held sway.
    The President's leadership means that gridlock has been 
replaced by dialog, deadlines, and deliverables. The President 
set the foundation for progress, and people of goodwill are 
coming together to build on that foundation. We are proud of 
this effort, committed to it, and we will work to see it 
through to a successful conclusion. Thank you, Mr. Chairman and 
members of the Subcommittee. I would be pleased to respond to 
your questions.
    [Statement of Miss McGinty may be found at end of hearing.]
    Mr. Hansen. Thank you very much for your testimony. 
Secretary Babbitt, it is an honor to have you here, sir.

 STATEMENT OF HON. BRUCE BABBITT, SECRETARY, DEPARTMENT OF THE 
                            INTERIOR

    Secretary Babbitt. Mr. Chairman, if I may, I will submit my 
prepared remarks for the record and just see if I can fill in a 
few items with respect to the events leading up to the 
proclamation and then see if I can talk just a bit more about 
the process that is now underway in partnership with the State 
of Utah and the local community.
    Mr. Hansen. Mr. Babbitt, let me just interrupt you to say 
all of the records, the documents will be included in the 
record. And anyone who is so inspired to reduce their remarks 
is encouraged to do so.
    Secretary Babbitt. Mr. Chairman, thank you very much. Just 
a word about the Antiquities Act. The Antiquities Act is 91 
years old. It has been one of the most successful environmental 
laws in the history of the United States of America. Every 
President in this century since Theodore Roosevelt, with three 
exceptions, has used that Act, and Congress has inevitably 
validated and confirmed the presidential exercise of authority 
under that Act.
    I would personally oppose any attempt by this Congress to 
undo 91 years of unparalleled success, and I strongly urge you 
to turn away from any movement to again try to undermine the 
structure of existing environmental laws and to more 
appropriately devote our energies toward the issues that we now 
address in the management of this extraordinary national 
monument.
    Secondly, let me just briefly say that I understand there 
are questions about the nature of the debate that preceded the 
President's proclamation. I would only say that the future of 
these lands in southern Utah is, without any possibility of 
contradiction, the most extensively and publicly debated piece 
of turf in the history of the United States of America.
    This debate I think really began when Clarence Dutton wrote 
a report back in the 1880's as part of the Powell Survey. It 
extended along into the 1930's with proposals by my 
predecessor, Secretary Ickes. It has recently flowered once 
again in the debate over the wilderness legislation. Chairman 
Hansen and I have had a debate about wilderness inventories. It 
came up again in the parks legislation in the past year.
    And in that context, I think it is very important to not 
get carried away with this notion that somehow this was an 
unanticipated and sort of act that just appeared out of 
nowhere. It is a culmination of a long, intensive debate as 
indeed happened with most of the other exercises of 
presidential power under this extraordinary environmental law.
    Now, let me briefly say a word about the process that we 
are embarked upon, and I take note at the outset that Governor 
Leavitt has conceded that the process is working in that we 
have produced on our commitments.
    Just a word about the origin of those commitments. I was in 
Las Vegas the night before the President appeared at Grand 
Canyon. He called me at some incomprehensible hour of the 
night, awakened me, and told me that he had been talking with 
Governor Leavitt, and that he had a number of issues that he 
wanted to go over with me at that point.
    He asked me specifically about hunting, fishing, valid 
existing rights. I explained that there is a body of law that 
protects all validly existing rights. He asked me about the 
issue of water rights, which obviously is a sensitive issue. I 
said that the proclamation is drafted to exclude any 
reservation of any kind. It expressly leaves the issues of 
water rights to the State of Utah.
    He asked me about private land. I indicated once again that 
private land is entirely unaffected by the proclamation that he 
was then looking at. He told me that he had discussed the 
school lands issues with Governor Leavitt, and he asked me to 
explain what that issue was about.
    I began by explaining that I was familiar with the issue 
because during my tenure as Governor of Arizona, the Arizona 
school trust had been involved in this issue, and we had 
exchanged more than 2 million acres of land with the United 
States and the Secretary of the Interior in a situation exactly 
analogous to the issues that have been put forward by the State 
of Utah.
    I reminded the President that in 1993 he signed a bill 
called the Utah School Lands and Exchange legislation which was 
designed to facilitate land exchanges that were already at 
issue because of inholdings in national forests and national 
parks in Utah. And I explained to him briefly that that process 
was underway, that we were working cooperatively with the State 
of Utah to facilitate those exchanges, and that it was my 
opinion that the State inholdings in any new national monument 
could very appropriately follow an identical track.
    We also talked about a management plan and the issue of 
interim provisions until completion of the management plan. As 
a result of all this, he asked me if I would write some 
language. I said, ``Mr. President''--I finally kind of cleared 
my eyes and looked at the clock, and it was I think about 2 
a.m. in Las Vegas, and I said, ``Well, yes, I will try to do 
that.''
    I then went over to Grand Canyon the next morning and spoke 
to him while he was on the way from Chicago, once again went 
through these issues, sent him some language for his statement, 
and then reviewed it again with both him and the Vice President 
when they arrived at Grand Canyon.
    I take you through that just to emphasize that these issues 
raised by the Governor, raised by Senator Bennett in a letter 
to me, raised in my discussions with the delegation on the 
Saturday prior to the announcement were heard, very seriously 
were reflected in considerable detail in both the proclamation 
and the President's statement. And we are, in fact, well 
underway, as Governor Leavitt acknowledged, to the 
implementation of those commitments.
    Very briefly, the first thing we did was to appoint a 
widely respected Utah BLM manager, Jerry Meredith, to be the 
monument manager. With the assistance of Governor Leavitt, we 
have appointed a 15 member planning task force of 
professionals. Five of those are State of Utah officials 
designated by the Governor of Utah.
    I have issued interim guidelines for management of the 
monument. They are of public record. They are available. They 
have elicited, to my knowledge, no negative response of any 
kind. But we have sat down with the two counties principally 
involved, Kane County and Garfield County, to see if we could 
help with their local planning needs. That resulted in a grant 
from the Department of $200,000 to the Kane County Commission 
to get their efforts started. I am confident and hopeful that 
we can get a similar agreement with Garfield County.
    With respect to the school lands, the process laid out in 
the 1993 legislation continues. The appraisal process that was 
put together jointly by the State of Utah and the Interior 
Department has produced appraisals on approximately 500 
sections of school inholdings.
    These go back, Mr. Chairman, many decades. It was in this 
Administration that the Governor, the Interior Department, and 
the Congress decided that it was time to resolve this issue. 
Those appraisals are back. The Department has accepted 
approximately 400 of the 500 section appraisals.
    Now, let me stress once again that those sections are 
identical in terms of their import to the school trust. They 
arise out of the same kind of process, and it is my 
anticipation that the school sections within the Escalante 
Monument, in an acreage about equal to the ones that are 
already in process from all of the accumulated land history of 
Utah, can and will be processed.
    They are premised on equal value exchanges because that is 
the Federal law. It always has been, and that takes a fair 
amount of work to get these appraisal processes agreed upon, to 
iron out any differences. We did it for 2 million acres in 
Arizona during my time as governor. The acreage involved here 
is less than half a million acres. I am absolutely confident 
that we can proceed to get that done.
    In summary, the President meant what he said. Items in his 
statement relating to the management of this new partnership 
were constructed in response to issues raised by Senator Hatch, 
Senator Bennett, and Governor Leavitt. It has the makings of an 
unprecedented partnership--Federal, State, local. It is 
working. It is now backed up by a $6.4 million line item 
request in our 1998 budget, and we are prepared to bring this 
to fruition as a model for how this kind of process can be 
done. Thank you.
    [Statement of Secretary Babbitt may be found at end of 
hearing.]
    Mr. Hansen. Thank you, Secretary Babbitt. I will allow each 
member to take five minutes to question the panel. I will break 
with my tradition and start myself. When this was announced, 
this sent shock waves through Congress. I can't tell you, Mr. 
Secretary, how many calls I got from Members saying, ``I don't 
want this to happen to my State.''
    As you know, Wyoming and Alaska are excluded from the 
Antiquities Law so I would hope I could talk you into softening 
your position and think this through a little bit before you 
unequivocally say you would go against the Hatch-Hansen bill, 
which basically would not do away with the Antiquities Law for 
many States, it would just limit it to 5,000 acres. And then on 
top of that, the Governor and the Congress would have something 
to do with it.
    But I think we all realize that since 1906 we have had the 
Wilderness Act, the NEPA Act, the FLPMA Act, and all of those 
make a difference on it. So why don't you give it some 
prayerful thought. You may come up with another conclusion if 
you think about it and read our bill extensively. I would like 
to ask Governor Leavitt as the Chief Executive Officer of the 
State of Utah, what seemed to be the reaction of the folks in 
southern Utah, and what do you see?
    Governor Leavitt. Mr. Chairman, it was not just the people 
in southern Utah, it was the people of Utah who believe that 
the process was inadequate, and that we were not considered or 
consulted, and that, again, I would restate what you have 
suggested, that it is not the protection of the lands because 
we were moving forward with concrete proposals that had been 
coordinated with Federal, State, and local officials, it is the 
complete lack of process. It was the fact that it was done 
under the cloak of secrecy.
    As I suggested in my testimony, we made a very important 
public policy statement in this country in the late 70's when 
we decided that decisions like this would be made in an open 
way. We are often required--in fact, always required--to follow 
that process in everything that we do. And sometimes it becomes 
quite a burden, but we follow it. And so there was considerable 
both disappointment and outrage.
    Mr. Hansen. Thank you. Miss McGinty, you know, I have been 
trying to figure out who wins on this deal. In my humble 
opinion, the environmentalists shot themselves in the foot, 
that things now will be open to be seen. More roads, airports, 
railroads, the whole nine yards could go in there.
    Already in this morning's paper there was a thing about all 
of the people now coming to look at the Escalante area. Right 
here--``The visitors are flocking to Escalante.''
    You have all alluded to the idea of other monuments being 
created, and I concur with that. I think Theodore Roosevelt did 
a super job on it. And like Senator Bennett, we too have looked 
into how these came about. Have you ever been on the land? Have 
you ever been on that 1.7 million acres?
    Miss McGinty. I have indeed, sir.
    Mr. Hansen. You have traveled around it and seen the whole 
thing?
    Miss McGinty. Well, I couldn't attest that I traveled on 
every part of 1.7 million acres, but I have traveled through 
the area. Yes.
    Mr. Hansen. You know, it kind of amazes me, and no 
disrespect to anybody here, but it is like the Nicaragua War. 
People used to go down and say that they have seen it, and they 
flew over it in a DC-10 and turned around and came back and 
said, ``Gee, we have seen it. We have great knowledge of it.'' 
And I am not saying that that is the case here.
    We can't see really who gained from this thing. Now, it 
will be an open area, absolutely--I don't think--I think they 
extinguished wilderness on the monument. There is quite a bit 
of difference between a monument and wilderness. And monuments 
are to be seen. I think Senator Bennett is right on the things 
that he is coming up with in his bill, and I hope you have 
taken a look at that bill. The Democratic party lost a member 
over it. I just have a hard time seeing where is the win-win on 
this.
    And for someone who was raised in the West and probably--I 
dare say I sound a little presumptuous on my part that I 
probably spent more time in the outback than probably anybody 
in this room and made a life of doing that. If the 
Administration had come to us and said, ``Let us reason this 
out,'' I would have agreed wholeheartedly that Waterpocket Fold 
should be a monument. I would agree that the Escalante Canyon 
should be a conservation area.
    But I can hardly believe that the areas around Big Water 
and Andalex and those areas that they were talking about ever 
qualifies whatsoever. If they had taken the time to do that, I 
think we would have worked out something that could have been 
done. Any reason why we didn't do that?
    Miss McGinty. Well, let me say, sir, first of all in terms 
of the values that are protected here, the Antiquities Act 
looks at objects of scientific and historic value. So in terms 
of the definition or the boundaries of the monument, they are 
informed by a scientific and technical analysis that identifies 
where those objects are, and that is what was at issue here.
    In terms of the ultimate use of the land, the reason the 
President feels so strongly about the three-year process that 
is now in place is exactly so that there is a process where 
local communities can and will be involved, the State is 
intensively involved, to work our way through the issues as to 
how the land should be managed.
    We have great confidence based on the start we have already 
had in these discussions that this is a process that can handle 
and bring to fruition these issues that, again, had defied 
resolution for generations.
    Mr. Hansen. But we haven't seen any of those objectives 
catalogued. In a memo from Marcia Hales to you dated August 5, 
1996--I see my time is up, and I am going to hold everybody to 
their time--I will hold myself to my time--but I have a number 
of questions I would like to ask you and other members of the 
panel. And if any of my colleagues are so inspired to yield to 
me when they get their time, I would be very appreciative. But 
I will turn now to my friend from American----
    Senator Hatch. Mr. Chairman, could I just make one comment?
    Mr. Hansen. Senator Hatch.
    Senator Hatch. Yes. I listened to Miss McGinty and her 
comments, and I am sure she is very sincere. But she said there 
has been a process here because they did discuss this with the 
two Nevada Senators, as I recall, Senators Reid and Bryan. They 
discussed it with Roy Romer, who was Governor of Colorado and 
now is head of the Democratic National Committee. And she said 
they discussed it with people in Utah.
    Unfortunately, they didn't even discuss it with the sole 
Democrat in the delegation, Bill Orton, and they certainly 
didn't discuss it with us. And above all, they didn't discuss 
it with our Governor, who is a reasonable person, who is well 
respected, who is one of the leaders of the Governors 
Association. And now they are saying that the process is going 
to be fair because we will have three years in which to rectify 
these problems.
    I hate to say it, Miss McGinty, but that is exactly wrong. 
It is exactly opposite of what you should have done, and, 
frankly, to come here and make these comments like you are 
really following a wonderful process--due process, if you will, 
I think is totally false. I apologize for interrupting, but I 
sit here and I think, ``How can she even make those 
arguments?''
    Miss McGinty. Mr. Chairman, might I respond briefly?
    Senator Hatch. I would like her to respond.
    Mr. Hansen. I will give you a minute to respond, and then 
we will move on.
    Miss McGinty. Thanks very much. The three-year process we 
are engaged in now will answer questions as to the management 
of the lands in question. However, what I laid out in my oral 
testimony was a history, at least dating since December of 
1995, where the President--the Executive Office of the 
President--put the Congress very clearly on notice of the 
President's very strong concerns and his determination to see 
wilderness protections not be taken away from these lands.
    That continued in a series of statements from the Executive 
Office of the President and indeed from the Vice President 
himself on this. The Secretary paints an even longer history 
around these issues. These issues have been debated. These 
issues have defied resolution. We now have the opportunity to 
move forward, and the President is committed to doing just 
that.
    Mr. Hansen. Thank you. The gentleman from American Samoa.
    Mr. Faleomavaega. Thank you, Mr. Chairman. As I sit here 
listening to the testimony, I am reminded of a little Samoan 
proverb that says you cut the banana down, and then you ask 
permission. I am a little concerned because there definitely is 
a very strong difference of opinion in terms of not only the 
process, but what has happened.
    I asked staff earlier why the State of Utah did not take 
the Federal Government or President Clinton for that matter to 
Federal Court if there were any ambiguities about the 
Antiquities Act itself since this was enacted and since 1906. 
And I was told that there was really nothing the State of Utah 
could have done. And I was as curious if there was any 
possibility that this matter could have been taken to Court.
    My question here is not so much the legalities or to say 
whether or not the President has the authority. The President 
does have the authority. But I think, Miss McGinty, at least 
what I am hearing from three of the top officials of the State 
of Utah is just the question of consultation, the question of 
courtesy as Governor Leavitt had alluded to earlier.
    It is not even the question of courtesy. It is the question 
of how the process could have been improved, I suppose, before 
the President made his decision. Apparently, the recommendation 
of the Department of the Interior was made in August of last 
year, and the process started evolving around that 
recommendation.
    But my question is has the President ever sent a letter or 
even an oral communication to any of the top officials of the 
State of Utah, ``Hey, I am going to dedicate 1.7 million acres 
that is owned by the Federal Government as wilderness area''? I 
know we have had several pieces of legislation introduced by 
our good friend Congressman Hinchey, Congressman Hansen, and 
there have been definitely differences of opinion even on the 
issue of wilderness area.
    But my question is, has the President, since the beginning 
of his Administration, specifically made his intentions known 
to the Utah Delegation?
    Miss McGinty. Sir, to reiterate again in terms of the 
President's decisionmaking here, the President did not make a 
decision to invoke this authority until he had personally 
spoken to the Governor and to other members of the delegation. 
The proclamation that the President ultimately issued is 
reflective of that.
    Many of the very valid issues raised by the Senators, by 
the Governor, other members of the Utah Delegation were 
specifically addressed and undertaken in the President's 
proclamation, whether it is State water rights, whether it is 
the question of grazing and hunting and fishing. All of these 
things, the President heard the concerns of the delegation and 
responded to them.
    Did he disagree on the basic point as to whether or not to 
issue the proclamation? Yes. He was aware and received the 
Governor's proposal as to an alternative route. He considered 
that fully, but he ultimately decided to go in this direction.
    Mr. Faleomavaega. I noted also the fact that over 65 
percent of the State of Utah--the lands are owned by the 
Federal Government. And I think Secretary Babbitt more than 
anybody, having served previously as Governor of Arizona, that 
western States have always been under this situation where the 
Federal Government always seems to tell them or give directives 
in terms of what to do especially as it relates to Federal 
lands.
    My question is do you think--and both Secretary Babbitt and 
Miss McGinty--that Congress should enact appropriate 
legislation to get the process moving? I mean, it seems that 
what I am hearing with a $6 million line item that the 
President is recommending we have some kind of a commission or 
some kind of a process going administratively but without any 
congressional enactment.
    Do you think that perhaps we should enact any kind of 
legislation to make sure that it does address the concerns 
raised earlier by Senator Bennett and Senator Hatch of some of 
the issues that affect the economic, the social needs of the 
residents of the State of Utah? My concern is that can it be 
done administratively, or do we need to get into Federal 
legislation to make sure that these concerns are addressed 
properly?
    Miss McGinty. Sir, I will respond briefly----
    Mr. Faleomavaega. Please.
    Miss McGinty. [continuing]--and then turn it over to the 
Secretary as you requested. Right now we have a process whereby 
the issues, the concerns that are foremost on the minds of 
local officials, of State officials are at the table, are 
represented and being articulated. In fact, those 
representatives aren't just invited in but are a part of this 
commission itself.
    Mr. Faleomavaega. Has Senator Bennett ever been invited to 
this part of the process?
    Miss McGinty. Secretary Babbitt is overseeing this process 
and has spoken briefly to the school lands issue. And let me 
just ask him to respond more fully.
    Senator Bennett. The answer is no.
    Mr. Faleomavaega. Mr. Secretary?
    Secretary Babbitt. Congressman, I think your focus in on 
the key issue, and that is what is the best way that Congress 
can support the partnership process that is playing out to the 
adoption of the management plan. This is an unprecedented 
effort, and really it is where the important issues are going 
to be decided.
    Senator Bennett and others have raised issues about, you 
know, monument status versus wilderness versus multiple use. 
Well, the plain fact is that this monument proclamation 
provides a clean slate on which to write. It does withdraw the 
area from mineral entry. That is unquestionably the case, and 
it was intended. But with respect to all other uses, the future 
is open for discussion.
    Now, we have two tracks going. One is the 15 member task 
force which is preparing the management plan. I believe that 
that is an effective approach. Governor Leavitt has appointed 
five of the 15 members under the leadership of Jerry Meredith, 
and I believe that is working well.
    The second issue is the exchange of school lands. Now, once 
again, what I would say is Congress in 1993 put up a process 
for the exchange of school lands, and we have worked with the 
Governor to set up a joint process for moving on appraisals. I 
think that is the right way to go. Now, if the Governor should 
decide differently, that he wanted to change that, we would 
certainly be willing to engage with him on that issue.
    You avert to the issue of appropriations--very important. 
Kane County and Garfield County--both raise some important 
short-term considerations about search-and-rescue, law 
enforcement, and additional burdens on the counties as a result 
of increased visitation. I would suggest that we should have, 
you know, a good review in the context of the budget process to 
make certain that our request fairly contemplates both the 
process and the additional burdens on the county.
    Mr. Faleomavaega. Mr. Chairman, I know my time is up, but I 
would still pursue my question. I don't think it has been 
answered. Do we need congressional legislation to get the 
process moving to answer the concerns raised earlier by the 
Utah Delegation?
    Secretary Babbitt. No.
    Mr. Faleomavaega. Thank you.
    Mr. Hansen. Now, Secretary, you may want to think that one 
through also. The gentleman from Colorado.
    Mr. Hefley. Secretary Babbitt, I have here in front of me a 
National Park Service Strategic Plan Final Draft 1996 that I am 
sure you are familiar with. This came out prior to the 
proclamation. And yet on a map on the inside cover of this 
showing the Park Service units across the nation, this unit is 
listed on that.
    And then the Park Service--someone must have realized that 
we are jumping the gun, and they tried to white it out so that 
it wouldn't be on there. Would you care to speak to that? It 
doesn't sound like a decision that was made at the last minute 
while the President was in Las Vegas or somewhere before he 
went down.
    Secretary Babbitt. Congressman, I suspect the Park Service 
was, as they have ever since 1916, been pretty aggressive about 
looking at new opportunities. Now, the bottom line is that the 
Administration at my recommendation decided that this monument 
should be administered by the Bureau of Land Management.
    Now, I spoke with the President about these issues, if I 
can just frame this, because I appreciate Senator Bennett's 
response or his comments regarding my role. I think they 
reflect it accurately. I discussed this matter with the 
President early on in the summer. I discussed it with him on 
the Fourth of July on a trip down to Petuxan and, after that, 
fairly early on discussed with my Solicitor the shape of their 
response to the White House.
    And I said to the Solicitor, ``You should view yourself as 
working for the President. It is his authority. It is not mine. 
And I am, in effect, delegating you to prepare whatever it is 
the White House requests.'' Now, I said, ``I have two opinions 
with respect to this. One of them is that if the President 
makes the proclamation, it should, in fact, place this monument 
under the jurisdiction of the Bureau of Land Management.''
    Why is that? Because it was my feeling that the Bureau of 
Land Management has a pretty good working relationship out 
there on the land. They have been there a long time. They are 
acquainted with the local people. And it seemed to me that it 
would give the people of southern Utah some added comfort and 
sense of participation.
    Secondly, it was my feeling that the monument administered 
by the Bureau of Land Management would provide more flexibility 
in the adoption of a management plan. Remember, I talked about 
the blank slate. It was really my feeling, and I expressed that 
early on, that the best way to fulfill that if we are going to 
draw the outlines of this monument in the management plan would 
be for the Bureau of Land Management to do it.
    Mr. Hefley. Secretary Babbitt, who was President when you 
were Governor of Arizona?
    Secretary Babbitt. I served under a couple of Presidents. 
Let us see. I became Governor in '78--President Carter; left in 
1987--President Reagan.
    Mr. Hefley. Well, let us take President Reagan. As 
Governor, if you can take your Interior Secretary hat off and 
put your Governor hat back on--as Governor----
    Secretary Babbitt. Sometimes, Congressman, that is very 
easy and very appealing let me tell you.
    Mr. Hefley. If President Reagan had done exactly what 
President Clinton did but he had done it to Arizona when you 
were Governor, without consulting you, without even inviting 
you to the ceremony, unilaterally made this decision, how would 
you have responded? You are a champion of your State in that 
role.
    Secretary Babbitt. Well, I will tell you, I fought with the 
Reagan Administration a whole lot about public lands issues. 
There was a sagebrush rebellion going in those days, and I 
consistently spoke up in favor of the Antiquities Act, the 
Wilderness Act, the need to protect federally owned lands. And 
I suspected that President Reagan--it seems unlikely that he 
ever would have--but had he approached the idea of creating a 
national monument, I would have been all in favor of it.
    Mr. Hefley. You would have been in favor of it in spite of 
the fact that he didn't really consult you and ask, ``What do 
you think about the boundaries? What do you think about the 
location? What do you think about the number of''----
    Secretary Babbitt. Well, Congressman----
    Mr. Hefley. Are you telling me you would have thought that 
was appropriate behavior on the part of the President?
    Secretary Babbitt. Congressman, I guess by reference to 
this, President Clinton did speak with the Governor. He did 
order me to meet with the delegation. And had the Reagan 
Administration--again, had they spoken with me, asked my 
opinion, reshaped the proclamation and the comments to be 
directly responsive to my views as Governor of Arizona, I think 
I would have thought that was pretty good.
    I might have said, ``Well, I wish you would have done it 
earlier,'' but I think what I really would have said is, ``They 
talked to me. They heard me and they gave me my time. And they 
responded and I can see it in the proclamation and the 
statement that went with it.''
    Mr. Hefley. Do you think, Secretary Babbitt--I see my time 
is up. Let me just ask, do you think the timing at all is 
curious here? The lady mentioned that we have had many, many 
years of discussion of this, but the timing was such that 45 
days before an important election, when all the stops were 
being pulled out to re-elect the President, they did this, and 
that people were invited--not these three gentlemen sitting 
beside you there--they weren't invited, not the gentlemen from 
Utah here on the dais--they were not invited, but the Governor 
of Colorado was invited.
    And on the Governor's plane in Colorado, he had the U.S. 
Senate candidate from Colorado, the one running--the Democratic 
candidate from Colorado, not the Republican candidate--it 
wasn't a general thing--but the Senate--the Democratic 
candidate was on that plane. Do you think by any stretch of the 
imagination that this might have been strictly a political 
thing that the timing was the way it was?
    Secretary Babbitt. No, I don't.
    Mr. Hefley. Somehow I am not surprised by your answer.
    Secretary Babbitt. I think the timing of this was driven by 
the Utah wilderness debate which came up in that session of 
Congress. There was a long and rancorous public debate. 
Congressman Hansen and others were pushing a wilderness bill 
which was absolutely unacceptable to the President.
    There was some talk about attaching the wilderness bill to 
the Omnibus Parks legislation. I recommended to the President 
that he threaten to veto the Omnibus Parks legislation. This 
stuff was front and center, and it was going the wrong way.
    It was in the context of attempts to begin selling off 
national parks, to be releasing lands that had been protected 
by wilderness study areas. And my view was that the time was 
absolutely right for presidential decisionmaking in the 
tradition of Theodore Roosevelt--exactly what he did, and 
history is going to honor his acts as one of the really 
important moments in American conservation history.
    Mr. Pombo. Mr. Chairman, I don't know who has time, but if 
they could yield for a second?
    Mr. Hansen. I have the time now.
    Mr. Pombo. He said something about selling national parks--
--
    Mr. Hansen. Well, they haven't gone over that, but let me 
just respectfully say there was no bill that sold any national 
parks anywhere from this Congress.
    Senator Bennett. Mr. Chairman, may I make a quick comment?
    Mr. Hansen. I will give you one minute.
    Senator Bennett. As of that date, the Utah wilderness 
debate was over. And if the Secretary's congressional relations 
people didn't tell him that, he needs to get some new ones. 
That debate was over. The issue was settled. It was very 
clearly a dead issue, and nothing was pending in the Congress 
at that time.
    Secretary Babbitt. Senator, if I may, that issue isn't 
dead. It is as alive as can be.
    Senator Bennett. I am talking legislative process. That 
issue legislatively was dead in the Congress at that time.
    Mr. Hansen. Anyway, let us calm down on that issue, and we 
will move on. Senator Bennett and Senator Hatch, Governor 
Leavitt, by unanimous consent, as I first came up with it, is 
ask you to come up to--which was agreed on--if you would like 
to come up to the dais, that is fine with us. Governor?
    Governor Leavitt. Mr. Chairman, I am going to ask to be 
excused from the hearing for just a few minutes. I have another 
commitment, and I would be coming back. If it is possible, I 
would like to just make one brief statement on the question 
that was asked, and then I will have to be excused.
    Mr. Hansen. Is there objection? Hearing none, go ahead.
    Governor Leavitt. I would like to just put some context on 
the discussion of process and discussing this with the 
Governor. In all of my conversations with Mr. Panetta and with 
the President, it was very clear to me that this was a 
political freight train that had run out of control as far as 
they were concerned. They were--if this were a wedding, the 
invitations were out, and the caterer was setting up. And that 
is the problem with this whole--this kind of serious decision 
being made in this context.
    I have very little question that if this had been aired in 
the light of day, the monument may well have been developed, 
but it would have been done--it would have been different in 
its context. And I think, frankly, the President would have 
felt just as good about the fact that he created a monument, 
but his legacy would have been honored far greater in the way 
it was done.
    Mr. Hansen. Thank you, Governor. The gentleman from New 
York, Mr. Hinchey, is recognized for five minutes.
    Mr. Hinchey. Mr. Chairman, I had intended to ask a question 
or two of members of the panel who are apparently now leaving. 
So I suppose I will take the opportunity to do that----
    Mr. Hansen. Senator Bennett has elected to stay.
    Governor Leavitt. I will come back.
    Mr. Hinchey. I was going to address a question to Governor 
Leavitt, but, Senator, maybe----
    Mr. Hansen. Governor Leavitt has elected to hear your 
question.
    Mr. Hinchey. It often happens with the passage of time that 
new perspective is provided for the viewing of certain actions 
and events. And I just wonder what the attitude is of the 
people in Utah and you, Governor, with regard to prior 
designations of national monuments like Bryce and Zion and the 
others, particularly those perhaps that were designated in 
1969. There was a great deal of controversy at that time 
surrounding those designations.
    My sense is that with the passage of time, that controversy 
has entirely abated. And on the several trips that I have made 
to Utah, my experience has been that the people there are very 
supportive of those designations and are very proud of the fact 
that these national monuments are in their State. Am I accurate 
about that?
    Governor Leavitt. Mr. Hinchey, I grew up in that area. We 
love those parks as we love the area of the Grand Staircase. 
But I would remind you that since those were designated, 
considerable change has occurred. We made some important 
decisions in this country regarding process. All of those 
designations that you have indicated were preceded by 
substantial progress and public discussion.
    Since those were designated, we have also passed FLPMA, 
which was a clear statement that we would not make decisions of 
importance without broad public process. Whether or not we 
appreciate and love this land is not the issue. Frankly, no one 
in this country can love that land more than those of us who 
live there.
    But we also honor the process and recognize its importance, 
and that is why we are here today, to argue that this 
legislation, the 1906 Antiquities Act, ought to be amended 
because it is easily abused.
    Mr. Hinchey. Well, I fully respect that, Governor, your 
point of view. But my experience is quite different because I 
have had the opportunity to see this debate and to look at it 
in its historical context--the debate surrounding this 
particular designation.
    And as has been pointed out here once or twice during the 
course of this hearing alone, this is a debate--a very public 
debate that goes back at least as far as the 1930's. And the 
issue of this particular monument and the land surrounding it 
was the subject of very substantial debate in the most recent 
Congress--the previous Congress.
    Governor Leavitt. As far as I know----
    Mr. Hinchey. And it strikes me in my reading of the 
experience with the designation of the monuments in 1969, as 
well as Bryce and Zion, and looking at the controversy that 
surrounded them at that time, there isn't an awful lot of 
difference. People then made the same argument, that there 
wasn't adequate explanation. There wasn't adequate time for 
consideration, that this was done without consent. But the fact 
of the matter is that those actions now are supported, from 
what I can tell, almost universally.
    Governor Leavitt. So you would argue that because people 
said basically the same thing after the process as they said 
before the process that we shouldn't have the process?
    Mr. Hinchey. No. I think the process is fine, and I think 
that the process has been honored in this particular case. I 
think there was substantial public debate on these issues.
    Governor Leavitt. Mr. Hinchey, as far as I know, the only 
times I have heard the word national monument uttered during 
the time that I have been Governor was in a conversation I had 
with the Secretary some two and a half years before in a casual 
way, speaking theoretically, and then when I read the article 
in the Washington Post. Between those two points, there was no 
process.
    Mr. Hinchey. Well, I was here in Washington most of the 
time, and there was a different discussion that was going on 
here. I thought that people around the country were reading 
that in the newspapers and hearing about it. Maybe that wasn't 
the case. But then let me ask you about you had a proposal of 
your own for Canyons of the Escalante that you had developed. 
Did you have an opportunity to discuss that with either the 
Secretary or with the President or with others?
    Governor Leavitt. I discussed it at length actually with 
the Secretary working to enlist he and his agencies in the 
preparation of the proposal. They were gracious in their 
willingness, and it produced what I think to be a far better 
product because it included the enthusiastic interest of both 
Federal, State, and local governments. It provided enormous 
flexibility and would have protected--not only preserve the 
land, protected the assets, and it would have also honored the 
process.
    Mr. Hinchey. Well, thank you. I appreciate that. And I 
wasn't aware of it. But I just want to return to my own 
experience with regard to the area of southern Utah where this 
monument designation has taken place--this 1.7 million acres.
    I have only been here for a little less than five years, 
and from the moment I arrived here in the 103rd Congress, I was 
made aware of the enormous public concern surrounding these 
lands. And I was made aware of that public concern by people 
from Utah who came to me and asked me to sponsor a particular 
bill, which had formerly been sponsored by another 
representative from Utah who is no longer here.
    So my perspective on this is that there has been an 
enormous amount of public debate across the country, here in 
the Congress, and in the State of Utah. I traveled with our 
Chairman here to Utah and participated with him on several 
public hearings which were held and had the opportunity and--
welcome opportunity to meet you at that particular occasion for 
the first time.
    So it seems to me that there has been an awful lot of 
public discussion about this, and when I hear people say that 
the public discussion has been inadequate, I have a hard time 
reconciling that with my own experiences.
    Governor Leavitt. Well, Mr. Hinchey, we are here today to 
talk about the Antiquities Act. And, granted, there has been 
an--I spend a considerable amount of my time talking about 
public land issues--a lot of them--a lot of them. And I would 
say that to say that qualifies as a discussion of the creation 
of the national monument is a stretch.
    There was no discussion. There was no process. I mean, let 
us grant the fact that the President may have had an expanded 
authority than was intended by the Congress and that, in fact, 
the Courts may uphold it. But let us not call it a process. 
There was no process.
    Mr. Hinchey. Well, Governor, I certainly respect your point 
of view, and it is just at odds with mine. But I certainly 
respect yours.
    Governor Leavitt. Thank you.
    Senator Bennett. Mr. Chairman, may I comment on the 
question?
    Mr. Hansen. I will recognize the Senator for two minutes.
    Senator Bennett. Your question is a good one, Mr. Hinchey, 
about later views and changing attitudes. And I will certainly 
concede and agree with you that many people who opposed some of 
the existing national monuments have now come to live with that 
reality and, indeed, in many instances enjoy it.
    In the spirit of your historic reference, may I share with 
you this historic reference coming from staffers who served 
with my father. My father was involved as a Senator in this 
same seat with the issue of the creation of Canyonlands and the 
building of the Glen Canyon Dam.
    Many groups that are known to you and known to this 
committee opposed the building of the Glen Canyon Dam on a 
variety of reasons, primarily environmental. The issue in the 
Glen Canyon Dam that was raised was the need for power.
    Representatives of the Sierra Club and other groups 
insisted that this country would never need the amount of 
hydroelectric power that would be generated by the Glen Canyon 
Dam, that we would never ever require that much energy in the 
West, and that the power would go begging; therefore, no need 
to build the dam.
    And they said, ``If for any reason we should be wrong in 
our predictions about the need for energy in the western United 
States, we still don't need the Glen Canyon Dam because there 
is all that coal in Kaiparowits that can be mined to provide 
the power.'' And they are now coming in and saying, ``We had to 
do what we did here in order to prevent the mining of coal.'' 
Historical memory cuts both ways in many of these issues.
    Mr. Hansen. Thank you, Senator. The gentleman from Utah, 
Mr. Cannon, a member of the committee, is recognized for five 
minutes.
    Mr. Cannon. Thank you, Mr. Chairman. I expressed in my 
opening remarks a concern about tone, and I have had to look at 
my colleague from New York several times to reassure myself 
that there can be a collegial process where civility is 
appropriate, although I have to say I was grabbing the arms of 
my chair at some of the statements that were made by the 
representatives from the Administration today.
    I suppose that the tone of civility is vindicated when the 
room erupts in a belly laugh over a statement that is perceived 
here in this group and I think, by the degree that it is seen 
on television, will be perceived as preposterous.
    Let me move to a more particular question. There have been 
several requests, including one from my office, for documents 
on the development of the idea of the monument. Clearly, one of 
those documents that is relevant but which has not even yet 
been given to Congress is the draft environmental impact 
statement for the Andalex Mine. Can either of you tell us why 
we haven't received that document?
    Miss McGinty. I would defer to the Secretary. I know the 
Secretary is in conversations with the Andalex Company right 
now.
    Secretary Babbitt. The Andalex EIS issue relates mainly to 
whether or not the company--it has decided that it wants to go 
forward with that EIS process. Now, as of a couple of months 
ago, the EIS process was on hold. And to the best of my 
knowledge, that is still the case. And now to the extent that 
the draft documents are, in fact, public documents, 
Congressman, we would certainly make them available to you.
    Mr. Cannon. Why were they not included with the documents 
that your office sent over to us just last Thursday?
    Secretary Babbitt. I do not know the answer to that. I 
would be happy to provide it to you. I am told by my staff that 
they were not in the request.
    Mr. Cannon. I think that from our perspective that request 
was general enough and clear enough that it should have 
included that. We would really appreciate a copy of that draft 
EIS if you could make it available.
    Secretary Babbitt. I will take that as a specific request 
and respond.
    Mr. Cannon. Thank you. May I direct a question to each of 
you, and given the shortness of time, I would appreciate some 
specificity of answer. Would you please list the people with 
whom the Administration consulted outside the State of Utah on 
this monument before proceeding?
    Miss McGinty. Sir, we responded to--had dialogs with many 
different people, especially after the news article that has 
been referred to appeared in the Washington Post. As you can 
imagine, there was interest expressed from many parts of the 
country. Various Governors were consulted. Various interest 
groups were consulted. Members of the Utah Delegation were 
consulted.
    Mr. Cannon. Could you describe those people the 
Administration consulted before the leaked article, before 
September 7?
    Miss McGinty. Before the article appeared, this was a 
matter within the confines of the Administration. The 
designation of a national monument pursuant to the Antiquities 
Act was the President's action and the President's decision.
    Yes, there had been conversations I think as the documents 
that have been provided reflect. This had been worked on. As I 
testified, the President spoke directly to the Secretary about 
it, but this was a matter that was in consideration only within 
the confines of the Administration.
    Mr. Cannon. Well, let me just give you another fact so we 
are not beating around the bush, and we get to the point. On 
August 5, you sent a memo to the President where you encouraged 
discussions with Governor Roy Romer, the Senators from Nevada. 
Was that only a proposed discussion, or were they talked to?
    Miss McGinty. Yes. There were other Governors that were 
consulted generally about western lands issues that we had been 
engaged in with the Congress throughout the 104th Congress and 
specifically with regard to the exercise of the Antiquities 
Act. There were several Members of Congress. I think Senator 
Reid has been mentioned as one. I spoke directly to Senator 
Reid.
    I can respond more fully to the record, but, yes, there 
were Governors and Senators to whom we consulted with 
frequently on the issues and, frankly, the battles we found 
ourselves engaged in with the last Congress on western lands 
management issues.
    Mr. Cannon. Did you consult with any Democrats within the 
State of Utah?
    Miss McGinty. I can't recall right now that we did, sir.
    Mr. Cannon. Let me say, Miss McGinty, I was a little 
surprised in your direct statement to this group--you said that 
Utah officials were--this matter was discussed with Utah 
officials before it was done. Which Utah officials, Republican 
or Democrat, did you talk to in advance of this proclamation?
    Miss McGinty. Sir, the Governor of Utah, the State's 
Senators, Congressman Bill Orton, and I think probably other 
members of the Utah Delegation as well.
    Mr. Cannon. So you are suggesting that it was a matter of 
consultation for the President to discuss this with the 
Governor of Utah at 1:58 a.m. on the date of the proclamation 
itself?
    Miss McGinty. That conversation was preceded by other 
conversations that senior members of the President's staff had 
had with the Governor and others, and I think as the 
President's proclamation reflects, he understood the priorities 
that had been expressed by the Governor and the delegation 
members. That proclamation itemizes those and accepts the 
recommendations that had been made to him in many, if not most, 
respects.
    Mr. Cannon. Were any outside groups consulted with before 
September 7, and whom would those groups have been?
    Miss McGinty. There were no outside groups that were 
consulted other than what we just discussed here. There were 
several Governors whom we did call. There were----
    Mr. Cannon. OK. There were some references to the Sierra 
Club in some of your documents. Were they consulted?
    Miss McGinty. The Sierra Club was not consulted with regard 
to whether the President should establish a national monument.
    Mr. Cannon. Were they consulted about the plans for the 
proclamation?
    Miss McGinty. After the story appeared in the Washington 
Post, as I have said, every group--many people with many 
different perspectives were consulted, and we discussed the 
issue thoroughly with many different people at that point.
    Mr. Cannon. Mr. Chairman, I see my time has expired. I do 
have other questions if someone would like to yield.
    Mr. Hansen. I am sure we will have another round.
    Mr. Cannon. Thank you.
    Mr. Hansen. The gentlelady from the Virgin Islands.
    Ms. Christian-Green. I have no questions at this time, Mr. 
Chairman.
    Mr. Hansen. Thank you. The gentleman from California, Mr. 
Pombo.
    Mr. Pombo. Mr. Chairman, I know Mr. Cannon's interest in 
this, and I will yield my time to Mr. Cannon so he can continue 
with his questions.
    Mr. Hansen. The gentleman yields his time to the gentleman 
from Utah.
    Mr. Cannon. Thank you, Mr. Pombo. Mr. Secretary, I have 
just gone through a series of questions with Miss McGinty. 
Would you mind laying out for us what you did and what your 
discussions were with people outside of the Administration 
prior to the article that was leaked to the Washington Post and 
then subsequent to that?
    Secretary Babbitt. Sure. Prior to the article in the 
Washington Post, I did not discuss this with any environmental 
group, any private citizen of any kind period. One exception. I 
did--Charles Wilkins was retained by the Department to the 
extent that he was--you view him as a private citizen. I think 
I was at one meeting internally in the Department that Charles 
Wilkins was at. That is it. No discussion.
    Subsequent to the article in the Washington Post, I don't 
think I ever discussed it with any environmental 
representative, even after that. Like Miss McGinty, I had some 
discussions with Members of Congress, some western Governors, 
Governor Leavitt, Senator Bennett, Senator Hatch, but I think 
that is it.
    Mr. Cannon. Do either of you know who leaked the story to 
the Washington Post on September 7?
    Secretary Babbitt. I do not.
    Miss McGinty. I do not.
    Mr. Cannon. Did either of you give instructions to any of 
your subordinates to leak that story?
    Secretary Babbitt. I did not.
    Miss McGinty. I did not.
    Mr. Cannon. Miss McGinty, the popular press has reported 
that the story was leaked as a way to maintain momentum of this 
project. Are you familiar with that story?
    Miss McGinty. I am not familiar with that story. No.
    Mr. Cannon. Do you have an idea who it might have been who 
leaked that story?
    Miss McGinty. No, I don't.
    Mr. Cannon. I have a letter from Robert Redford to the 
President as of August 5. He apparently was aware of the 
details of the monument. How did he become aware of the details 
so early in the process? Do you have any idea?
    Miss McGinty. To my knowledge, he was not aware of the 
details of the monument. The details of the monument had not 
been discussed with any environmental group or person with 
environmental interests such as Mr. Redford.
    Mr. Cannon. This is a very long letter from Mr. Redford.
    Miss McGinty. Yes. He focuses specifically on his concern 
about the Andalex Mine.
    Mr. Cannon. He does talk about the Andalex Mine about 
public opinion. But, apparently, he----
    Mr. Hansen. You will find it on page four if you are 
looking for it, Congressman.
    Mr. Cannon. Do you have that paragraph? Do you want to read 
that?
    Mr. Hansen. Whole page four--very aware of the monument--if 
you want to make an issue of it.
    Mr. Cannon. It is clear from this document that he was 
aware of the monument. Are you telling us, Miss McGinty, that 
you don't have any idea of how he became aware of the issue?
    Miss McGinty. I have no knowledge that he had any knowledge 
or would have been aware of the monument. No.
    Mr. Cannon. I think the document was provided by your 
office, but you don't----
    Miss McGinty. Yes. I am aware of the letter, but I am not 
aware of anything in it that either evidences his knowledge of 
the monument, or, more particularly, I am not aware that he had 
knowledge of the monument. I certainly did not discuss it with 
him.
    Mr. Cannon. Mr. Babbitt, do you have any idea of how Robert 
Redford became aware of these issues?
    Secretary Babbitt. Congressman, I have not seen the letter 
so I am not aware specifically of what it is you refer to. I 
think that, you know, it is clear that Redford was advocating 
strongly for protection of this area. He was in the press and 
in the public. I may have had a letter from him. I don't think 
so. But he was out there very publicly. I did receive a call 
from him the day--the night before the President's 
proclamation. He was wondering why he hadn't been invited.
    Mr. Cannon. Did you invite him then?
    Secretary Babbitt. I relayed--I think I probably told my 
staff to relay his request to whoever was organizing the--
    Mr. Cannon. As I recall, he was one of the few Utahans 
actually at that hearing. Now, Mr. Babbitt, you are a lawyer. 
Isn't that correct? You are a lawyer, Mr. Babbitt. Is that not 
correct?
    Secretary Babbitt. I am a recovering lawyer.
    Mr. Cannon. But your name has actually been used in the 
context of a possible appointment to the Supreme Court?
    Secretary Babbitt. That is correct.
    Mr. Cannon. I would just want to know from you if you can 
make the distinction between the process that was used in 
coming up with the proclamation and the subsequent process that 
was used? You keep referring to the process working. I think 
the issue is that the process didn't work in advance, and now 
people in Utah are doing the best they can to live with what 
the President has done.
    Secretary Babbitt. Well, Congressman, in the time preceding 
the President's proclamation, I spoke with the Governor about 
his concerns. Senator Bennett wrote me a letter asking 
specifically, as I recall, about water rights and about school 
sections. I personally met with the--invited the Utah 
Delegation to a Saturday discussion. I think Senator Hatch was 
there. Senator Bennett was there.
    And all of these issues--valid existing rights, the Mining 
Act of 1872, the Mineral Leasing Act of 1920, grazing, hunting, 
the gathering of wood, water rights, private inholdings--were 
all raised and discussed by members of the Utah Delegation and 
the Governor.
    And our response was clearly reflected most directly in the 
President's remarks at Grand Canyon. I have already described 
my conversation with the President in that regard and my role 
in drafting and revising his remarks directly in response to 
the issues that had been raised by Governor Leavitt and Senator 
Bennett notably.
    Mr. Cannon. I recognize my time has expired. May I have one 
more question?
    Mr. Hansen. I will recognize you for 30 seconds.
    Mr. Cannon. Did Mr. Redford call after 2:30 when the 
President apparently made his decision after discussion with 
the Governor, or was it earlier than 2:30?
    Secretary Babbitt. When I took this call from Redford, I 
was in Knoxville, Tennessee. And it was about 5:30 p.m. in 
Knoxville. I was on my way to a TWA flight to St. Louis. That 
is why I remember the time.
    Mr. Hansen. The gentleman's time has expired. The gentleman 
from Minnesota is recognized for five minutes.
    Mr. Vento. Mr. Chairman, I make that letter part of the 
record, and I might note for the record that the answer was 
that there was not any mention of a national monument in that 
letter. So let us make it a part of the record. I also would 
make part of the record the President's proclamation, and the 
background material I think would be appropriate to make part 
of the record.
    Mr. Hansen. Let me state for the benefit of the gentleman 
that all of these documents previously by unanimous consent 
were made part of the record.
    Mr. Vento. Let me proceed here. You know, I am not really 
surprised. Of course, we had our own differences with decisions 
that were made in past years with regards to public lands in 
Utah.
    One of the major decisions was the WSAs in Utah. In fact, 
as the Chairman knows, myself and other Members are on record 
writing to the then Reagan or Bush Administration because 
Director Bob Newford had not included--it was his decision not 
to include various areas in wilderness studies--some 22 million 
acres of BLM lands in Utah.
    And they had only included a little less than two. And then 
through some appeal process, it was increased to three. So that 
really was the start of much of what is the controversy about 
what was going to receive conservation or consideration for 
designation in this area.
    And so the issue here is that in the Antiquities Act that 
we are talking about, it doesn't require the President to, in 
fact, consult with me. Does it, Secretary Babbitt?
    Secretary Babbitt. That is correct.
    Mr. Vento. Most of us on the committee are very jealous of 
the powers and prerogatives we have with regards to land 
designation. I think it goes without saying.
    In fact, I think these committees that deal with the land 
designations have very jealously guarded and limited the amount 
of powers we extend to this Secretary and past Secretaries and 
other land managers. And I think that it is appropriate that in 
this one case there is this opportunity.
    Now, Mr. Secretary, did you advise the President he was 
concerned about the wilderness lands in Utah, the polarization 
that existed there since the 1980's when the first studies were 
put forth and recommendations for WSAs which were very 
controversial? I wrote, many wrote saying, ``This is 
inadequate. More should be studied. You study both sides of the 
river.'' And they weren't.
    In other words, I think an element of political judgment 
was evident there. In fact, I think the President is elected, 
and he has an element of political judgment that takes place. 
It is part of most of the behavior that we exhibit around here.
    And so I don't deny it. I just think that hopefully we can 
limit it so it doesn't dominate the entire issue with regards 
to these matters that are so important to Utah and to the 
Nation in terms of these lands. But the fact is did the 
President, Mr. Secretary, of other powers that he had would, in 
fact, accord the level of protection that this national 
monument designation provided? Did he have other powers that he 
could have exercised that would have afforded the protection of 
this 1.7--1.8 million acres of land?
    Secretary Babbitt. Mr. Vento, the answer is yes. There are 
a variety of avenues under the Federal Land Policy and 
Management Act. The Secretary has withdrawal power under FLPMA 
and other Acts. And I think the important thing, once again, is 
contextual. This debate was really kind of coming to a, you 
know, sort of quite hot intensity.
    I just remember, for example, that during the spring of 
1996 we had had a lengthy discussion of Utah lands in the 
context of preparing the Omnibus Parks legislation. And it was, 
once again, you know, another context in which there were 
proposals floating around, some of them from--I am not sure 
whether I will credit Senator Bennett with a proposal or not. I 
know he was interested in Canyonlands, but I won't specific--I 
don't recall whether he had made a proposal. But, once again, 
that brought----
    Senator Bennett. We had conversations about Canyonlands and 
possibly changing the wording.
    Mr. Vento. Let me just refocus the question. In my 
judgment, Mr. Secretary, the President had no parallel power to 
protect this land under the Wilderness Study Areas action. 
Under withdrawal, I think it would be challenged.
    I think that there is no way available other than through 
the legislative process, and so, in fact, that legislative 
process, as has been indicated here, broke down. It was 
extremely polarized for a variety of reasons, not least of 
which was the initial areas even considered for study--just 
briefly.
    Mr. Hansen. Don't you think, Mr. Vento, that the FLPMA Act 
has more power for protection than the Antiquities Law?
    Mr. Vento. Well, it has some. I would say were there any 
ACECs that were designated under this? Were there any 
conservation areas that were designated?
    Mr. Hansen. I submit that the FLPMA Act is much more 
powerful than the Monument Act. In fact, if I recall the 
Monument, they stripped many of the powers that were there in 
the 1976 FLPMA Act, and we have done a pretty exhaustive 
investigation into that.
    Mr. Vento. Does, Mr. Secretary--maybe it would be helpful--
--
    Secretary Babbitt. Well, Mr. Vento, I guess what you are 
searching for is the monument withdrawal power under the 
Antiquities Act in many ways is the most flexible of all of 
these powers the President has. I mean, it seems to me implicit 
in some of these suggestions is that other land management 
measures could have been taken.
    Well, the answer is yes. But it seems to me that from the 
standpoint of many of the affected stakeholders, the monument 
withdrawal process, in fact, leaves more flexibility to engage 
upon the kind of management planning process than any of the 
other alternatives.
    Mr. Hansen. The time of the gentleman has expired. I will 
move to the--exercise one thing and say--well, never mind. The 
gentlelady from Idaho.
    Mrs. Chenoweth. Thank you, Mr. Chairman. Mr. Babbitt, I 
wanted to ask you, apparently you had a conversation with the 
President about the set-aside of this land, the entire 
monument, as it is referred to, and the mine on July 4. Right?
    Secretary Babbitt. That is correct.
    Mrs. Chenoweth. Now, let me ask you how aware of the 
pending declaration by the President under the Antiquities Act 
were you, and were you personally involved on a day-to-day 
basis or a day-to-week basis--personally involved in seeing 
that this moved forward between July 4 and your telephone call 
at 2:30 in the morning in Las Vegas? How involved were you?
    Secretary Babbitt. The answer is I was not personally 
involved, and I explained in my response to Congressman Hefley 
the reason for that. After I discussed it with the President on 
the way to Petuxan on the Fourth of July, I subsequently had a 
conversation with the Department's Solicitor, John Leshy.
    And I said to him, ``This is a power which resides in the 
President of the United States. It does not reside in the 
Secretary of the Interior. And, therefore, you should respond 
to the White House, and you should prepare whatever documents 
or information requests that the White House asks of you.'' And 
that is pretty much the extent of my involvement----
    Mrs. Chenoweth. Thank you.
    Secretary Babbitt. [continuing]--until I was awakened in 
Las Vegas about the proclamation.
    Mrs. Chenoweth. Thank you, Mr. Secretary. Miss McGinty, 
then were you the driving force behind all of the coordination 
that took place in order to put this through?
    Miss McGinty. As I said, Congressman, I relayed the 
President's request to Solicitor Leshy on July 3, I believe in 
my office, that request then catalyzed an effort on the part of 
the experts at the Department of Interior to undertake what is 
a scientific and technical legal analysis pursuant to the 
Antiquities Act to see if, as the President had asked, there 
are lands in southern Utah that would meet the criteria 
outlined in the Antiquities Act for protection.
    Having relayed that request, the Department undertook that 
analysis. As I said, that is a technical and detailed and 
involved analysis. The request came back or the recommendations 
rather came back to the White House I believe sometime in mid-
August.
    Secretary Babbitt. Mrs. Chenoweth, if I might, I would like 
to add just one more thing. I did get engaged in this process 
in response to Senator Bennett's first phone call to me. He and 
the Governor both called me, I would guess about 10 days before 
the proclamation. And that was really my reentry point into 
this issue, and I did, in fact, as I previously stated, talked 
to the Governor.
    The Governor and Senator Bennett I think both very 
accurately recapitulated my discussions with them. I did host a 
meeting of the delegation, and, obviously, I talked with Miss 
McGinty and the White House people in connection with our 
discussions with the Utah Delegation on that weekend.
    Mrs. Chenoweth. Thank you, Mr. Secretary. I am very pleased 
that the gentleman from Minnesota brought up again the Robert 
Redford letter, and we did hear from Miss McGinty that the 
letter does not mention the mine or the monument. But let me 
read from the letter that has been entered into the record.
    ``If we develop this mine, Utah tax dollars will be 
necessary. There will be related subsidies.'' It goes on to 
say, ``Surely we need to grow and prosper, but economically and 
environmentally this mine doesn't make sense. This is a boom 
and bust waiting to happen, and once Andalex takes out every 
natural resource possible, they will walk away.'' This letter, 
by the way, was written by Robert Redford August 5.
    It goes on to say, ``Mr. President,'' on page four, ``I 
sincerely believe that when the story of this mine is told, the 
majority of Americans will be against it, and I think the 
polling numbers and editorials' support against the so-called 
Utah Wilderness bill support this belief.'' He had in the 
previous page talked about the fact that there are markets in 
the Pacific Rim--Japan, Korea, and Taiwan--and, indeed, we know 
that because another country has picked up those markets.
    He goes on to say, ``I strongly feel that we find ourselves 
in a historic window of time to do something bold, and I am 
convinced you will have the American people behind you.'' 
Indeed, this letter certainly does lay out that there was prior 
knowledge, not by our Utah Delegation, but by other 
environmental interest groups. I am saddened by this.
    When this discussion opened up, we heard a lot of talk 
about civility, and so I looked up what civility means. It goes 
back, of course, to the word civil, and it means, ``Pertaining 
or appropriate to a member of a civitas or free political 
community natural or proper to a citizen; also relating to the 
community and government of the citizens and subjects of the 
State.'' It didn't happen here.
    Mr. Chairman, I have to ask you what was civil about this 
action? We sit here in this room, and we talk in round, civil, 
pear-shape tones about what happened in the West. We have heard 
prevarications--I guess that is a civil way to say it--from the 
White House with regards to this very outstanding Senator that 
is sitting with us. They deny that he didn't have prior 
knowledge.
    Mr. Chairman, I am saddened, saddened by this, and I really 
hope that the words that were uttered by Governor Leavitt when 
he said, ``It may be too late for Utah, but I hope it is not 
too late for other States''--well, indeed, Mr. Chairman, I hope 
it isn't too late for other States. But, indeed, I hope it is 
not too late for Utah because surely I hope that we can reverse 
this stand. Thank you.
    Mr. Hansen. Thank you. The time of the gentlelady has 
expired. The gentleman from Michigan, Mr. Kildee.
    Mr. Kildee. Just a comment. I think some of us on this 
committee experienced a similar action--reaction back in 1978 
when then President Carter exercised the Antiquities Act on the 
Alaska lands. Then in 1980, I think just before he left office, 
Congress passed legislation on the Alaska lands, which the 
President signed into law. So it has been used before.
    I know it is not without controversy. It was very 
controversial then too when the President exercised his 
authority. It is the law. I think it is very important that 
Congress does have oversight on this. The President does have 
that power, and we should look at whatever anyone in government 
does including the President. But I do think that basically the 
Alaska lands preserved were very important. I think basically 
the lands preserved in Utah are very important to the entire 
nation. But I do think that these hearings can be useful. Thank 
you, Mr. Chairman.
    Mr. Hansen. To the gentleman from Michigan, it is 
interesting to note that Alaska is now excluded from the 
Antiquities Law, as Wyoming is. Is that correct, Mr. Secretary? 
I think there are two that are excluded--those two?
    Secretary Babbitt. Yes.
    Mr. Hansen. Senator Bennett.
    Senator Bennett. Thank you, Mr. Chairman. I appreciate the 
courtesy of the committee in allowing me to participate here. 
We will have another shot at this on the Senate side when we 
get into discussions of my bill over there where I seek to take 
the statements the President made--I now discover this morning, 
Mr. Secretary, as a result of your input--and write them into 
legislative language. And I will be very interested to hear the 
Administration's position on my bill to see if, indeed, the 
Administration does want to preserve those promises that we 
were given.
    I want to repeat what I said in my opening statement which 
is this is all very interesting historical stuff, and I think 
the case has pretty firmly been made that appropriate 
consultation and process was not followed. But that is behind 
us.
    The real issue is what are we left with as a result of the 
way this thing was done, and we are left with an area that, to 
quote Miss McGinty, the President was determined that, 
``wilderness protection not be taken away from these lands,'' 
that has now been made a national monument in which roads will 
be built, visitor centers will be established, and to which 
millions of tourists will be attracted unless it is the 
intention of the Department of Interior to administer it in a 
way other than a national monument traditionally has been 
administered. If that is the case, I think we ought to know 
about it. This hearing probably is not the place to pursue 
that, but I am putting both of them on notice that that is an 
issue that we are going to pursue.
    We know that one of the major issues relating to this land, 
which is Utah school trust lands, was an issue that Mr. Panetta 
had never heard of less than 24 hours before the announcement 
was made. And he had to explain to the President in the middle 
of the night causing the President to call the Secretary of 
Interior at two o'clock in the morning in Las Vegas, and then 
say, ``Can you get some language to me?''
    Now, I am sorry, Miss McGinty. In my opinion, that does not 
constitute considering fully every aspect of this. That has 
every aspect to me of a late minute, midnight, cover-your-tail, 
move quickly. We do, indeed, as the Governor said, have the 
invitations out, the ceremony is set, and now all of a sudden 
at the last possible minute when we had to accommodate the 
Governor by giving him an opportunity for a conversation, he 
raised an issue we didn't even know about--an issue that the 
Chief of Staff of the White House had never heard of less than 
24 hours before the announcement is made.
    I have every respect for Bruce Babbitt's ability as a 
lawyer. If I ever get in trouble in an area where he has any 
background or expertise, I would be more than happy to call him 
and consult him and pay him whatever fancy fee he might want to 
charge me.
    But I would ask him to spend a little more time than from 
two o'clock in the morning to an opportunity to talk to the 
President at the Grand Canyon later that same day. Good as you 
are, Mr. Secretary, I think you need a little more time to 
collect your thoughts before you come forward with something 
like this.
    I am convinced, and this I will end on and let you comment 
on--I am convinced that all of the consultation that we have 
heard about here this morning with the Governor or with me or 
with Senator Hatch or anybody else would not have taken place 
if the leak hadn't occurred in the Washington Post.
    I initiated the phone call to the Secretary of Interior 
because of the leak in the Washington Post. The Governor 
initiated the call to the White House because of the leak in 
the Washington Post.
    And when I go back to the statements that I read in my 
opening statement about, ``Confidentiality is absolutely 
certain. If this gets out, it won't happen. Don't tell 
anybody,'' et cetera, et cetera, I am convinced that none of 
the things that we are now being told constituted appropriate 
process which occurred in the most hurried-up, crammed-into-
the-last-12-hours kind of circumstance. Not even that would 
have happened if there had not been a leak into the Washington 
Post. I would appreciate your comments.
    Miss McGinty. Thank you, Mr. Chairman. To go back through 
some of the points, Senator, that you have made, first of all, 
in terms of whether or not wilderness will be respected here, 
the President is going to respect the views of the State and 
local officials who are now part of this very public planning 
process over the next three years to answer those very 
questions. I would not want to prejudge what the answers to 
those questions are going to be.
    I would note, however, that there is nothing in a national 
monument declaration which would preclude wilderness 
designation. In fact, what we need in that regard is to be able 
to restart the wilderness inventory process that has been held 
up, unfortunately, by litigation.
    Senator Bennett. May I comment that the designation of 
wilderness is a congressional prerogative even in national 
monuments. The Secretary has said that to me continually. As we 
have discussed these issues, he has said right from the 
beginning when he first came to call on me prior to his 
confirmation that wilderness designation is a congressional 
issue.
    And he told me, ``I am not going to get into it. I am going 
to let the Congress take care of that.'' So you are absolutely 
right. Wilderness is not incompatible with a monument status, 
but wilderness, even in a monument, requires congressional 
action.
    Miss McGinty. That is absolutely true, that the Congress 
acts either to confirm or not confirm the Department's prior 
determination that areas should be treated as Wilderness Study 
Areas and managed as wilderness. They are managed as wilderness 
unless the Congress acts to remove that wilderness protection, 
which, of course, was the problem at issue in the 104th 
Congress with the bills that were pending, that that wilderness 
protection was to be removed from those lands.
    Second of all, in terms of the school lands, the President 
shares the concern that you rightly have articulated about the 
education, the well-being of the students in Utah. His concern, 
however, is not about the monument declaration per se, but his 
understanding gained in the course of considering that 
declaration that these lands had not produced for school 
children as may have been hoped for and anticipated at the time 
of statehood, as had been the experience in Arizona.
    That is why he went above the proclamation per se to direct 
that the process be undertaken to exchange those lands. He also 
was aware because he signed into law the 1993 legislation 
supported by the Utah Delegation that was evidence of the fact 
that the schools had not produced and that, in fact, they 
should be--the school lands had not been producing and that, in 
fact, they should be exchanged out so that there could be 
revenues generated for the further support of the educational 
system.
    Mr. Hansen. The time of the Senator has expired. Mr. Hill, 
the gentleman and member of the Subcommittee from Montana is 
recognized for five minutes.
    Mr. Hill. Mr. Chairman, thank you very much. It seems to me 
that the debate here really is about whether we ought to change 
the Antiquities Law, and what the issue really is is about 
values, but the value really isn't stewardship.
    The values here are whether or not we should diminish, as 
you have in this process, the scientific process, the open and 
public process, and a participatory process, and then elevate 
values such as secrecy, partisan politics, and a narrowing of 
the process.
    And in that light, I would just like to ask you--and the 
argument here has been whether the Utah Delegation should have 
had anticipated the action on the part of the President. So I 
just want to go on the record, is there any exploration going 
on, are there any discussions going on, is there any analysis 
going on that might lead to a similar action regarding any 
public lands in Montana at this time?
    Secretary Babbitt. No.
    Mr. Hill. Thank you. It is my understanding that you are 
currently discussing something called Parks II--Parks Plan II. 
Is there any anticipated executive action regarding designating 
public lands in that process going on between the Council on 
Environmental Quality and the Department of Interior that we 
might need to anticipate that might lead to this kind of a 
conclusion?
    Secretary Babbitt. Congressman, national parks can be 
established only by the United States Congress.
    Mr. Hill. I don't think that quite answered my question.
    Secretary Babbitt. The answer then is no.
    Mr. Hill. OK. Thank you. We had a similar situation, as you 
know, occur with regard to the New World Mine in Montana 
occurring in a similar timeframe--similar action on the part of 
the President. And in that particular process what occurred was 
that we were going through the development of an environmental 
impact statement.
    And it appears as though a decision was made--and we will 
be having some hearings on this shortly--but it appears as 
though a decision was made to short-circuit the environmental 
impact statement. And there seems to be some potential 
similarity in this incident where an environmental impact 
statement was in the process.
    So my question is where do you make the decision in the 
Administration to throw out the NEPA process, the process of 
including an environmental impact statement, and then 
substituting that with what I would consider or characterize as 
a political process? And what values do you use in making that 
decision?
    Miss McGinty. Congressman, first of all, in terms of the 
New World Mine issue, that issue I think represents better than 
almost any other exactly the philosophy that certainly this 
Congress has expressed with regard to natural resource 
management issues, and that is where polarization and 
litigation can be avoided, where there is a partnership that 
can be crafted between private industry, environmentalists, the 
Federal Government--we ought to work toward that end. That is 
the full story behind the New World Mine issue.
    Mr. Hill. But there is a similarity here in that the 
Governor of Montana wasn't consulted in the process of making 
the decision of the New World Mine, as Governor Leavitt was not 
consulted in Utah. An environmental impact statement was 
interrupted in Utah as in Montana. The congressional delegation 
in Montana wasn't consulted, as it wasn't in Utah. Local 
government units weren't consulted.
    And, incidentally, there is another similarity, and that is 
that we were promised that Montanans would have some input in 
the process of concluding the New World Mine purchase. And you 
might recall, I am sure, that there was a Montana initiative 
led by the Governor, encouraged by your organization and I 
believe the Department of Interior.
    I participated in those meetings, as did representatives of 
the entire congressional delegation, the Governor's Office, 
local government units, all the public land management 
agencies, and not one item that was proposed in the Montana 
initiative was incorporated into your final proposal. Is that 
what the people of Utah can expect now as we go through this 
three-year process?
    Miss McGinty. Congressman, as you might know, the Governor 
himself has not reinitiated those discussions under the 
initiative, although we supported them heavily, including with 
resources to develop the ideas that were discussed there.
    The reason for that was, for example, small timber 
companies were opposed to parts of that initiative. Indian 
tribes were opposed to parts of that initiative. We remain 
willing and eager to have those discussions with the Governor 
to the extent he wants to reinitiate them, but it is not his 
proclivity right now to do so.
    And with regard to the matter of the environmental impact 
statement, there is a similarity between the Yellowstone issue 
and this issue. In both respects, an EIS is started because 
there is either a Federal agency that is undertaking an action 
or a private party that is pursuing a lease or a permit to do 
something on Federal lands.
    To the extent that private party decides they are no longer 
interested in doing that and cancels their request, withdraws 
from the EIS, that is that private party's determination. That 
is what has happened in both the Yellowstone case and in this 
case as well.
    Mr. Hill. But that was part of the agreement that you 
entered into with an environmental group and the mining company 
to exchange value. In other words, that was an enticement for 
them to enter into that agreement. Isn't that correct?
    Miss McGinty. This was part of the partnership that was 
formed that ended and avoided potential years of litigation 
around this issue. That is right. And it is a part that is 
actually very important to the company. It is in the company's 
interest to ensure that that EIS is on hold right now as the 
rest of the agreement gets put together. That is something that 
has been and continues to be very important to them.
    Mr. Hill. If I might, just one last question, could you 
explain to me why that is in their interest, that the EIS be 
put on hold?
    Miss McGinty. Because in the event that the overall 
agreement--if there is any reason that other parts of it don't 
work out--if there is any reason that other avenues have to be 
pursued, they do not want the integrity of that EIS in any way 
jeopardized. So while other avenues are being pursued, they 
would like that EIS just held harmless during this period of 
time.
    Mr. Hansen. The time of the gentleman has expired. The 
gentlelady from Wyoming and a member of the full committee is 
recognized for five minutes.
    Mrs. Cubin. Thank you, Mr. Chairman. I came here today 
hoping that I would be less confused, and I think maybe 
throughout the hearing I have. And I think what is happening is 
we are talking about different things.
    Before I came, I guess there was some talk about trust and 
how to open the process, how to be civil to one another. And I 
have specific questions about the oil and gas leases that are 
currently producing in that area and other leases that have 
been let there. But I am going to submit those in writing to 
you, if you wouldn't mind, so that I could just have a quick 
discussion about how are we going to get there from here.
    It seems to me that throughout my career in politics there 
have been many times where I have not liked the decision that 
the Department of Interior came up with on some land use plan. 
I didn't like that, but that is their decision to make. My job 
is to protect the process. My job is to make sure that my 
constituents, my State, and my country are protected by the 
process.
    It appears to me that in this case that you didn't like the 
process and so took an exuberant step--you, the 
Administration--took a giant step to short-circuit FLPMA, NEPA, 
all of those things. And I think the fact that there is 
producing oil and gas leases in that area that apparently you 
didn't know about before it was done because that is what all 
the papers indicate, I think that demonstrates the flaw in what 
has happened here--why we have the processes that we do have.
    This is for you, Katie. I have this written down as a 
quote, ``The ultimate use of the land.'' You have said that 
several times, you know, and it seems to me that that seems--
the ultimate use of the land seems to be the priority with you, 
that the ultimate use of the land, however we get there, that 
is the most important thing. Do you think that is a correct 
assessment?
    Miss McGinty. Well, the thing that is very important to 
us----
    Mrs. Cubin. I know. I mean, I just want--I am trying to get 
us to talk about the same thing.
    Miss McGinty. Yes.
    Mrs. Cubin. We are not. We are asking you questions about 
the process, and you guys are defending the result and what we 
are doing now. But we have to go back in order to get our hands 
around this so that we can work together.
    Goodness. We have to work on ground food. We have to work 
on the redwood trees. We have so many things we have to work 
together on. If we don't talk about the same thing, we are 
never going to arrive. So I want to talk about the process, the 
process that we feel has been exaggerated, not the result, 
because that is your job. But my job is to defend and protect 
the process.
    Miss McGinty. Precisely. And I wanted to speak to the 
process, and I appreciate that. The importance for us right now 
is also the process. As the Secretary has outlined, the process 
that is engaged right now that is being conducted fully 
pursuant to NEPA and FLPMA----
    Mrs. Cubin. But, see, Katie, that is not what we feel has 
been violated. The violation we feel goes back to 
noncommunication and nonconference in the beginning. Now, if we 
can't talk about, ``Do you have any second thoughts about that? 
Do you have any reservations? If you could do it over, would 
you do it differently?'' because what--it can be guaranteed 
us--anytime a process is violated, you can be guaranteed two 
things: number 1, it is going to happen again. One side or the 
other is going to violate that process or take advantage of 
it--let me say that instead of violation--take advantage of it. 
And you can also guarantee if changes aren't made, that both 
sides are going to be abused in the future because it is now 
political, not a process that is good for the country or the 
land or whatever.
    Miss McGinty. Yes. And, Congresswoman, as I articulated at 
the outset in my oral statement, I do respect--I understand 
that many people have different views about the designation 
itself and the process that led to it.
    Mrs. Cubin. That is not the subject of this hearing. The 
process is but I don't see--well, I guess if we just can't talk 
about--I had the feeling that maybe we weren't trying to talk 
about the same things because the answers that are coming are 
not to the questions that we are giving.
    I am not here to criticize the ultimate use of the land. I 
am only here to try to figure out how you as an Administration, 
we as a Congress can start talking about the same thing, the 
process; what is the process that should rightfully be 
followed. Do you see any errors that were made? Can you just 
say yes or no, both of you?
    Don't you think it would have been better before the story 
was leaked to have talked to somebody in Utah about this? Did 
you make any mistakes? I mean, I am so frustrated because all I 
see is defense of the ultimate use of the land, and I think 
through Adolf Hitler we learned that the end does not justify 
the means.
    Miss McGinty. Congresswoman, before the story leaked, no, 
we were still very much wrestling with this internally. As I 
said, the President had not made any decision at all, and we 
had no inclination at that time whether it was with folks in 
Utah or anywhere else to start having a broad discussion of 
this. It was still very much under discussion just internally.
    Mrs. Cubin. Well, Katie, then you accept the NEPA process 
and the FLPMA process, environmental impact statements, 
environmental assessment as something that needs to be done for 
the good of this country, for the good of the public land. Is 
that only when other people have to do it? Is that only when 
you at the CEQ don't have to do it or when the President 
doesn't have to? Is it good for everybody else all the rest of 
the time?
    Miss McGinty. Congresswoman, I----
    Mrs. Cubin. You didn't go through any of that.
    Miss McGinty. I think that there are some areas, and they 
are limited areas, but some areas where the President of the 
United States needs the authority to be able to act 
unilaterally on behalf of the interests of the American people.
    Mrs. Cubin. Mr. Chairman, one last statement.
    Mr. Hansen. One last statement.
    Mrs. Cubin. Yes. And I agree with you. I agree with you on 
that very much. But as Mr. Hansen stated, no one has won here. 
No one has won here because there will be a change to the 
Antiquities Act if it doesn't come in this Congress or the next 
one. There will be a change. The President's power will be 
limited. The Congress will have to do something because in 
overexuberance and abuse, the people were not protected. And so 
nobody wins.
    Mr. Hansen. If I may say, I can see the frustration in the 
gentlelady from Wyoming and the gentleman from Montana. That is 
the reason for the bill that supposedly is in front of us, but 
we couldn't recognize it very well, and that is to amend the 
Antiquities Law. I would daresay in the benefit of Democrats 
and Republicans, we will lose the Antiquities Law along the 
line if we don't amend it somewhere.
    I think the President, and I agree with you, should have 
some rights to work within that. We are just trying to soften 
it because of the NEPA law, the FLPMA Act, and others that have 
done that. Excuse me for pontificating for a minute. The 
gentleman from the Second District of Utah, Mr. Cook, is 
recognized for five minutes.
    Mr. Cook. Thank you, Mr. Chairman. I would like to ask a 
few questions about where we go from here. Obviously, within 
the 1.7 million acres that are included within the monument 
designation, there are, I think in the opinion of most people, 
acres that are certainly more worthy and acres that are less 
worthy of either monument designation or possible wilderness 
designation.
    I guess what I am asking about is during this three year 
public planning process that we are six months into, is there 
any realistic chance that the total number of acres in this 
monument could be revised, could be scaled back? Is that a 
possibility that is being looked at or could be looked at?
    Secretary Babbitt. Congressman, I do not contemplate that. 
I believe the most productive way to proceed from here is to 
utilize the process, the flexibility, the blank slate that I 
have talked about, and say there are the corners of the slate 
that is on the wall.
    Now, rather than getting into a contentious argument about 
the size of the blackboard, let us talk about what goes on and 
recognize the enormous flexibility to say, for example, the 
high areas of the monument should have the following management 
prescription, the existing roads should be dealt with as 
follows, our riparian areas should be dealt with in another 
way, or perhaps the areas adjacent or closest to communities 
should have another management prescription. Those are things 
that can all be done within the frame of the blackboard on the 
wall.
    Mr. Cook. Well, Mr. Secretary, I was impressed with your 
comment when you were talking about the blank slate that 
nothing is totally decided. There are still lots of multiple 
use issues that can be resolved. There are still lots of 
property right issues. But you did say that mineral extraction 
opportunities are totally dead.
    And on that, I have got to ask you, why is that so if lands 
adjacent to those may not be as worthy in terms of these 
designations? Or if there is, in fact, existing right. Doesn't 
that fly in the face of your indication that property rights 
are still out there to be upheld and worked out during this 
three-year process?
    Secretary Babbitt. Congressman, first, the proclamation 
does not affect valid existing rights. Now, that applies to the 
monument withdrawal. It does not apply to private land. It does 
not affect valid existing rights as they are defined under the 
Mining Law of 1872, and a variant of that as lease rights are 
established pursuant to the Mineral Leasing Act of 1920 because 
that is hydrocarbons and coal.
    You have got two different sets of statutes that affect the 
mining and mineral extraction issues. The one decision that the 
President made in this proclamation is that there will be no 
further mineral entry under the Mining Law of 1872. And I think 
as a practical matter, the same applies to the Mineral Leasing 
Act of 1920. That is certainly the contemplation.
    Mr. Cook. Secretary Babbitt, as someone who has lived in 
Utah basically all his life, someone who, as both a businessman 
and as a citizen, wants to see economic opportunities and 
better jobs, but who really does care a lot about the 
environment of the State of Utah, and who celebrates the 
national parks and the wonderful beauty and spectacular aspects 
of the State, why can't we have both?
    Why can't we have a reasonable monument set aside and also 
mining opportunities and economic development? This is a 
presidential decree that really doesn't seem to have a basis in 
terms of this mining question or in terms of any of the studies 
or any of the consultations.
    I am just wondering, why can't we have both and have win-
wins and have the people of Utah celebrating this monument if 
we can still have some economic development in that area?
    And, specifically, would you address the Andalex Mine 
issue, because I think there is a feeling among many members of 
this panel, of which, of course, I am not a member that the 
decision was strictly to stop the Andalex coal operation. It 
doesn't really have a whole lot of reasons other than that. If 
you could just kind of describe that.
    And because my time will run out, I just want to quickly 
ask you why would you oppose an amendment. You gave a very 
impassioned statement about the Antiquities Act and why that 
needs to be preserved. But why would you oppose just a single 
amendment that would require a 90 day consultation period with 
the Governor, with the citizens of the State before it was 
implemented on a new project?
    Secretary Babbitt. Congressman, there are many strands to 
that question. Let me see if I can----
    Mr. Cook. I didn't mean to----
    Secretary Babbitt. [continuing]--address them one by one. 
It is my personal and deeply held belief that the Antiquities 
Act is a really extraordinary environmental law that has worked 
and demonstrated, perhaps more than any other piece of 
legislation that has been passed in the 20th century, redounded 
to the benefit of the American people. And I simply oppose an 
amendment to that law. It has worked for 91 years.
    Now, with respect to your question about mining, the 
President in his statement at the Grand Canyon I thought put it 
pretty well. He said, ``Yes, we should have an encouraged 
mining, but not mining anywhere.'' And implicit in the 
withdrawal for this monument is a decision that mining is 
incompatible with the other value that the proclamation seeks 
to protect.
    Now, implicit in that also I think is that there are other 
places in Utah to mine coal. Coal is not a scarce commodity in 
the United States of America. The USGS, for example, has 
vicariously estimated that we have as much as a 500-year supply 
of minable coal in this country.
    Now, I realize and appreciate your question that that--you 
know not--you know, if coal is in West Virginia, that is not 
much of an answer to the people of Utah. And that is the reason 
that in the case of the Pacific Core leases and others we have 
said we believe that it is appropriate to exchange for other 
coal lands in Utah. That is the offer that has been made to 
Andalex, and we will just have to see how that plays out.
    Now, let me last say that I have followed for decades the 
discussion about the existence of coal reserves in the 
Kaiparowits region. There is no question the coal is there. 
There is also gold in the ocean. The reason we don't mine gold 
from the ocean is because it is not economical to do so.
    And the verdict on the Kaiparowits coal deposits for half a 
century has been that it is not an economic deposit. And it is 
my belief that out of this we may, in fact, get the kind of 
win-win that I think you are so eager to find if, in fact, we 
can swap those into areas of demonstrated economic potential 
within the State of Utah.
    Mr. Hansen. The time of the gentleman has expired. Our 
ranks are dwindling, which is understandable. We will go one 
quick other round with this group, and then we have two more 
panels. I am sure they won't be quite as long, but we will 
quickly try and go through this round.
    Let me just say if I may that there has been a lot of 
things said that this has been studied for years and years. It 
hasn't been studied as a monument. The whole State of Utah, the 
entire West has been studied. I have sat on this committee for 
17 years. I have chaired it for two terms. I was ranking member 
for three terms.
    There has never been a word said about a monument in this 
particular area so let us get that cleared up. I wish the 
gentleman from Minnesota was here. We have never studied the 
Kaiparowits Plateau for a monument ever. It has never been 
done. Is that clear enough for everyone? It hasn't happened.
    Miss McGinty, you also state in your September 9 memo that 
the political purpose of the Utah event is to show distinctly 
the President's willingness to use his office to protect the 
environment. And, of course, I maintain that it is protected 
better under the FLPMA Act, but I guess that is a matter we can 
discuss for a long time.
    At the end of the memo you state that, ``This step reducing 
or eliminating the risk of coal mining on the Kaiparowits would 
represent an immense victory in the eyes of environmental 
groups. And based on the editorials written on the subject 
during the Utah Wilderness bill debate would be widely hailed 
in the media.''
    I would surely hope, and no disrespect to you folks--I am 
of a different political persuasion--but I would surely hope we 
don't formulate the Administration's environmental policy by 
making political hay. I would hope we do what is right for 
America and not for photo opportunities or to please some 
environmental groups, which you had probably 100 percent 
anyway.
    Miss McGinty, you go on to state, ``There is very little 
current human use of the area proposed for monument 
designation, and with the exception of the proposed coal mine, 
current and anticipated use are generally compatible with 
protection of the area.''
    I don't know how you come to that conclusion. Does that 
mean that the oil well proposed by Conoco is compatible use? I 
guess it does. That is the only conclusion I can draw. And how 
about all the other oil and gas leases in the monument?
    And as the Secretary has alluded to, and I don't want to 
take issue with him, but on the other side of the coin, as you 
look at the area, and I am very familiar with the area, I 
seriously doubt of any of the testimonies here anyone has been 
to Smoky Hollow and understand how remote that area is, how 
barren it is, how deserted it is.
    And do you realize that the Andalex, and I am not anywhere 
an apologist for those folks, but it would take 40 acres to be 
reclaimed--40 acres. What is that? A fraction of what has been 
put into the particular area.
    Miss McGinty, your memo states that, ``The coal 
developments on the Kaiparowits would damage the natural value 
of the entire area.'' This is an area as big as Delaware, New 
Jersey, and given the fact, how do you possibly say that 40 
acres would damage an entire area, and it is on the far south 
end of the area. And, you know, I just have a very hard time 
with that.
    President Carter used to say, ``Coal is our ace in the 
hole,'' and when he said that back in his Administration, a 
Democratic President, he said, ``Out in the hills of Utah we 
have got enough coal to offset all the problems we are having 
out of Saudi Arabia and that area.'' And so Senator Bennett 
brought out one time we were going to use that for coal fire 
generating plants, and now we say we don't want to use it. Can 
you give me an illustration of any President--any President 
designating one of the 73 monuments who did it the same way?
    Miss McGinty. Well, if I might, Mr. Chairman, respond also 
to some of the other----
    Mr. Hansen. Sure, sure, please. I am sorry. I didn't mean 
to cut you off.
    Miss McGinty. [continuing]--items that were important that 
you had raised? First of all, in terms of the memo that you 
reference, I am not sure that I have the exact memo before me, 
but I would say that while I may have articulated what the view 
of the environmental community might be, it is my practice 
always to present to the President the views of the varied 
constituencies on an issue.
    And I would suppose and assume that I might also have 
outlined there the views that I anticipated would have been 
expressed by the Utah Delegation, for example, and maybe other 
western States. It is not the case that there, obviously, would 
have been unanimity of opinion on this issue.
    With regard to the mining issues, there again you raise 
several points. The environmental impact has several parts. One 
is the point that you have highlighted and emphasized, the 
actual footprint perhaps of the mine itself, which you identify 
is on the order of 40 acres.
    But there is the question of the ancillary impacts such as 
roads, for example, in this very remote area, as you say, that 
would have to be put in to access this mine. In fact, the 
proposal was that roads would have to go clear through to 
California----
    Mr. Hansen. Excuse me for interrupting you, but we have 
checked that road out. I have been on it three or four times. 
What resource would that impact? Could you tell me that?
    Miss McGinty. I have also been on that road and am still 
recovering from the jarring----
    Mr. Hansen. It is a stretch to call it a road. I agree with 
that.
    Miss McGinty. Yes, it is a stretch. Thank you. So there 
would have to be fairly significant development to make that 
road suitable to haul in the volumes and out the volumes that 
we are talking about. But if I might respond to the other 
points--the very important points you had raised previously, 
the road, as I said, would extend clear through to California.
    Now, that is important because pursuant to the company's 
proposal, this coal--contrary to what President Carter may have 
said about having coal domestically to meet our energy 
resources--this coal was proposed to be shipped to the Far East 
for our competitors' use there, not for domestic energy 
consumption.
    But let me just reiterate, however, that the Andalex Mining 
Company's valid existing rights are not affected by this 
proclamation. And I would say to give the company their due, 
that as I understand it, there are very productive discussions 
underway right now with the Department of Interior on that with 
regard to those issues.
    Mr. Hansen. The gentleman from American Samoa.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Going through 
the provisions of the presidential proclamation that was issued 
on September 18 of last year, clearly stating within the 
province of the fact that the President does have the authority 
quite clearly under the provisions of the Antiquities Act of 
1906, I want to ask Secretary Babbitt the fact that the 
President has directed him that within this three-year process 
that some kind of a management plan is to be implemented or 
provided for in the interest of seeing how this proclamation is 
to be fulfilled.
    And I wanted to ask if perhaps--the concern that I am 
sensing here is that simply I think the good members of the 
congressional delegation from Utah seem to be left out of the 
whole picture. And I want to ask Secretary Babbitt if there is 
any intention on the part of the Administration that members of 
the Utah Delegation should be invited to participate and to 
have their honest input in the process? If I am wrong in that, 
I just wanted to ask if this is part of the process?
    Secretary Babbitt. Congressman, it is our intention to 
create an unprecedented public Federal, State, and local 
partnership. Now, just one example of that, there is a 
widespread mailing, which is either--I think it is in the mail 
by now which will go out--which is either in the mail or will 
go out--it will be followed by another one about 30 days from 
now--to all of the interested parties all over the country and, 
most importantly, in southern Utah to attend a series of public 
scoping meetings as the front end of the planning process.
    And it seems to me it would be most appropriate to arrange 
any one of those scoping meetings as a forum convenient to all 
the members of the Utah Delegation to help shape the issues 
which should be the subject of the planning process.
    Mr. Faleomavaega. Would it be helpful also, Secretary 
Babbitt, that maybe in the process to inform the members of 
this committee, or the Congress for that matter, to some kind 
of a time line in terms of not only the process hearings that 
will take place, but to kind of give us indicators along the 
line within this three year time period to kind of give us some 
benchmarks--where are we now; what do we need to do; do we need 
to do more; does Congress need to be involved; or do you 
believe that this can be done honestly within the province and 
the jurisdiction of the Administration only?
    Secretary Babbitt. No. I would be happy to do that. We have 
some tentative guidelines under discussion now which would have 
the scoping process begin this summer which would translate 
through into a draft management plan probably about this time 
in 1998 with a series of guideposts along the way. And I would 
be happy to see if we could respond to the committee with an 
outline, if that is what you suggest, to what that might look 
like.
    Mr. Faleomavaega. Thank you, Mr. Secretary. And, Mr. 
Chairman, I would like to request if, in fact, that perhaps 
some of the documentation that was referred to earlier by the 
good Senator from Utah, Mr. Bennett, if there are not 
duplications, they could also be made part of the record?
    Mr. Hansen. Thank you and they have been made part of the 
record. All the records that we presently have and we expect to 
get will be made part of the record.
    Mr. Faleomavaega. And, Mr. Chairman, you know, it has been 
three and a half hours now that Miss McGinty and Secretary 
Babbitt has been under the line of questions that we have had, 
and I certainly do have some additional questions. But for the 
essence of time, we have two more panels coming up that I will 
submit my further questions to Miss McGinty and Secretary 
Babbitt at a later time. And I want to commend them both for 
being here this morning.
    Mr. Hansen. Thank you. The gentleman from Utah, Mr. Cannon, 
is recognized for five minutes.
    Mr. Cannon. Thank you, Mr. Chairman. I have a statement to 
precede a couple of questions. The problem with the Antiquities 
Act as it was handled by this Administration in this case is 
that it has managed to make everyone that I know of unhappy, 
not only the Utah Delegation and people who were not spoken to 
in advance, but I was approached by a member of the Southern 
Utah Wilderness Alliance the other day who is deeply concerned 
about the fact that we are going to have hundreds of thousands, 
if not millions, of visitors to the area, and that those people 
will not be precluded from some of the environmentally 
sensitive areas.
    And, in fact, with all due respect to the unprecedented 
public State and Federal planning process, these visitors are 
likely to create their own points of destination which may be 
highly inconsistent with what we would have planned had we had 
more time to do it.
    You have talked somewhat about the President's concern for 
the school trust lands and the schools, Miss McGinty, but would 
both of you respond briefly? For these lands to be more 
productive, is that not going to take some sort of very large 
development on the ground somewhere?
    Miss McGinty. Well, I think as the Secretary has outlined, 
part of the process here is following up on the precedent of 
the 1993 legislation which was aimed at trying to swap out 
State lands that weren't producing the kind of revenues that 
would go to the purposes you are speaking to.
    Mr. Cannon. Pardon me. Even if we do successfully trade 
them out, and we have been trying for 30 years, for instance, 
in Arches--even we do trade those lands for other lands, is 
that not going to require some significant development on the 
ground for coal mining or oil and gas development or methane 
gas development?
    Miss McGinty. I would assume that in the process of 
identifying the lands that the State would be interested in 
having their land swapped for that they would identify lands 
that were of economic value. I don't know if it would be those 
minerals or something else, but I would assume it would be 
economically valuable.
    Mr. Cannon. And, therefore, some significant development?
    Miss McGinty. Possibly----
    Mr. Cannon. And, Mr. Babbitt, you are nodding. I take it 
you agree with that. Right? Let me just move on. Earlier in 
your statements, Mr. Babbitt, you talked about working with the 
counties, hoping to work with the counties, the fact that Kane 
County had entered into an agreement with the Department, and 
that you hoped that a similar agreement could be entered in 
with Garfield County?
    Secretary Babbitt. Yes.
    Mr. Cannon. And what kind of limitations do you expect on 
that agreement? Do you expect it to have the same kind of money 
that went to Kane County, for instance?
    Secretary Babbitt. Yes. I think so. Yes.
    Mr. Cannon. So that would be $200,000 and an additional 
$100,000 that is being talked about for each of the counties so 
an additional $200,000 for Garfield County and an additional 
$100,000 for each of the counties?
    Secretary Babbitt. Yes. I think those estimates are in the 
ballpark, and that is why I think that the Budget Subcommittee 
discussions are going to be so important because that's the 
point on which the planning process and money intersect. And I 
think there are--you will hear from the county commissioners.
    It seems to me there are a cluster of front-end issues that 
relate to adequacy, of planning, resources at the county level, 
and then a related issue about the resources necessary to do 
the people management that has been triggered by the 
declaration of the monument--search-and-rescue, law 
enforcement, and that kind of thing.
    Mr. Cannon. Well, I appreciate and I understand that there 
is a commitment of that for Garfield County as well as what has 
already happened in Kane County.
    Secretary Babbitt. Correct.
    Mr. Cannon. They have some catching up to do. Thank you. 
Let me just encourage you in this regard. I have, of course, 
been arguing with some of your people--Jerry Meredith most 
recently--I thought Mrs. Docket was going to be there, but she 
was not able, I suppose--about the difference between 
controlling the money by the BLM and allowing the counties more 
latitude. I personally believe that the counties should be 
given about $500,000 each in advance that they can use this 
summer with broad discretion. Mr. Meredith believes that he can 
provide services better and cheaper.
    The problem with this, and I hope that you will internally 
look at this in the Department, is that to the degree that the 
BLM is spending the money and controlling the money, the local 
citizens are going to be less involved. And I fear that you get 
to a point very quickly where the local citizens and the local 
counties have to say, ``We can't support search-and-rescue in 
these areas so we are instructing our sheriffs just to stay out 
of the monument because we don't have the resources.'' That, I 
think, would be tragic for people who I believe will end up 
getting lost in the monument. Just an admonition of philosophy 
about how we proceed.
    Let me ask another couple of questions. The documents 
provided this committee referred to a Utah Parks Project Phase 
II. Could you please explain what that means? What areas would 
there be in the proposed park?
    Miss McGinty. I am not familiar with the park proposal at 
all.
    Secretary Babbitt. Congressman, I am not either. Let me 
suggest, if I may, I have not seen the document. I told Mr. 
Hill that there are no discussions, and that is, in fact, the 
case. It is possible that the meaning of that traces to the 
discussion that took place in the spring of 1996 in the context 
of the Omnibus Parks legislation and whether or not we could 
reach closure with the Utah Delegation on the kind of thing 
that Senator Bennett was interested in, which was, for example, 
some additions to Canyonlands National Park.
    Now, it may be that the author of that memo is anticipating 
that Chairman Hansen is getting itchy to do another Omnibus 
Parks bill and that that might be the time to address the 
issues raised by Senator Bennett. I suggest that that is pure 
surmise because I have not had any such discussion.
    Mr. Cannon. Thank you. I have several other questions. May 
I submit those to each of you for a response in writing? Thank 
you.
    Mr. Hansen. Thank you. The gentleman from New York, Mr. 
Hinchey, is recognized for five minutes.
    Mr. Hinchey. Well, thank you, Mr. Chairman, and I do mean 
thank you for holding this hearing. I think that it has been 
very instructive and very helpful, and a lot of good 
information has come forward, and that is very needed. I want 
to also thank the members of our panel for their patience and 
their responsiveness to the questions of the members of the 
committee.
    The issue of the resources here have been brought up a 
number of times, and I think it is important to try to put that 
into perspective. The likelihood of mining taking place in 
Kaiparowits I think is fairly slim, given the realities of the 
present situation. As the Secretary I think has pointed out on 
a number of occasions in his testimony, the economic realities 
surrounding that possibility are such to almost preclude any 
likelihood of coal mining there in the relatively near future.
    All the leaseholders, with the exception of two, have 
abandoned their leases. One is in the process of negotiating 
out of its particular lease. It is only Andalex that holds any 
lease whatsoever that is even remotely likely to be executed. 
That lease is in the context of a plan which would export coal 
to the Far East--mine it there and export it to the Far East.
    First of all, you would have to build a 225-mile road into 
there which would be financed by the people of Utah. That would 
entail an expenditure of somewhere between 70 and $100 million 
which is something in the neighborhood of eight or nine times 
what all of the trust lands produce for schools, say, for 
example, on an annual basis right now--a very substantial 
expenditure.
    And also there are other coal fields in Utah--Wasatch and 
Book Cliffs I think--that are in production right now that are 
producing substantial amounts of coal. And they could be used 
to export coal to that market if the need exists.
    And, in fact, because of the geographic circumstances 
there, the coal from those mines have presently a $5 per ton 
advantage over any coal that would be mined by Andalex. So even 
the economics of this situation I think indicate that it is not 
likely that any mining is going to take place there at any 
point in the foreseeable future.
    I know that the purpose of this hearing, of course, is to 
examine into the Antiquities Act to determine whether or not it 
needs amendment, whether it should be changed. And that, of 
course, is entirely within the context of this particular 
designation. I think it would be wrong to change an Act which 
has served the people of this country so well for nearly a 
century, which has been exercised by every President in this 
century except three, and which has been exercised very well.
    And in this particular context, it is clear that the 
process is just beginning. There is a three-year process now by 
which public participation and a great many people are going to 
have the opportunity to express themselves on this issue. And 
it will be formulated in the context of that particular 
process.
    So I think it would be premature to propose amending this 
Act based upon this particular circumstance. I support the Act 
as it is presently constituted, and I certainly support the 
President and what he has done here. I think he has done the 
people of Utah and the people of the country a great service in 
the designation of this national monument.
    But let me ask you, Miss McGinty, suppose we had a change, 
suppose there was a circumstance where you had a 90-day delay 
or some other nature. What kind of problems might ensue from 
those changes which would make it difficult to preserve 
critical areas of the country in the future by future 
Presidents regardless of what party they might be?
    And also isn't it true that assistants to Presidents when 
they are writing memos to the President might include in those 
memos certain political circumstances? I don't think that that 
is unheard of, and I venture to say that I recall in the past 
assistants to Republican Presidents writing memos that 
contained certain political considerations within them. It is 
not entirely unusual to do that, is it?
    Miss McGinty. Every once in a while the President has some 
interest in what the political ramifications of an issue might 
be. Yes, that is correct. And I do try to provide that 
information to him.
    To step back to the first part of your question, I think it 
is important to focus on it in the context of this discussion, 
as you rightly pointed our attention. Here what might have 
happened, these issues, as has been discussed, were the subject 
of intensive debate. The President was very concerned that 
first of all an Omnibus Parks bill that he, together with the 
Chairman here, had worked very hard on and had many provisions 
that were very important to us.
    But that vehicle was being used, if you will forgive the 
expression, as the vehicle that had a poison pill, the poison 
pill being the President's expressed opposition to the Utah 
lands bill. Similarly, up until the very last day of the 104th 
Congress, there was an effort to try to put similar kinds of 
initiatives on the appropriations bill that was moving.
    These are poison pills that tie the President's hands and I 
think underscore the importance, especially in an issue like 
this where it had been debated so extensively and where the 
President himself had put himself on record numerous times 
during the two-year Congress--the 104th Congress--that he then 
ultimately have the ability to act in the best interests of the 
people of the United States.
    Mr. Hansen. The time of the gentleman has expired. I may 
suggest to you that there would be a wonderful monument of the 
Ithica Gun Works in New York. One of the finest shotguns ever 
made was made in New York in Mr. Hinchey's district. Two 
million acres would about take care of it.
    Mr. Hinchey. Mr. Chairman, let me express my appreciation 
to you for noticing that, and I would encourage you, and as a 
matter of fact, maybe we should talk about a bill that we would 
put in for that particular purpose.
    Mr. Hansen. I am with you, brother. We will do it. The 
gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Mr. Chairman, I have no questions at this time 
since I have been gone so we can get to the other panels.
    Mr. Hansen. A member of the committee, Mr. Hill from 
Montana, is recognized for five minutes.
    Mr. Hill. I would like to yield my time to Mr. Cannon again 
if he has more questions to ask.
    Mr. Cannon. Thank you. There is a lot more to say and a lot 
more questions to ask, but I think I will submit most of my 
questions in writing.
    Mr. Hansen. The gentlelady from Wyoming, Mrs. Cubin.
    Mrs. Cubin. Thank you, Mr. Chairman. I am going to go back 
to some oil and gas issues. All of the documents--the question 
and answers that we received stated that there were no oil and 
gas leases so there would be no loss of revenue due to the 
proclamation. And then they were corrected and said that there 
was no production so that there wouldn't be any loss of 
revenues.
    And both of those statements turned out to be incorrect 
later because there is production there; in fact, $234,000 a 
year in rental payments, and half of those rental payments go 
to the State of Utah, as you know, as well as any royalties.
    And I just wonder since coal is the only thing that has 
been discussed as far as not developing, what are the plans or 
are there any at this time about helping facilitate that coal 
production or, I mean, oil and gas production? I know you said 
everything is a blank slate, but are there any preliminary 
discussions about the oil and gas leases that are existing?
    Secretary Babbitt. Mrs. Cubin, I think the most salient 
fact is that Conoco is preparing to drill a well on an 
inholding school section owned by the State of Utah. And it is 
my understanding that they are either underway or prepared to 
go very shortly. Conoco will tell you that it is a very long 
shot. They are drilling to the Precambrians on the theory that 
the Zenker and Chewer formations that you can see over in the 
Grand Canyon down toward the bottom are producing hydrocarbons 
which are migrating upward into stratigraphic traps.
    It is really an imaginative theory. My own feeling is that 
when they have drilled and finished their well on the State 
section, we will have a lot more information about values, 
about quality of their geological hypotheses. Conoco also has a 
lease on some Federal land, and this poses the issue in a 
slightly different way.
    They have filed with the BLM for a drilling permit, and 
that permit application will be passed upon by the BLM in their 
normal process by normal standards, including the values to be 
protected that are laid out in the present proclamation. They 
will make that decision, and we will have an answer in due 
course.
    Mrs. Cubin. Well, my main concern is--excuse me--are the 
existing leases--the leases that are there that are valid, and 
certainly we don't want to violate people's private property 
rights by not allowing that especially since it was never 
even--oil and gas production ever even referred to before the 
proclamation was made. And possibly the President didn't even 
know there was any oil and gas production in that area. In 
fact, do you know if he had any knowledge of that before the 
proclamation was made?
    Secretary Babbitt. Oh, I am sure he did. I am not certain 
that he did. And the people who drafted the document--I didn't 
supervise drafting the document, but I am certain that the 
Solicitor's Office of the Interior Department knew that.
    Now, those leases are valid by their terms. They are a 
valid existing right. Now, I think it is important to 
understand that valid existing right has two totally different 
meanings. One is under the Mining Law of 1872, and valid 
existing rights under the Mining Law are basically referenced 
to a whole series of Court decisions interpreting the 1872 
Mining Law. These leases are contractual documents which are 
entered into under the Mineral Leasing Act, and the rights that 
are conferred by those leases are very different from rights 
conferred under the 1872 Mining Law.
    Mrs. Cubin. Oh, yes, I have that.
    Secretary Babbitt. Because the rights are contractual 
rights.
    Mrs. Cubin. Right.
    Secretary Babbitt. Now, we are obliged, in my judgment, to 
honor the contractual provisions of the leases. And the reason 
I say it that way is because the decision to drill and produce 
under one of these leases is typically conditioned by a whole 
variety of provisions in the leases themselves and by the 
environmental laws that regulate that. That is the reason that 
what we have done is said to the BLM, ``They apply. You pass 
judgment on this lease the same way you would any other lease 
application, and that amounts to respecting their rights as we 
must, as we will.''
    Mrs. Cubin. I appreciate that, Mr. Secretary. But I think 
you can see the contradiction that I am seeing. You don't 
necessarily agree with it, but I think you can see the 
contradiction that here is Conoco having to go through all of 
the environmental impact statement studies, you know, all of 
the environmental analysis in order to produce on the leases 
that they have.
    And then in one fell swoop, the President can come in and, 
you know, just disregard all of the environmental safeties that 
we have put in place. It is that contradiction that concerns 
me. I also wonder if you have a time table when Conoco's permit 
will be, you know, either accepted or--but you probably don't 
right now, but if you could provide that?
    Secretary Babbitt. Well, I have asked the BLM about that, 
and I think--bear in mind, it is an exploration permit.
    Mrs. Cubin. Right.
    Secretary Babbitt. There is no production here, and I am 
only an amateur geologist. But I pay a lot of attention to this 
stuff, and I think, frankly, it is a pretty long shot. This 
kind of Precambrian hydrocarbon generation stuff is not garden 
variety, widely known stuff.
    Mrs. Cubin. But they are willing to put millions to find 
out.
    Secretary Babbitt. Yes, exactly.
    Mrs. Cubin. You know, I don't think it is----
    Secretary Babbitt. Exactly, no.
    Mrs. Cubin. [continuing]--necessarily smoking----
    Secretary Babbitt. Bear in mind, they have got their 
permits. We are on the verge of them on the State land. I have 
asked the BLM what kind of time table. I think the answer is 
this summer. I think it is a matter of a few months----
    Mrs. Cubin. Thank you.
    Secretary Babbitt. [continuing]--that it takes them to 
process that drilling exploration application.
    Mr. Hansen. The time of the gentlelady has expired. The 
gentleman from North Carolina, a member of the committee, is 
recognized.
    Mr. Walter Jones. Mr. Chairman, thank you. And I am going 
to be brief because, as you noted, I had to leave shortly after 
the Governor of Utah spoke, which I regretted, but we had 
previous appointments arranged. And I want to make just a 
general statement, Secretary Babbitt.
    I was amazed with the comments by the two Senators and the 
Governor as to how all this was handled, and I regret that I 
did not hear your response to their comments regarding how this 
proclamation was put together and how it was announced, when 
Members of the Senate and the House were not privy to even a 
day-or-two-notice before it actually happened.
    My comment, Mr. Chairman, is since I have had a run-in with 
the Park Service down in my district that deal with some horses 
and the arrogance of those that work at the local level, and as 
it relates to this situation in Utah, to see the arrogance as 
to how the Department of the Interior, Mr. Secretary, and 
seeing how the arrogance of the people at the local level, I 
just see some real serious problems.
    And I think what the problem is is that the bureaucrats, 
whether they be in your Department or whether they are Members 
of the Congress, we forget who is paying our salary. And what 
happened in Utah is that the people in the Federal Government 
are forgetting who is paying the salaries--the taxpayers of 
America. And they are totally out of the loop.
    And I guess I feel so strongly about it because I have seen 
in my State when I have a Democratic governor that supports the 
protection of these horses and yet we have these ongoing 
battles in my district, and then I look at what the President 
did in this decision and how it was--if you will excuse me for 
saying this--it looks like a coverup from the elected men and 
women that serve Utah until you all determined it was time to 
drop the bomb on them.
    And, Mr. Chairman, I guess I won't keep pontificating, but, 
in all honesty, this arrogance--I am just incensed by it, to 
tell you the truth. And I just had to come back hoping that the 
Secretary would not have left so I could say for goodness 
sakes, let us listen to the people of America, and let us 
listen to the people who pay our salaries--yours and mine. 
Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. Last questions--Mr. Cook from the 
Second District of Utah. Thank you for bearing with us.
    Mr. Cook. Thank you, Mr. Chairman. I just wanted to follow 
up, if I could. Secretary Babbitt, I didn't like what you said, 
but you were very clear in saying you just can't support any 
amendments to the Antiquities Act. I guess that is the 
Administration's position.
    But given the very compelling testimony from Governor 
Leavitt, from Senator Bennett and Senator Hatch, particularly 
when Senator Bennett pulled out from that box those documents 
that say ``let us not,'' I can't remember the exact words, but 
to paraphrase, ``let us make sure this doesn't get out before 
we can do this, before we make this designation because it 
might even stop it from happening if this gets out.''
    Given all that background--and I didn't notice that there 
were any statements made from you or Chairman McGinty that 
contradicted a thing that was testified to by the two Senators 
and by the Governor--I still ask you, and I understand your 
answer that you don't support any amendments, but can't you 
give us more of a rationale of why you absolutely oppose the 
simple amendment to allow a 90 day notification period for 
hearings or for at least the Governor to bring comments back to 
the administration? I just can't understand, given that 
compelling testimony, your quick ``no'' without responding a 
little more directly as to that 90 day period of consultation. 
How can you oppose that?
    Secretary Babbitt. Congressman, two things. One, my 
opposition to amendments is my personal view. Let me just for 
the sake of precision say that is where I stand. The reason for 
that is that this Act for 91 years has been an extraordinary, 
beneficial environmental Act.
    The actions of Presidents from Theodore Roosevelt on have 
always been controversial. When Theodore Roosevelt made the 
Grand Canyon a national monument, my family was in the 
opposition because the monument actually took in part of the CO 
Bar Ranch run by my family. It is still in my family's hands.
    I have watched this and read about it across an entire 
century. Virtually every time there has been a monument 
declaration, there has been a big rush to amend or repeal the 
Antiquities Act. It has stood the test of time. The Presidents 
who have used it have been vindicated, heeded by history. And 
President Clinton is going to be vindicated by history.
    Mr. Cook. Mr. Secretary, I don't mean to interrupt you, but 
that doesn't really explain the 90-day consultation. You can't 
really think that is a bad thing in terms of the process. 
Respond more directly to what is so bad about the 90-day 
consultation? I mean, I understand your faith, and I share a 
lot of it in the Act itself, but I can't believe there is 
really a problem with this other than you are doing it as a 
marching order kind of mentality.
    Secretary Babbitt. Well, it is not a marching order because 
I haven't discussed this with anyone, and I, you know, reaffirm 
to you this is my opinion. I think the Act has been vindicated 
by history, and I do not contemplate supporting any kind of 
amendment. I just don't.
    I think that each one of these proclamations, whether it is 
Grand Canyon, the Utah monuments, Alaska, have been fraught 
with controversy. It happens every time. The controversy is 
always different. That is in the nature of the exercise in 
presidential power.
    And every time there are a raft of proposals, I think the 
most appropriate way to handle this is to examine the issues, 
take full account of the public planning process that is now 
underway unprecedented, judge these issues in their totality, 
and refrain from making a raid on this Act every time people 
disagree with a decision.
    Mr. Cook. And if I could just finally ask Chairman McGinty, 
your statement that the Andalex Mine's existing rights are not 
affected, could you explain that? Obviously, they are affected. 
What you are saying is they are being replaced with other 
leases. Would you please explain that statement?
    Miss McGinty. Sure. And this goes back to Congresswoman 
Cubin's points as well. The valid existing rights that are 
within the bounds of the monument are absolutely respected by 
this monument proclamation, and that extends to Andalex as 
well. To the extent that Andalex has valid existing rights in 
this area, those rights are respected, and they will be 
respected throughout this process.
    Mr. Cook. And you see why I am at a loss. Does it mean 
anything--what you have just said--in terms of the ability to 
use that 40-acre site. You've obviously visited that site?
    Miss McGinty. I have been in that area. I could not testify 
here that exactly that site I was at, but I have certainly been 
in that area. I have been on the road that the Chairman 
referred to as well. The point is though to the extent that 
Andalex has a property right in this area, and to the extent 
that Andalex wants to continue to pursue a mining operation in 
this area, that request will be handled in due and ordinary 
course by BLM.
    They would review it as they would review a mining proposal 
anywhere else in the State. The only difference I would suggest 
here is that the review would need to be done also with the 
values that the monument recognizes in mind, but other than 
that application should Andalex pursue it, would be just 
treated in normal due course.
    Mr. Hansen. The time of the gentleman has expired. All time 
has expired of this panel. Let me thank you both. You have been 
very patient and appreciate your answers. Chairman McGinty, I 
appreciate you bringing your parents along from Philadelphia. 
It was nice that they could accompany you today. And I have 
just got to ask, Mr. Secretary, what does TL stand for of the 
TL Bar?
    Secretary Babbitt. Cincinnati, Ohio.
    Mr. Hansen. It is what?
    Secretary Babbitt. Cincinnati, Ohio.
    Mr. Hansen. Oh.
    Secretary Babbitt. My grandfather and his brothers went 
west in 1886 and arrived in northern Arizona in the middle of 
the winter and bought a few head of cattle and kind of homesick 
and said, ``We think we will name this spread after the home 
town that we are not so sure we should have left.'' But they 
did and they built this ranch up over the years, and it is 
still out there. And it still runs right up to Grand Canyon 
National Park.
    Mr. Hansen. Well, thank you. I appreciate that explanation. 
I thought you said TL. I apologize. My brother-in-law has TL 
Bar, and it stands for Tough Luck Ranch. We tell him it is 
Truth and Love. It makes him feel better. Well, thank you so 
very much. We do appreciate you being with us, and we will now 
move to our next panel.
    Louise Liston, County Commissioner from Garfield County. 
Now, these are the people who are on the ground--these 
commissioners that are coming up. They have to run this. Joe 
Judd from Kane County, Utah, County Commissioner; and John 
Harja, Vice Chairman of the Utah School & Institutional Trust 
Lands Administration. If those three would come up, we would 
appreciate it.
    I hope the committee realizes these are the county 
commissioners that have to make it work. So we are grateful 
that they would be with us right now, and we will turn to 
Louise Liston. Louise had been before us many times, a very 
articulate spokesman for the State of Utah and for her county. 
Louise, can you do it in five, or do you need more than that?
    Ms. Liston. I have got it cut down pretty close to five.
    Mr. Hansen. OK. The floor is yours.

   STATEMENT OF LOUISE LISTON, COUNTY COMMISSIONER, GARFIELD 
                          COUNTY, UTAH

    Ms. Liston. Thank you, Mr. Chairman. I appreciate your 
comments. And I extend a good afternoon to you and members of 
the committee. I would like to thank you for the opportunity to 
testify before you today regarding the designation of the 
nation's newest monument.
    I am a commissioner from Garfield County, one of the two 
southern Utah counties seriously affected by the President's 
action. I am gravely concerned about what is happening to rural 
communities in the West who rely heavily on natural resources 
found on the nation's public lands to sustain their local 
economies.
    During the past four years of the current Administration, 
those counties are being pushed closer and closer to the edge. 
And as that happens, the battle becomes more fierce and heated. 
Local custom and culture are systematically being destroyed by 
land management decisions and environmental scare tactics.
    Community morales are low, and we are experiencing an 
alarming increase in spouse and child abuse and escalating 
occurrences of alcohol and drug abuse. The number of suicides 
from the ages of 16 to 28 in a recent Utah Southwest District 
health report shows southern Utah counties far above the State 
average. Our young people in rural areas feel that the freedoms 
guaranteed them by the Constitution are being violated more and 
more by Federal restrictions, regulations, and designations.
    The citizens of Garfield County have shared their scenic 
beauty with the world and borne the monetary burden of that 
responsibility for decades. In return for our goodwill efforts, 
we feel that we, along with the school children of Utah, have 
been laid upon the sacrificial altar by a President who, with 
the stroke of a pen, locked up a treasure house of natural 
resources with promises that can never be kept.
    Over 98 percent of my county is State and federally owned. 
With a meager 1.3 percent of the county's land base left to 
generate taxes from and a population of 4,000, we are caring 
for over 3 million visitors. Running a county so impacted is 
not easy. Congressmen and residents in eastern States where 
Federal ownership seldom exceeds two or three percent cannot 
begin to comprehend the impacts being placed upon local 
governments and local economies that rely upon the land for 
their survival. Add to that the designation of a new national 
monument that is already creating serious problems.
    The BLM Office in Escalante is averaging 76 telephone calls 
a day about the monument. The Escalante Chamber of Commerce web 
site on the Internet received 2,600 hits in February requesting 
information about the monument. With interest that overwhelming 
this early in the tourist season, we perceive the resulting 
impacts will be devastating to our meager budget and will place 
us in a position of extreme hardship to provide the necessary 
services that visitors not only expect but demand. Local 
government should not have to bear that burden alone, 
especially when they had no input into the initial process that 
created the monument.
    Yet, we are now facing the realities of that designation on 
a daily basis and the impacts that millions of visitors will 
bring. We will handle their waste, provide law enforcement 
services, emergency services, search-and-rescue, try their 
criminal cases in our Courts, and maintain safe roads for them 
to travel on to recreate on the nation's public lands, all on a 
very limited budget that is being further eroded away by loss 
of taxes generated by stable industries that no longer exist.
    Mr. Chairman, the economic, social, and environmental 
concerns facing public land counties today are overwhelming. It 
is very destructive when the fate of a region is determined by 
people who don't live there and have to live with the direct 
impacts of their decisions, with little or no thought or 
feeling for the devastating effects those decisions will have 
on families, local economies, schools, and livelihoods.
    We in the West are tired of having our destiny decided by 
greedy preservationists and a Congress sympathetic to their 
cries of wolf. We take offense when accused of abusing the land 
and destroying its beauty, when, indeed, we have been such 
caring stewards that the land is now beautiful enough to be 
declared a ``national treasure.''
    The vast majority of Americans are concerned about their 
environment. However, they are also concerned about making a 
living and providing for their families. Only by achieving a 
balance can we hope to preserve both the land and the people. 
We must always consider the people and the environment together 
as though they are one because the human need to use natural 
resources is fundamental to our very presence on this earth.
    Mr. Chairman, members of the committee, once again, thank 
you for the opportunity to add my testimony to this oversight 
hearing. It is my hope that a management process for the 
monument will evolve that will benefit my county, the State of 
Utah, and this great nation and its people, that it will fairly 
consider all factors and conflicts and strike a balance between 
recreation uses and other multiple uses of the resources found 
there. Thank you.
    [Statement of Ms. Liston may be found at end of hearing.]
    Mr. Hansen. Thank you, Commissioner. Commissioner Judd, you 
are recognized.

 STATEMENT OF JOE JUDD, COUNTY COMMISSIONER, KANE COUNTY, UTAH

    Mr. Judd. Mr. Chairman and members of the Subcommittee on 
National Parks and Public Lands, on behalf of the Commission of 
Kane County, I want to thank you for inviting me to testify 
regarding the impacts of the designation of the Grand 
Staircase-Escalante National Monument. I have a statement that 
I will submit for the record, and I will briefly highlight some 
of our concerns with the monument and where we stand in terms 
of our cooperative agreement with the Department of Interior.
    First, let me say that we greatly appreciate the efforts 
that have been made by you, Mr. Chairman, and by our 
Representative, Congressman Cannon, to keep this issue before 
the Congress. There has been a tendency by the Federal 
Government to knowingly or unknowingly place a burden on local 
governments and then just forget about it. The monument could 
easily be a classic example of an unfunded mandate. We greatly 
appreciate your tenacity.
    There is a Chinese curse or a parable that states, ``May 
you live in interesting times.'' Well, these are very 
interesting times. Last spring we were updating our county's 
general plan and zoning ordinance. We were trying to plan for 
change we thought was going to take place with the influx of 
new residents.
    These new residents would come because of high-paying jobs 
that would follow the development and opening of the Smoky 
Hollow Coal Mine--incidentally, an underground coal mine. The 
environmental impact statement was well underway, and a 
positive finding was expected.
    Mr. Chairman, we have 7,000 people living in Kane County, 
and our budget is only $2.25 million. We just went through the 
closing of the uranium mine not long ago, costing us 150 jobs; 
closing of the Kaibab sawmills, another 700 jobs; and looking 
forward to the opening of a coal mine which would have provided 
900 jobs.
    We were looking forward to being able to mine that large 
coal deposit. This coal mine would have added $1.3 million to 
our budget each year and providing good, primary jobs, as well 
as helping the school children of Utah.
    But last September 18, all that changed. We now have 
condors for neighbors and the promise of the increase in 
tourism. We now have many things that are going to take place. 
As far as tourism is it going to offer us a benefit?
    And negotiating the implement agreement included a final 
rule for those things that are going to take place. The 
government does not have to be at war with the local 
government. Given the right chance, we can work things out for 
everyone's benefit.
    The monument area within Kane County is 68 percent of the 
monument within Kane County. It is 49 percent of our county, an 
area of 2,500 square miles, and now makes up a great deal of 
our county. Few people, including the President, have an 
appreciation for just how large and diverse these monument 
lands are. It was an enormous decision with enormous 
consequences. It is a very diverse topography ranging from very 
stark, without any vegetation of any kind, to a more familiar 
red cliffs and canyon highlighted by the media.
    The budget increase we counted on from coal mining will be 
offset to some degree by the increase in tourism. But will it 
be a windfall for the county? I am afraid not. While tourism is 
already a large part of our county's income, it has a downside 
also. First, it is very seasonal--May, at best, through 
October. Second, it provides jobs that pay a minimum wage with 
no benefits. But the real impact from our tourism we have 
discovered is a negative impact on law enforcement and our 
Court times also.
    Mr. Chairman, the impacts of this monument also has made us 
aware of how fragile and inadequate most of our services may 
be. The monument and the movement of tourists through the 
monument, of roads and various services, no paved roads on the 
Kaiparowits Plateau, serious problem of search-and-rescue that 
has been spoken to already. People go out in these areas and 
get lost or stranded or worse.
    And the added strain upon the tourists who come and break 
our laws, and the added burden of our Court system. We are 
already the second largest secondary Court system in the State 
of Utah. We also have a tax on our water system and other 
infrastructure. Last year, we had to drill an additional well 
in Kanab because many of our fire hydrants were dry midsummer. 
I might add that we are arresting about 50 illegal aliens each 
night and have impounded over 100 vehicles.
    Not long after the President's proclamation, Kane County 
entered into a cooperative agreement with the Department of 
Interior. That agreement provided $200,000 this year to 
facilitate the improvement of economic, culture, and resources 
within the county. We entered into this agreement with the BLM 
and the planning process. We had been left out of the 
deliberation and the creation of the monument, and we did not 
want to be left out of the planning process.
    We believe the Federal Government has an obligation not 
only to invite us to participate but to provide the resources 
which will enable us to fully participate. Otherwise, we simply 
do not have the budget to be involved in any meaningful way. We 
are a poor county.
    But our participation is, in fact, a valuable contribution 
to the process. It is a great bargain for the American people. 
We have had our setbacks here of late, and with our partnership 
with the Department of Interior, we have a voice in an early 
and very critical phase. We hope that it will protect our 
interests, to make this monument a new and positive one.
    It is a simple situation that we find ourselves in with 
this new monument. It is rather like my brother who thought he 
was a chicken. We really wanted to talk him out of it, but we 
needed the eggs. But we are not allowed to have those 
opportunities given to us.
    We want a clearly defined role. We would also establish a 
working relationship with the Department at field level and 
with the Department here in Washington. Secretaries leave and 
Departments change, agency personnel are transferred.
    We would hope that the Congress will establish a continuing 
role for Kane County through authorizing legislation and 
certainly through the appropriation process. It could be 
considered a demonstration project. But to create a positive 
experience and adjacent to the monument, our involvement is 
essential.
    Mr. Chairman and members of the committee, we should not be 
in a position of having to go hat in hand to the Congress or 
the Federal Government every year and take a subservient or 
inferior position. Kane County's role should be structured and 
defined. It could be an extension of the cooperative agreement. 
We do not, of course, expect to be given a blank check.
    Eventually, a large part of the expense providing services 
could be supported by entry or interpretive fees or the sale of 
educational materials. It is my understanding that the 
committee will be considering legislation fees for the national 
parks and monuments during this next Congress. We would hope 
that the monument would be included and that we could offer 
some recommendations as to what might be implemented.
    We are beginning, with the assistance of the BLM, to 
implement involvement and participation programs. This planning 
will be open and structured to include all points of views 
within our county--the environmental point of view, forestry 
view, cattlemen, and so on.
    We are asking the University of Southern Utah to help us 
create a record of this process with a short video because we 
believe it will be a model. Thank you again, Mr. Chairman and 
members of the committee, for inviting us to participate in 
these hearings. I will be happy to try and answer any questions 
that you may have.
    [Statement of Mr. Judd may be found at end of hearing.]
    Mr. Hansen. Thank you, Commissioner. Mr. Harja.

     STATEMENT OF JOHN HARJA, VICE CHAIRMAN, UTAH SCHOOL & 
  INSTITUTIONAL TRUST LANDS ADMINISTRATION, ON THE BEHALF OF 
                 RULAND J. GILL, JR., CHAIRMAN

    Mr. Harja. Thank you, Mr. Chairman. As you know, you had 
asked the Chairman of the Board of Trustees for the School & 
Institutional Trust Lands to be here today. Unfortunately, he 
had a family emergency, and so I was asked to pinch hit for 
him, and I am glad to do that.
    You mentioned civility earlier in this hearing, and, 
therefore, all I could really do on behalf of the School & 
Institutional Trust Lands is express how frustrated we are by 
the way this has proceeded and how frustrated we are at the way 
the Federal Government restricts us from keeping our mandate.
    As a result of the monument, the Board of Trustees, on 
which I sit as Vice Chair--and, by the way, Louise Liston is on 
our Board--passed a policy statement last January which 
expressed a certain amount, and it was very lengthy and 
expressed our distaste for what we perceive is happening to us.
    It talked about possibilities of exchange, which I will go 
into more later, and I want to express our disappointment at 
the way Public Law 103-93 that Mr. Babbitt mentioned has 
proceeded. We talked about suing the Federal Government, and we 
are proceeding down that path, and our attorney is here today. 
We talked about developing the lands that we have both for 
mining opportunities and for tourism opportunities, and we are 
going to look at that.
    As the Secretary mentioned, these are our lands--the school 
trust lands. There are 176,000 acres of them in this monument 
scattered throughout, and it was amazing to us that Mr. Panetta 
knew nothing about this and, in fact, told the Governor, ``What 
are those little blue squares here?'' If you are familiar with 
the map of Utah, typically the BLM lands are in yellow and the 
school trust lands are in blue so it looks like little tiny 
blue squares all through the place.
    It frustrated me when Miss McGinty said these lands are not 
producing as expected. That is definitely putting the cart 
before the horse because we feel like we can produce, but every 
time we get close to something, and somebody mentioned EIS as 
always being yanked--every time we get close to something, the 
Federal Government pulls it out from under us and says, ``No, 
no, no. You can't mine there.''
    Well, where can we mine? We all know the ore is where it 
is. You can't move it. They mentioned, ``Well, there is ore 
further north of Utah--coal.'' That is true, there is, but he 
forgets to mention that half of that is already promised to the 
school trust lands for other exchanges.
    And he forgets to mention that half the money from that 
coal up there is being returned to the State of Utah as a 
whole, not to the trust. And, therefore, if we are going to 
move, there is a problem. We can't use our own money to pay the 
trust.
    So those kind of statements really frustrate us because I 
want to explain to you in the monument, for example, the school 
trust land was working with its partners. It was working with 
oil companies, Conoco. Conoco had leased the lands from us. We 
were working with Andalex who had leased coal from us. We were 
working with other companies that were interested in coalbed 
methane. All of those things up until September 18 were 
proceeding apace. In fact, we had great hope that they were 
going to proceed.
    As a direct result of the proclamation on September 18, 
every one of those is grinding to a halt. We had an agreement 
nearly negotiated with Andalex--we, the trust--for leasing some 
other school trust lands near the Smoky Hollow site. It would 
have paid us a bonus of $7 million. That is now gone.
    As has been discussed earlier, the Andalex proposal itself 
is on hold. I heard somebody mention that they have abandoned 
the lease. That is certainly not the case. I don't want to 
speak for them, but they are not abandoning it. They are just 
looking for value, as are we. Pacific Core hasn't abandoned its 
leases. It is looking for value, as are we. Everybody is now 
kind of, you know, trying to figure out what has been done to 
them.
    I want to explain a little bit about what the trust needs 
in order to feel whole in terms of exchanges because the 
President mentioned exchanges. It has always mentioned. The New 
World Mine is an exchange proposal. The difficulty with the 
Federal Government in consummating exchanges is severe. They 
are excessively rule-driven.
    They are excessively tied to appraisals, and any of you 
that have worked with property know their appraisals are an 
estimation, but they are not in and of themselves a definitive 
statement of value. And they never finish the process, and I 
want to emphasize that. They never finish the process--rarely, 
anyway.
    We need all of those solved. The trust needs to know if we 
are going to exchange, where are we going to go? What is being 
offered? Remember, most of the coal has already been taken for 
other promises. You have got to remember the 50-50 split.
    In addition, if we are going to look at leased property for 
oil and gas, it is going to have an effect on the U.S. 
Treasury. And those of you that are concerned about budget 
deficit, you are going to lose that money. It is going to be 
diverted to the trust. So what properties are going to be 
offered? What is the fair value of those properties?
    The Secretary mentioned 103-93. We have been working on 
that now since the Congress passed it in 1993 and the President 
signed it. It took us 11 full months to agree--almost a year--
to agree on the standards of appraisal--just what you are going 
to appraise? The Federal Government fought us tooth and nail 
over that.
    In addition, I would have to say their appraisals are 
geared their way--the appraisal process for the Federal 
Government. They do not hesitate--they, being the appraisers 
for the Federal Government, do not hesitate to contact 
independent appraisals and let them know what they think. Our 
people have been told--the appraisers that is that are working 
on this project--``You have to consider the effect on the 
United States Treasury when you do your appraisal''; i.e., you 
have to bring the value in low.
    We have had appraisers go to--the Federal appraisers come 
and say, ``You did this wrong''--directly, not contacting the 
State and doing it in some sort of joint meeting--just contact 
them directly and say, ``You did this wrong. You need to change 
it.'' This is why we feel frustrated.
    You come in and the Federal Government puts this monument 
down, and the lands are, therefore, suddenly surrounded by a 
restrictive Federal management. They say our lands are not 
included, that is true, because they are not Federal lands. 
They won't plan for those lands. They say, ``You will be moved. 
You will be traded so we don't need to worry about them being 
there.'' Nobody consulted us about that.
    When they say there is no mining, you have to understand 
that two-thirds of our income to the trust comes from mining 
operations. When they say there is no mining, all of our 
mineral partners in that area, except maybe Conoco--we are not 
sure about them--are lost.
    So the income that we had hoped turn our operations 
around--I want to point out to you that we have gone from $46 
million in our permanent fund to $120 million in five years--
the last five years. We have plans to get to $200 million by 
2002. Those were dependent on these mineral operations.
    You can say, ``Well, Andalex would never have gone in. It 
is $5 a ton more. There are all those roads that have to go 
in.'' There were responses to those, and, of course, what we 
will never know now is could they have done because it is being 
stopped?
    Just quickly--I see the red light is on there--the trust 
today--oh, one thing I wanted to point out. Immediate loss of 
royalty for Andalex to the trust was probably around $600,000 a 
year for 30 years. That money stays in a permanent fund. It is 
available always to generate interest. We lost the $7 million.
    Coalbed methane--right now the properties in the monument 
are producing about $115,000 a year--not a lot, and that is 
going to zero real quickly. We have similar operations of 
coalbed methane up in Carbon County that are producing $200,000 
a month--a month. Coalbed methane is not a difficult 
technology. They are shallow wells. That was almost in the 
bank. It is exploitation, not exploration. The trust will no 
longer see that. How can we expect to be compensated for that?
    We estimate, if Mr. Babbitt has his way and we have to go 
into some sort of detailed process to appraise and swap these 
lands, which I am not at all sure the Board of Trustees is 
interested in doing, it is probably going to cost 5 to $10 
million. The current process on Public Law 103 is up around 5 
million for us because we feel we have to defend against the 
processes of the Federal Government. We have to be prepared to 
respond to them.
    That 5 to $10 million I would put to you should be paid by 
the Federal Government. It should not come out of the school 
kids because all of our money from the lands, some of it is 
diverted to operations, but the rest goes in the permanent fund 
or directly to beneficiaries.
    Why should we have to divert 5 to $10 million over probably 
10 years to pay for the stuff that the President caused? So it 
may be that we need 5 to $10 million from the Congress to help 
us out. Mr. Chairman, I probably said plenty. Thank you.
    [Statement of Mr. Harja may be found at end of hearing.]
    Mr. Hansen. Thank you, I appreciate your testimony. The 
gentleman from Tennessee.
    Mr. Duncan. Thank you, Mr. Chairman. I heard Senator Hatch 
say earlier that the coal that is there--the low sulphur coal 
that is in that area--is worth over a trillion dollars. And I 
have also heard that this is the largest low sulphur coal 
deposit in the world, and that the second largest was owned by 
the Lippo Group out of Indonesia, and that shortly after this, 
they made all these big campaign contributions to the President 
and the Democratic National Committee. Have any of you heard 
any----
    Mr. Judd. We have noticed that parallel also, and I don't 
know. Rush Limbaugh did two or three shows on it, and there has 
been things in the press. However, there has been a lot of 
things said about that coal and about the market, and Indonesia 
certainly is a huge coal producer.
    It is a strange thing that the Secretary talks about or 
Miss McGinty talks about selling coal to a foreign market and a 
foreign coal mine. They ought to look at Kennicot. Kennicot is 
owned by a foreign country, and I am sure that that copper goes 
overseas.
    And if we are worried about foreign countries, maybe we 
ought to tell Honda and all the rest of the people who are here 
trying to produce things in this country that we are against 
foreign trade.
    Mr. Duncan. Well, let me ask you this. I have noticed that 
these environmental extremists are almost always real wealthy, 
upper income people. And, in fact, I read that the Sierra Club 
has an income--their average member has an income of about four 
times the average American. And what I have noticed is that 
they have enough resources to be insulated from the harm that 
their policies do, but they are destroying jobs and driving up 
prices, and they are hurting poor and working people in the 
process. Have you done any estimates of how many jobs this is 
going to destroy in your area? Have you done any figuring like 
that?
    Mr. Judd. Well, this one mine--this Andalex Coal Mine would 
have produced about 900 jobs, and then the fallout from those 
900 jobs in adjacent States would have been something. I was 
interested in Congressman Hinchey saying that we were going to 
have to build a 225-mile road to mine that coal. It is closer 
to 20 that takes it right out on a highway. I don't know where 
those figures come from.
    It is kind of like what Congressman Hansen talks about here 
impacting 40 acres, and yet if you look at the extremist 
literature that is produced, they will talk about, ``Do you 
want a bulldozer in the middle of the Kaiparowits Plateau in an 
open pit mine?'' when, in fact, there will be three portals at 
the bottom of a canyon 800 feet below the rim, and 40 acres 
that you would not see unless you were directly there. There 
will be no smokestacks. There will be no outfall from that.
    To answer your question, Congressman, yes, there were a lot 
of jobs that would have happened. And, of course, the service 
jobs beyond that--as the communities prosper, people build 
homes. They will need more electricians, painters, et cetera, 
et cetera.
    Mr. Duncan. But, I mean, also you drive up coal prices for 
people all over this country when you----
    Mr. Judd. Well, of course.
    Mr. Duncan. [continuing]--lock up so many resources. And it 
is such a sad thing that, as I say, some of these environmental 
extremists have now become the new leftists, the new 
socialists, the new radicals in this country today, and not 
enough people I think recognize it yet. But they are really 
doing some harmful things to this country.
    And the problem that I see that you have is that you are a 
small State, and nobody gets upset about it until it happens to 
them. And, yet, I have read recently that the Federal 
Government owns 30 percent of the land in this country now and 
another 20 percent is owned by State and local governments and 
quasi-governmental units. And they are putting so many 
restrictions on the rest of the private property, they are just 
about doing away with private property in this country.
    Mr. Judd. 98 percent of Louise's county, 95 percent of our 
county is public lands. 95 percent of the county; 98 percent in 
Garfield County. How in the world can anyone make a living? And 
the other thing, of course, is all of these tourists that come, 
we have got 7,000 people in the county, and in one weekend in 
Kanab we will have 30,000 people.
    Mr. Duncan. Let me ask you this.
    Mr. Judd. And the Courts--and they bring all their bad 
habits with them.
    Mr. Duncan. The political figures told us that they didn't 
have any warning about this. Did those of you who live in this 
area, did you have more notice than they did--this nine-day 
notice that Governor Leavitt talked about? Did you know this 
was coming?
    Mr. Judd. We heard the same as everyone else did after the 
article appeared in the Washington Post. And our county sent 
myself and two other gentlemen, and we went into Leon Panetta's 
office; didn't get to see him. The Governor arranged that we 
could go. Eleven hours before the proclamation and no one in 
that office knew anything about it.
    Mr. Duncan. I am not sure many people really realize how 
large an area this is. In my district is a large part of the 
Great Smoky Mountains National Park, which is the most heavily 
visited national park in the country. It is a large, beautiful 
area----
    Mr. Judd. I have been there.
    Mr. Duncan. [continuing]--and, yet, with all those millions 
of people that we have coming there and as big as most people 
think that area is, it is just about a third the size that this 
1.7 million acres you are talking about is--three times the 
size of the Great Smoky Mountains National Park, the most 
heavily visited national park in the country.
    Mr. Judd. It is over 100 miles across, and I would really 
love for you to come, Congressman, and see the thousands and 
thousands and thousands of acres of chained down pinon juniper 
that cows graze on, and why that was made a national monument, 
and why the thing had to stop right at the Arizona border. 
Apparently, there was nothing of value beyond the Arizona 
border.
    Mr. Duncan. If it is like most areas, most of these 
environmental extremists are people who have come in from other 
States, mostly who live in big cities and who drive their Range 
Rovers and put on their L.L. Bean clothing and think of 
themselves as some big outdoorsman.
    Mr. Judd. Oh, well, we would love to see them come.
    Ms. Liston. Congressman, if I could comment just a moment 
on your question about the coal, as well as some of the other 
concerns, I think our gravest concern lies in the boundaries of 
the monument. If you were to look at a map, you would see that 
those boundaries directly abut Forest Service lands, national 
park lands on both sides of my county, and a national 
recreation area. And the land in between is all monument.
    They have gone directly up against those other Federal 
reserves and put the boundaries there. And they even went 
across a State highway to make sure that they took in all of 
the coal reserves even up above the State highway. And so all 
coal reserves and every bit of land within Garfield County that 
goes from national park to national park and recreation area 
and to the Forest Service.
    I think that that alone tells me a story. I mean, if they 
wanted to declare that land a monument to protect certain 
objects, why were the boundaries so obviously right up against 
other Federal management lands?
    Mr. Duncan. Well, Mr. Chairman, I have got just one more 
thing to say. You know, I voted for most of the really tough 
environmental laws that have been passed in this country over 
the last few years, but I can tell you that if we get to the 
point in this nation where we can't cut a single tree or we 
can't dig for any coal or we can't drill for any oil, we are 
going to really hurt the economy, we are going to really hurt 
the poor and working people. And some of these rich elitists 
who are doing this type of thing, maybe they can get along all 
right. But the great, great majority of the people are going to 
really be hurting. Thank you.
    Mr. Judd. That is where we are in our counties now.
    Mr. Hansen. The time of the gentleman has expired. The 
gentleman from American Samoa, Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I certainly will 
intend to seek the advice of my good friend, Congressman Cannon 
and Congressman Hansen, and members of the Utah Delegation. We 
are talking about the issue of coal and the tremendous amount 
of coal that is contained in the State of Utah.
    Given the problems we are having with nuclear waste in the 
areas that will probably cost in the hundreds of billions of 
dollars in just trying to clean this mess up, I am curious if 
perhaps the leaders of the State of Utah will seriously look at 
this alternative source of energy as if we may have to return 
to coal by the time we get through with this nuclear waste 
problems that we are having now in our nation.
    But I would like to ask Commissioner Judd and Commissioner 
Liston, it is a serious problem, as you have indicated, in your 
testimonies. It is my hope that as it will be part of the 
process as stated earlier by the Secretary that these series of 
hearings or whatever there will be that will take place within 
this three-year period, hopefully, that the concerns that you 
have expressed before the committee will be made known to him.
    And certainly that members of the Utah Delegation will be 
apprized of those concerns, and, hopefully, that remedy will be 
found for the concerns that you raised earlier. And I want to 
thank the members of the panel for their statements. I have no 
further questions.
    Mr. Duncan. [presiding] Thank you very much. The gentleman 
from Utah, Mr. Cannon, is recognized for five minutes.
    Mr. Cannon. Thank you. There were times during the earlier 
panel when my ability to be civil was much tested, and, of 
course, the audience actually burst into spontaneous laughter 
at one point. I suppose this would be funny except that there 
are such serious concerns going on here, and, Mr. Harja, if I 
could direct to you a couple of questions.
    In the first place, I think that what we heard from the 
last panel was a pretty flip-base statement that they are going 
to in the future go through a reason to process. And, yet, you 
have had some pretty terrific problems with getting fairly 
simple land exchanges done. Let me just ask two or three 
things, and if you could respond to them?
    How much have you actually spent out of the school trust 
funds in the appraisal process would you imagine, or what 
percentage of time was taken up to do that? And then if you 
would address the possibility of an acre-for-acre exchange, and 
would that be helpful to you if you would do something like 
that rather than going through the appraisal process?
    Mr. Harja. The appraisal process that I am familiar with--
there are several going on in the State right now concerning 
school trust lands. The first is the Public Law 103-93. It is a 
massive project. There were 550 tracts involved. About 150 of 
those are mineral only. No surface estate. We have been at it 
since late 1993. Currently, in order to feel that we have 
evaluated our resources, we are in the neighborhood of $4 
million. I am sorry. I forgot the rest of your question.
    Mr. Cannon. We are talking about the--I think you have got 
the cost. We have talked a little bit in the past about an 
acre-for-acre exchange. In other words, Utah proposed it, or 
the BLM proposed it in three or four sections that Utah could 
trade against an individual section so that you are dealing 
with roughly comparable areas rather than valued appraisals.
    Mr. Harja. The trust would much prefer certainly a shorter, 
fairer process that doesn't involve as much money. Whether that 
is acre-for-acre or resource-for-resource, I don't know. But 
the trust would be very much appreciative of that kind of idea. 
I understand you are proposing that for your Arches 
legislation--an acre-for-acre or resource-for-resource. I don't 
really care what you call it.
    We would like to look at a larger base than that. We would 
prefer to say--it is currently unclear how this coal would be 
developed. It is ``speculative'' or whatever you want to call 
it--the coal in the Kaiparowits.
    We would like to find another speculative spot perhaps 
involving oil and gas or other coal and simply look at the ton-
for-ton, look at the BTU-for-BTU, whatever works, keeping in 
mind the 50-50 split. And we would just as soon that be 
considered approximately equivalent value and have the Congress 
authorize an exchange and be done with it. It would be simpler 
for us.
    Mr. Cannon. You expressed some serious concern earlier 
about the fact that it took fully a year just to come to terms 
on how they appraise. And since you have come to those terms, 
they then have gone--that is, the BLM has gone directly to 
appraisers and raised the concern of the Federal Treasury. I 
take it you are frustrated with this process?
    Mr. Harja. Well----
    Mr. Cannon. Let me just make a general question the three 
of you can deal with. Would you characterize your experience in 
working with the local land managers--BLM, Forest Service, Park 
Service and others--and how you expect that to work out in the 
future?
    Mr. Harja. In terms of exchanges, I must say that the local 
BLM folks that are working with us are sincere. However, they 
are stuck by an excessively rule-bound process. They are 
incapable, I think, of moving beyond that into a sense of fair 
market value that you might see in the marketplace. I think 
they have a strange sense of what an arm's length transaction 
is, and they attempt to influence that.
    We have been working on an exchange out on the Desert 
Tortoise habitat near St. George. Fairly simply you would 
think. We weren't even worried on each exchange about reaching 
actual values--I mean, the same. We would say, OK, one side or 
the other can get a little high for a time, and then we will 
compensate with the next exchange.
    The appraisals that came in were ``reviewed'' by the BLM, 
and there were difficulties from their perspective. And they 
proceeded to attack the error--you know, try to change them. So 
it is not that they are not sincere. They want to try. However, 
they simply have no perspective of what real market value is.
    Mr. Cannon. But somewhere between the President's broad 
promises and the actual application, we are running into some 
serious trouble?
    Mr. Harja. We are running into difficulties with money and 
speed and perceptions of value. Yes. And I don't say that--I am 
not trying to imply that just because I say it, it should be so 
and it is so. We are prepared to defend what we consider to be 
real value in a Court room if we have to and show it that way.
    Ms. Liston. If I may respond to that, Congressman, and, by 
the way, could I also express our appreciation to you for going 
to bat with us on this issue, as well as other land issues. We 
feel very encouraged over our new Congressman, and we want you 
to know that.
    Our relationship with local area managers I think--let me 
give you an example, and I think it will quickly let you know. 
I think that being the county of the famous Burr Trail 
controversy that has been going on for the last 10 years, we 
have dealt with the local managers and have been micromanaged 
by the Secretary of Interior from Washington, DC.
    And I think that that is our problem. We have been told by 
local managers that actually the Secretary of Interior 
sometimes checks daily on what is going on. And so I think that 
that is an indication of what is happening in local areas 
sometimes and where the problem arises.
    Just let me give you this example. In our recent road 
issues, which we don't want to get into so I will just give 
this one small example, and that is that a BLM staffer 
requested us to go and repair a wash-out on a class B road that 
we get funds from the Utah Department of Transportation to 
maintain.
    We went out and repaired that wash-out, and we were 
trespassed by the government and taken to Court by the 
Department of Interior. When the subpoena was brought to my 
home by our local manager, his words were, ``Please don't kill 
the messenger.'' And I think that that is an example of what is 
happening to us in these small local governments and counties 
that are trying to run their counties under Federal management 
and direction.
    Mr. Cannon. I suspect that one of the things that is going 
to happen this summer is you are going to have a whole raft of 
people in four-wheel drives that prove that there are RS 2477 
roads actually out there.
    Ms. Liston. And not this summer. We are already 
experiencing that more than you can ever realize. One road in 
my county was over Easter weekend bumper-to-bumper traffic; 
people out on every road in their campers; four-wheelers going 
down the road; people walking down the road; at night campfires 
every place you looked.
    I mean, this is no longer an area that is protected. You 
know, people are kind of messy animals, and they are not like 
the cows that graze on those lands and actually help the land. 
And I think you are going to see the lands actually be a 
casualty in this case.
    Mr. Cannon. Thank you.
    Mr. Hansen. [presiding] The time of the gentleman has 
expired. The gentleman from North Carolina, Mr. Jones.
    Mr. Walter Jones. Mr. Chairman, thank you, and I just have 
a couple questions. First, I have been here my second term, my 
third year, and when I first got here, Mr. Chairman, I couldn't 
quite relate to the feeling of those from the western part of 
the United States. But today has been probably the best I have 
had since I have been in Congress, and I want to thank you for 
taking the time to be here. The only way we can make the best 
decision for the citizens of America is to listen and to be a 
good listener. I guess, Mr. Judd or Ms. Liston, tell me how the 
population of your county each--Ms. Liston, what is the 
population of your county?
    Ms. Liston. We have 4,000 people in Garfield County. We 
have eight towns, five of which are now surrounded by the 
monument. We have 5,000 square miles that we have to manage and 
provide the services. We currently provide these services on a 
tax base that generates a little over $300,000 a year. Our 
budget is $3 million, but three-fourths of that budget at least 
are pass-through moneys from the Federal Government and from 
the State.
    And so we have very meager budgets, and I might even add 
that we were not able to make payroll two months last year. And 
so I think it is very hard for eastern counties whose budgets 
are huge to realize what we go through in trying to provide 
services for millions of people.
    Mr. Judd. Our county, Kane County, is 7,000 residents, and 
our budget is about $2.25 million. And out of that $2.25 
million we, like Commissioner Liston here, have to provide 
services for millions of people who come and want to share our 
beautiful land with us.
    But as I tried to point out to Congressman Hansen is that 
they bring their bad habits with them. They are either trying 
to stick something in their arm or up their nose, and our 
sheriffs and local police take a dim view of that, and so they 
arrest a lot of them.
    And if I had some of the graphs that I could have shown 
you, the tourism that occurs in our counties each summer puts a 
spike just as sharp as you can possibly imagine on our Courts 
and law enforcement. And so those things that normally they 
would be involved in doing to help the people of the county are 
denied. The county can't do those.
    As far as our tax base goes, like Commissioner Liston said, 
if we weren't allowed to have pass-through money from the 
Federal and State governments--it costs us a $1.38 to collect a 
dollar's worth of taxes. And so we are just without any funds. 
We have some opportunities they tell me now with tourism that 
is really going to help us. I have yet to see how it is going 
to work, but I am hopeful.
    Mr. Walter Jones. Let me just as a follow-up question, Mr. 
Chairman--Ms. Liston, you or Mr. Judd, were talking about the 
negative economic impact on the schools in your county based on 
this decision by the President.
    Mr. Judd. Yes.
    Mr. Walter Jones. Would you reiterate that again? I missed 
that and I was listening, but I did miss that.
    Ms. Liston. A lot of that comes through the Uniform School 
Fund which is impacted by the State trust lands. A lot of that 
comes from the impacts on local economies that generate the 
taxes that helped the schools. And so our local schools, and 
the children attending those schools are being impacted in that 
the county no longer will be able to help them with their 
buildings because the people are taxed to the max.
    We just passed a bond issue this last year to build new 
schools, and we don't know where the money is going to come 
from, quite honestly. This school district is in just about as 
sad a state as we are. And our school kids also are impacted 
directly from receiving moneys from the Uniform School Fund 
that the State sections impact.
    Mr. Judd. One of the things that has occurred in our county 
when we lost the Kaibab sawmill--and Commissioner Liston had a 
branch of that same sawmill so she lost jobs too--we saw 
something happen that I never thought I would see before in the 
graphs that we had produced.
    We keep statistics every year for law enforcement, and in 
the last two years appeared a color that we had never seen 
before. And I asked the sheriff what that color was, and he 
said, ``That is child and spousal abuse.'' We had never seen 
that color before on the chart.
    And I said, ``Well, what is this other chart number?'' And 
he said, ``That is local people about 58 to 65 years of age 
caught growing marijuana.'' And I said, ``Why in the world 
would they grow marijuana?'' And he said, ``Well, they don't 
have a job. They have no chance to be ever trained to do 
anything else, and that is a cash crop,'' incidentally, the 
largest cash crop in the United States, ``and so they just 
tapped into something that will produce money for them.'' They 
grew it on the BLM land. That is some irony there.
    Mr. Walter Jones. Mr. Chairman, I want to thank you again 
for setting up this opportunity for those of us to learn more 
about the problems facing your State. And, thanks to you and 
the citizens that came up from Utah today very much. Thank you.
    Mr. Hansen. I thank the gentleman from North Carolina. I 
hope you folks keep in mind I had the opportunity of 
representing these two counties for 10 years, and I am still a 
little chapped at the legislation for taking them out of the 
First District. But, anyway, I share with my good friend, Chris 
Cannon, many of the responsibilities of these folks. And I 
don't know if people realize here are two----
    Mr. Cannon. A real pleasure, by the way.
    Mr. Hansen. [continuing]--two very small populationwise 
counties, very large in square miles, about a zero tax base, so 
to speak. And every time they turn around, the Federal 
Government treats them like a third or fourth cousin that they 
won't admit they are even there.
    We changed the payment in lieu of taxes around, but, yet, 
it gets to be not only authorized but appropriated, and what 
happens is, ``Well, we don't have to take care of those guys.'' 
Yet, on the other hand, they come in, take away their payment 
in lieu of taxes, put monuments on them, create all of these 
problems, and, yet, they are the best citizens in the world.
    These are the people that pay their taxes. They are very 
patriotic. They serve in the military. They do everything they 
are asked to do, and, yet, they kind of get their short end of 
the stick. And so it really tees you off when you see that.
    And they sit down there with these little towns, little 
governments, and here comes all these hoards of people from the 
East, and they come in, play on it, mess it up, start fires, 
break their legs, put their junk all over the place, and out of 
that then we don't come and pay our part.
    So I kind of look at it if the Federal Government is going 
to say, ``Yes, we own it,'' and you hear all this testimony it 
is everybody's ground--you heard that today from all of our 
friends, especially from the Far East. Then, on the other hand, 
``Pay your share.'' And that is the thing that irritates me as 
I look at these counties, especially our southern Utah 
counties.
    And as Mr. Harja points out, there we lost a huge amount of 
money that was there. And if you go back during the days of the 
70's, you will find out that everybody talked about this supply 
of coal. That was the big thing we were going to pull ourselves 
out with, and can you do it in an environmentally sound way?
    That was always the issue. And, of course, you can. It can 
be done very environmentally sound. And as Joe points out, 
where is that 225 miles of road? I was going to interrupt Mr. 
Hinchey, but he seemed to be enjoying himself. So there is no 
225 miles of road.
    So, anyway, we get a little frustrated in Utah 
occasionally, but that is why we wanted to bring this up to get 
the attention of people. I do thank this panel for the good 
work that you have done and how tenacious you are. I would get 
very discouraged in those positions. But hang in there and----
    Mr. Judd. We are not going to give up, Congressman.
    Mr. Hansen. Keep up the good work.
    Ms. Liston. We are survivors in southern Utah.
    Mr. Hansen. That is true.
    Mr. Judd. And we want to thank you and Congressman Cannon.
    Mr. Hansen. There is some scripture that says, ``He that 
shall endure through the Federal Government shall make it,'' or 
something like that--a little paraphrasing. Our third panel is 
Mark Austin, Boulder Mountain Lodge; Tom Till, owner of Tom 
Till Photography; and Theodore Roosevelt IV. If those gentlemen 
would come up, we would appreciate it. We will start with you, 
Mr. Austin. We appreciated your hospitality when we were down 
there a few years ago at your place.
    Mr. Austin. You are welcome.
    Mr. Hansen. Can you gentlemen do it in five minutes? If you 
need more than that, let me know.
    Mr. Austin. All right. Thank you.
    Mr. Hansen. Do it in five? Mr. Austin, we will turn to you, 
sir.

     STATEMENT OF MARK AUSTIN, CEO, BOULDER MOUNTAIN LODGE

    Mr. Austin. Thank you very much. Dear committee members and 
Chairman Hansen, I respectfully thank you for the opportunity 
to submit to you my concerns and ideas about the management of 
the Grand Staircase-Escalante National Monument, as well as the 
Antiquities Act.
    I am the principal owner of the Boulder Mountain Lodge, a 
new prospering destination tourism development in the town of 
Boulder, Utah, population approximately 175, which is adjacent 
to the new monument. We opened for business in the fall of '94. 
We have 20 deluxe guest rooms and a restaurant. I have also 
chosen to continue my career as a building designer and 
contractor, which has been my primary occupation since 
September of 1974 while living in southern Utah.
    I am also the primary founder of the Southern Utah 
Independent Forest Products Association. We have been 
developing ideas and methods to add higher value to wood 
products in rural Utah. I am associated with Confluence 
Associates in Salt Lake City, which is a private organization 
for the promotion and emphasis of environmentally sound 
economic development in rural Utah.
    It has always been my policy not to criticize or denounce 
an idea unless I or someone has an alternative proposal which I 
can stand behind and promote as a better solution. I believe 
strongly, as well as most rural Utahans, that economic 
development needs to occur and emerge from within rural Utah, 
perhaps with some outside assistance if needed. The desire for 
primarily locally and regionally owned business is also a 
desire to help maintain a better sense of community.
    I was recently invited to speak at both the Escalante 
Chamber of Commerce and the Boulder Business Alliance, which is 
a Chamber of Commerce. I was asked why Boulder Mountain Lodge 
is enjoying a very strong visibility in most of the recent 
media attention given to the monument. And why are we having a 
higher room occupancy than anyone else in our region. Well, I 
spoke to them in simple terms.
    I support the monument. I am grateful for the monument. 
Business development should be compatible to co-exist with a 
healthy, dominant economic fuel--tourism. Ranching and grazing 
within the monument may be compatible if properly managed. In 
the adjacent communities, high value added wood products, 
specialty beef, ostrich farming, fish farming are examples of 
additional first generation businesses which can complement and 
even nourish the goose that lays the golden eggs of tourism.
    Of course, there are second and third generation business 
opportunities such as construction and rentals and so on. 
Businesses which will have a negative impact on tourism should 
be discouraged and prevented. Much was said in these meetings 
by most about the need to minimize and not restrict development 
in the monument, which, if accomplished, is expected to induce 
and stimulate economic prosperity in the adjacent communities.
    Much was said about the need to coordinate planning between 
the monument planning team and the surrounding communities. 
Most agree that paving of roads and promoting development 
within the monument boundaries were a poor idea. Most were 
angry and disappointed that Garfield County had turned down a 
$100,000 grant offered by the Department of Interior. All 
agreed that money is needed within the communities before if 
ever needed to pave roads in the monument. Nothing contributes 
to the communities by paving roads. This is not a solution.
    I left with the distinct understanding that these two 
business communities understood my message, and, in fact, over 
three-fourths of the representatives from the businesses in 
attendance shared my feelings. I asked then why is this not 
being heard by our commissioners and State representatives?
    Diversity within our park and monument system is what works 
best, diversity within the framework of experience that the 
people come here to see and ponder. They are seeking the 
vastness and wild places that have become a nonrenewable 
resource. Some people call it wilderness. All in all, it is the 
same great value of open spaces.
    Impacts to these spaces need to be considered with empathy, 
sensitivity, and appreciation. To desecrate or impair these 
lands by creating noncompatible development adjacent to or 
within these remarkable landscapes is a violation of the 
sanctity of the nation's values.
    I have asked myself the question, ``Do we need to 
compromise these landscapes for a higher value, for the need of 
man, a mandate from God, or the security of our nation?'' The 
simple, clear, undeniable answer is a big no. The respect for 
the land and the desire to preserve it is reflected in the 
State of Utah Governor's report on wilderness which indicates 
that nearly 73 percent of Utahans support 5.7 million acres of 
wilderness in Utah. 1.3 million of this is within the 
boundaries of the 1.7 million acre monument. The same 
percentage is reflected in the Salt Lake Tribune and the 
Deseret News. Can anyone really imagine that the same people 
support oil and coal mining in a national monument?
    In southern Utah, adjacent to the new monument, extractive 
industry such as coal mining and uranium have little to do with 
the economy. In addition, there has never been coal mining 
culture or economy in southern Utah; central Utah, yes, 
specifically, the Price, Utah, area which is nearly 200 miles 
away from the monument.
    What is currently and has been growing steadily over the 
last 70 years is the economic driver of tourism. Tourism is the 
dominant and largest contributor to the southern Utah economy. 
Coal and oil development have no place sharing the nest with 
our goose. What we are looking for is a mate to this goose, not 
a predator.
    And may I add that on the comments on the Antiquities Act 
that the Antiquities Act allows a President to directly respond 
to the people in the context that this wilderness and public 
lands debate in Utah has been going on for a very long time. 
May I have a moment please? Thank you. And I think this has 
perhaps stirred things up a little, but it has brought some 
resolution to the protection of these lands which were slowly 
decaying during the whole entire wilderness debate. Thank you. 
Any questions?
    [Statement of Mr. Austin may be found at end of hearing.]
    Mr. Hansen. Thank you very much. Mr. Till.

       STATEMENT OF TOM TILL, OWNER, TOM TILL PHOTOGRAPHY

    Mr. Till. Thank you, Mr. Chairman. I appreciate the chance 
to be here today and thank you and the committee members for 
having me. I have enjoyed the debate I have heard today. I 
think it has been very instructive and very informative. And 
although I disagree strongly with the beliefs of my 
congressional delegation, I still hope I am considered a loyal 
Utahan. I don't consider myself an extremist in any way, shape, 
or form. I just have a different view.
    My name is Tom Till. I am an internationally known 
landscape and nature photographer, a long-time resident of 
southern Utah, a member of the Southern Utah Wilderness 
Alliance, and a strong supporter of President Clinton's 
designation last fall of the Grand Staircase-Escalante National 
Monument.
    I believe I represent a large number of persons in Utah, 
both northern and southern, who were overjoyed with the long 
overdue protection of this unparalleled area and who are 
saddened and disappointed at attempts by its opponents to 
attack the motives for its creation, and to put up roadblocks 
against its implementation.
    I would like to briefly speak about why I and why everyday 
Utahans like me support the monument so wholeheartedly. Over 
the last 20 years, I have had the rare privilege of taking my 
camera to over 1,500 national and State park areas on six 
continents. I have seen firsthand how the world has embraced 
our amazing American national park ideal--preserving and 
protecting many of the planet's most spectacular scenic areas, 
its most precious homes for wild animals and plants, and 
providing places for recreation and spiritual renewal.
    I am paid by my clients, who include most of the magazines 
and newspapers you read every day, and many of the sponsors of 
ads you see every day, to be able to recognize natural beauty 
and capture that on film. That is my job, and I can say 
honestly that in all my travels, at home and abroad, I have not 
seen any place with more varied and wild beauty than Grand 
Staircase-Escalante.
    To demonstrate a little bit of this beauty, I brought along 
a few images of the monument to show you. I wish I could 
transport you all there in person now along the Escalante River 
with spring coming out, but we can't do that so we have got a 
couple of photographs.
    The first one I would like to draw your attention to 
depicts an overall view of the upper drainages of the Escalante 
River. This is a sea of slickrock, beautiful in and of itself. 
But hidden inside this rock ocean are canyons, each with its 
own personality and charm. Some have high waterfalls streaking 
down the slickrock into inviting pools. Others harbor huge 
natural arches made of stone.
    Still others like the one depicted in the next photograph--
that needs to be turned vertically please--thank you--are home 
to some of the world's most unusual sandstone slot canyons. 
Narrowing to only a few feet wide at times, these canyons are 
places where sunlight bouncing dozens of times down through 
narrow cracks creates lighting effects that enthrall 
photographers and leave other visitors awed. Outside the Navajo 
Reservation in Arizona, the new monument is the best place in 
the world to experience these places, and many are easily 
accessible to the general public.
    Many people think of the desert as devoid of life, but if 
you travel there now along the well-watered oases and elsewhere 
in the monument, you would see wildflowers like in the next 
photograph. That is also vertical. Thank you. And the last one 
is upside down.
    Towering above, as always, are the canyon walls, as are 
depicted in the last photograph that you will need to turn 
right-side up. Edward Abbey said about this country, ``There 
are more hills, holes, humps and hollows, reefs, folds, domes, 
swells and grabens, buttes, benches and mesas, synclines, 
monoclines, and anticlines than you can ever hope to see and 
explore in a lifetime.'' Or as we say in southern Utah, ``No 
one has seen it all. It is just too big.''
    Many of the national parks I have visited in foreign 
countries and in America protect historical and cultural 
resources like Gettysburg in Pennsylvania or Stonehenge in 
England. The Grand Staircase-Escalante is also exceedingly rich 
in these historic remnants, consisting of ruins and stunning 
rock art from the first Americans.
    I have heard some comments from some critics of the 
monument that they think that part of it isn't too beautiful, 
and one part that is singled out as not being maybe up to par 
in terms of scenic beauty is the Kaiparowits Plateau itself. 
But that is one area that is so rich in archeological resources 
that I think it would take archaeologists many, many lifetimes 
to find them all there.
    As you all know, the law that allowed President Clinton to 
designate this wonderful new national monument has been used in 
the past to preserve some of our most well-known natural icons. 
I can't imagine an America without Grand Teton or Grand Canyon 
National Parks, both originally created as national monuments 
by this law.
    And I happened to look at the complete list this morning, 
and I was just flabbergasted by the monuments that are listed 
here. I had no idea that there were this many. And in my 
opinion, the tourism economy of the Southwest is based 
primarily on these monuments created by this law. We are 
talking about billions and billions of dollars that come in to 
economies of New Mexico, Colorado, Utah, and Arizona as the 
direct result of the Antiquities Law.
    These great parks symbolize our national character and are 
visited by millions from around the globe. At the time of their 
creation, history tells us that these parks and others, going 
all the way back to Yellowstone, were opposed by development 
interests and short-sighted citizens. I believe in time, and I 
don't think it will be that long, this park will also take its 
place in the frontier of America's protected and preserved 
natural wonders. I urge the committee to work with 
conservationists, the BLM, and citizens from Utah and across 
the country to preserve the wild beauty of this fabulous place 
for all future generations to love and enjoy. Thank you. Sorry 
I went over my time.
    Mr. Hansen. Thank you, Mr. Till. Mr. Roosevelt.

 STATEMENT OF THEODORE ROOSEVELT IV, MANAGING DIRECTOR, LEHMAN 
                            BROTHERS

    Mr. Roosevelt. Mr. Chairman and members of Congress, I am 
Ted Roosevelt IV, a businessman, conservationist, and a 
rancher. As you probably can tell, I am also a great grandson 
of President Roosevelt who signed the Antiquities Act of 1906 
into law. I am delighted to be here. Any American would 
consider it an honor to have the opportunity to testify before 
a congressional committee on a subject in which he has an 
interest.
    I am here today principally to support the Antiquities Act 
of 1906 and all the national treasures that that Act has 
preserved, and not to testify specifically for the Grand 
Staircase-Escalante, the focus of your hearing today. Quite 
honestly, I have not been there yet. There, obviously, are 
better qualified speakers than myself on the values of that 
particular place which make it worthy of designation as a 
national monument.
    I am here to testify on behalf of all Americans, who, from 
the day the Antiquities Act became law, June 18, 1906, have 
benefited from the wisdom of your predecessors. As stated in 
the Act, it protects ``historic landmarks, historic and 
prehistoric structures, and other objects of historic and 
prehistoric interest'' that deserve permanent preservation for 
future generations of Americans.
    The Antiquities Act is a unique and farsighted concept and 
a worthy example of Congress effectively responding to a 
national outcry from the American people. In the late 19th 
century, a national movement arose out of concern about the 
vandalism and looting that was occurring on landmarks of 
prehistoric, historic, or scientific interest. In response, 
Congress authorized President Benjamin Harrison to ``reserve'' 
from settlement or sale the Casa Grande ruin in Arizona.
    In 1904, the Commissioner of the General Land Office wrote 
to the Secretary of the Interior, ``What is needed is a general 
enactment, empowering the President to set apart all tracts of 
public land which it is desirable to protect and utilize in the 
interest of the public.''
    My great grandfather signed the law and was the first 
President to use the Act, declaring 18 national monuments. When 
he used it to set aside the Grand Canyon National Monument, he 
urged, ``Leave it as it is. You cannot improve upon it; not a 
bit. What you can do is to keep it for your children, your 
children's children, and for all who come after you.''
    Since that time, over 100 national monuments have been 
proclaimed by Republicans and Democrats alike. Presidents such 
as Taft, Harding, Hoover, Coolidge, Franklin Delano Roosevelt, 
Eisenhower, and Ford have all found this an invaluable tool to 
preserve what clearly needs protection.
    Your predecessors in Congress have also used the Act to 
designate--by special Act of Congress, without the initiative 
of the President--some 38 historical and scientific national 
monuments. Many of those were privately owned lands.
    This is truly a unique piece of legislation because it 
establishes a means of setting aside special places with the 
speed not found in the ordinary legislative process. Many of 
these proclamations were controversial, some more than others.
    Nonetheless, on balance, the American people have 
appreciated the fact that the Federal Government has a legal 
tool with which to respond to public concerns about the 
preservations of places that are keystones to our national 
memory and help define us as a people and a nation.
    Consider how today's voters and your children would feel if 
you were the Congress of the day and had failed to protect the 
Grand Canyon, or Death Valley, the Statue of Liberty, Denali, 
Glacier Bay, or Thomas Edison's laboratory. These are just a 
few of the monuments protected by the Antiquities Act.
    There are over 100 other places enjoyed by hundreds of 
millions of visitors, your constituents today--lands such as 
the Grand Staircase-Escalante will continue to be visited by 
future generations of America, all grateful for your foresight.
    Even if an American of the 21st century trekking through 
Grand Staircase-Escalante has forgotten the names of the men 
and women of the 105th Congress who made that journey possible, 
he or she will feel the glory of the American landscape and be 
grateful that American voters found men and women of good faith 
in each generation to preserve our sacred places for the next 
generation.
    So I come before you today, not to testify as an expert on 
legislation or on the Grand Staircase-Escalante proclamation, 
but to ask you to respect the wisdom of past Members of 
Congress, Members who were in agreement with past proclamations 
and some who were not, but all accepted the particular 
proclamation of the sitting President and found ways to carry 
out their responsibility to work with the President, resolve 
conflicts about specific property, and still preserve the Act.
    The Antiquities Act of 1906 has been the means for this 
nation to make one of the most valuable investments any Federal 
Government can make, and that is in the pride and honor and the 
living memories that our great places carry for our people. 
Thank you for the privilege of being able to testify before you 
today.
    Mr. Hansen. Thank you, Mr. Roosevelt. Mr. Hinchey is 
recognized for five minutes.
    Mr. Hinchey. Well, thank you very much, Mr. Chairman. I 
just want to first of all apologize for having to leave the 
room for a while. I had an important appointment back in my 
office so I had to be out for a few minutes. But I want to 
express my appreciation to the members of the previous panel 
and to the three gentlemen on this panel for their testimony 
and just thank them for their concern about this very important 
issue.
    I happened to be able to hear the testimony of Mr. 
Roosevelt, and the point has been made a number of times during 
the course of this hearing that it was, of course, Theodore 
Roosevelt I who was the first President to use this ability, 
and it has been done so by virtually every President in this 
century since then to designate national monuments and to 
recognize, as you put in your testimony, those areas that 
define us as a people and inform us as to who we are, where we 
have been, and hopefully give us some indication as to where we 
are going.
    I know that there are a lot of people who support this 
issue, Mr. President. Among them are people who have written to 
us. Now, I have here a box which contains several hundred 
letters that have been written to the committee, and I know in 
accordance with what you have said earlier, you intend to make 
every document relative to this part of the record. So I just 
want to stipulate that or request that these letters also be 
made part of the record, and I am sure that is your intention. 
Thank you very much, gentlemen.
    Mr. Hansen. The gentleman from Utah, Mr. Cannon.
    Mr. Cannon. Thank you. Mr. Roosevelt, you know, I have been 
fascinated by your great grandfather. He was a remarkable 
figure. Have you done a significant study of his life?
    Mr. Roosevelt. I have certainly read a lot about him, but 
to say a significant, he is a difficult man to get your hands 
around.
    Mr. Cannon. In fact, I view this as one of the great 
opportunities, and what I would like to explore, and I really 
have no preconceptions about this, is how he went about using 
the Antiquities Act during his presidency. My sense was that he 
was a man that was aggressive, that he didn't shun controversy, 
but that what he did, he did openly. Would that not be a fair 
assessment?
    Mr. Roosevelt. Well, you are putting me a little bit on the 
horns of a dilemma because I don't really want to comment on 
the relations between this Congress and the Administration. But 
I think I will add that he was clearly an extraordinary 
politician. He was a man of the West. He spent a lot of time 
out in the West. He knew the West. But he was willing to take 
on controversy.
    When he set some of those lands into either national parks 
or national monuments or set up the national forests, there was 
a lot of controversy, and some of the constituents in the West 
called him a thief because at that time they didn't like what 
he had done. But I think in the light of 20/20 hindsight, we do 
like what he has done.
    Mr. Cannon. But did they know in advance that he was going 
to do it?
    Mr. Roosevelt. I suspect in most instances he probably did. 
He was usually pretty good at telegraphing. But you may recall 
when he set aside the national forests, he and Gifford Pinchot 
for several days sat on the floor of the White House, and they 
mapped out which were going to be the lands of the national 
forests. He then issued an executive proclamation which expired 
when he signed the Agricultural Omnibus bill. But having issued 
it before, it was valid. So that was an example of where he did 
not do something in the public.
    Mr. Cannon. But people knew that was coming? I mean, they 
knew there was discussion and then it became a matter of 
debate? That is actually a little bit of a difference. What I 
can't imagine is your great grandfather having a panel of 
people sitting in front of Congress like we had today saying, 
``This was shrouded in secrecy. We were cut out of the process. 
We were totally deceived about what was going on.''
    That is where I think there is a difference in perception 
about history, and, frankly, for the whole panel, I think that 
you may misperceive the impressions of some of us. I think like 
Mr. Hansen and I have some significant agreement with each 
other and with you on the issue. We are not so much concerned 
about the monument itself, that there are areas that are 
absolutely beautiful.
    I will say that my staff went down on a tour with the BLM 
group and came back with several hundred pictures like those 
you have showed us today, Mr. Till. There is only one picture 
of the Kaiparowits area because it is not so very beautiful as 
the things you have showed us. But that does not mean even a 
reaction to that particular part. The reaction is probably to 
the balance that we are trying to achieve in our public life.
    Among other things, there has been a very intense debate in 
recent years about public lands in Utah, as opposed to the time 
of Teddy Roosevelt--was one of the very few people in the East 
who understood the West, who had lived in the West, and who 
appreciated the grandeur and beauty of the West.
    Let me say, Mr. Austin, that you came to the conclusion--it 
was a dramatic, unequivocal no. I think that people can 
disagree about the co-habitation of coal, oil, and gas with 
what you call the goose of beautiful nature and still 
appreciate the beauty of this area, which I personally love and 
have loved ever since I was a very young child and spent time 
down there. In fact, we have family buried in that area.
    Let me ask Mr. Till--actually, I had a couple of questions 
for you. In the first place, you used the term icon which is 
sort of an odd term. It often suggests a religious devotion. 
When you used that for these areas down there, did you have any 
sense of that, or do you just mean a beautiful area?
    Mr. Till. I guess I don't quite understand your question. I 
was using icon in terms of maybe not so much the religious 
connotation as something that is set up as a symbol of great 
beauty, and I think this park will be in the same league as 
Grand Canyon, Glacier Bay in the public perception in the 
future. That is all I was trying to say.
    Mr. Cannon. You realize, of course, that that is not an 
area of disagreement among us.
    Mr. Till. OK.
    Mr. Cannon. But let me ask you just one final question.
    Mr. Till. Sure.
    Mr. Cannon. You announced you are a member of the Southern 
Utah Wilderness Alliance. They as a group had wanted to have 
about 1.3 or .4 million acres in this monument area set aside 
as wilderness. Essentially, this matter is confusing, I think 
even with Mr. Austin's testimony. Wilderness is a designation 
to keep the incursions of mankind out; meaning, you don't take 
bicycles, you don't take motorcycles, and those sorts of things 
in.
    And, yet, you talk about people coming in as though there 
is not an inherent conflict which I think would have been 
resolved if there had been an open discussion about this. Are 
you not concerned about people coming in, Mr. Till, in large 
numbers into this area--the sensitive areas this summer and 
later on that your group has been very upfront about making 
into wilderness?
    Mr. Till. I am concerned about that somewhat, but I think 
our critics accuse us of locking land up and then they accuse 
us of opening it up to too many people at the same time. So I 
think there would be recreational opportunities in this 
monument with wilderness designation for wilderness-type 
recreation, and there would be other areas where there would be 
plenty of opportunity for other kinds of recreation.
    But the fact that there are a lot of people coming there, 
of course the publicity has generated that, and I think it will 
continue. But I am not--there are so many factors why so many 
people are coming to southern Utah I think it is a very complex 
thing.
    I think, as you know, the Wasatch Front population has 
grown to a huge degree, and people are coming down from the 
north so that is a factor. And I think there are other factors 
outside just the designation of a national monument that 
conservationists have no control over in terms of people coming 
to the area.
    Mr. Cannon. Would the Chair indulge me for two more 
minutes?
    Mr. Hansen. One more question.
    Mr. Cannon. Thank you. The issue here is not locking up or 
not locking up the land. I mean, a monument designation does 
what it does, and I believe that it actually eliminates the 
wilderness status within the monument. In any event, if you are 
going to go beyond the relatively small amount of wilderness 
that was under a study area in there to the larger amount, that 
would take an Act of Congress which apparently I don't think is 
going to happen very quickly.
    That leaves this area vulnerable. I believe that 
vulnerability flows directly from the lack of process that we 
went through in dealing with this and subjects areas which I 
think that both you and I agree--not only do we agree as to the 
beauty, but we agree that there are some seriously important 
delicate ecosystems within that monument which are now going to 
be opened up. Don't you find that a basis for criticism of the 
President's action and the precipitous nature that he took that 
action?
    Mr. Till. Well, I would have to trust Secretary Babbitt and 
his comments here today and hope that some of those matters can 
be resolved with the partnership that he is proposing to put 
together.
    Mr. Cannon. But you don't have any concern that you want to 
express here?
    Mr. Till. I am concerned, yes. You know, nothing in life is 
a win-win situation, and I think there are maybe some problems 
with heavy visitation to this monument. It disturbs me 
somewhat, I will be quite honest with you.
    Mr. Hansen. I think Mr. Austin wants to respond also.
    Mr. Austin. Yes. I would like to respond to that as well. I 
am in a unique position to be able to evaluate that almost on a 
daily basis as the operator and manager of the lodge that I 
own. And it is my observation that the vast, vast majority of 
the people that are coming to visit the area, and now has 
nearly doubled since the announcement of the monument--
proclamation of the monument, most of these people--I guess I 
should talk about it perhaps differently.
    I don't know of anybody who is coming there to 
intentionally do any damage to the monument, and that perhaps 
on occasion there might be someone who unintentionally or 
intentionally runs off into a roadless area and so forth.
    But primarily the monument is so large that most of the 
visitors come and drive Highway 12 and a few of the larger 
roads--the Hole in the Rock road, the Burr Trail and so forth--
and they are not out into these more sensitive areas. And I 
really share those concerns that you do and Congressman Hansen 
and all of us here. But, yet, I think that within the next 
three years, we are not going to suffer any major impacts that 
we can't----
    Mr. Hansen. One more.
    Mr. Cannon. Thank you, Mr. Chairman. Let me tell you my 
concern. The people that have come thus far, I believe your 
characterization is probably correct of them. Those are people 
that have the latitude to take vacations early or late.
    Having worked much of my college career and otherwise with 
people that work different kinds of jobs, my guess is that this 
summer you are going to have lots and lots of people in four-
wheel drives who are going to be out on their testosterone-
laden journeys that are going to take them well beyond those 
obviously marked roads. And I am deeply concerned.
    This is not a matter of political posturing. I am deeply 
concerned about what the impact of those vehicles is going to 
be, and the very largeness of the monument itself is what leads 
me to think you are going to have some serious damage out 
there.
    Mr. Austin. You know, well, that is a regulatory concern as 
well, but I must point out that the impacts from that I would 
much rather incur and endure than the impacts from coal and oil 
mining.
    Mr. Hansen. The time of the gentleman has expired. The 
gentleman from American Samoa, Mr. Faleomavaega.
    Mr. Faleomavaega. Gentlemen, thank you for your statements. 
I presume or at least I had hoped that perhaps you have had the 
opportunity of listening to the prior testimony that was given, 
especially by the members of the Utah Delegation and Secretary 
Babbitt and Miss McGinty.
    I respect the fact that statements have been made very 
adequately and eloquently about the Antiquities Act, the fact 
that for some 91 years this Act has never been amended. But I 
think from all the testimony and statements that have been 
made, there seems to be a common thread, in my opinion, of the 
concerns that have been expressed by the top officials and the 
government or the State of Utah to the effect that it wasn't so 
much questioning the authority of the President as far as the 
Antiquities Act is concerned--he has the authority--it wasn't 
so much questioning the validity of the fact that these are 
certain areas in the State of Utah that could be designated, 
whether it be as a monument or even a wilderness area.
    We have also heard that this situation did not just come 
about within the last two or three months. This has been 
ongoing now, at least in my membership of this Subcommittee, 
for the past three or four years--I have been following it to 
some extent.
    But I want to ask you gentlemen, the question raised here 
by the members of the Utah Delegation, and I know that the 
Antiquities Law does not require the President to do any of the 
things that we are trying to suggest very strongly, at least 
from the members especially of the Utah Delegation, that it is 
the unwritten rule or the wishes of comity or fairness in the 
process that the President should always consult with the 
highest officials of the States or whatever given issue that 
affects the interests or the needs of that State. And I am 
saying mainly the State of Utah.
    Do you think, gentlemen, that there is a very valid concern 
expressed by the Utah Delegation? Yes, there was consultation 
but in the effect that Governor Leavitt, if I recall, was 
consulted only in a matter of hours or even one or two days 
before this proclamation was issued--an issue where you are 
talking about 1.7 million acres, greater than the size of 
Delaware and Rhode Island and the District of Columbia, having 
a tremendous impact on the concerns that have been expressed by 
the members of the Utah Delegation.
    Do you think that perhaps the President could have 
addressed this issue a lot better, or maybe putting it another 
way, do you think that the President still would have been able 
to issue the proclamation if he had consulted with the Utah 
Delegation maybe one year prior to the issuance of the 
proclamation? I mean, you are saying that the vast majority of 
the people of Utah support the President's actions. Do you 
think that perhaps the President still could have done it in a 
better way?
    Mr. Till. I am not sure that the vast majority of the 
people in the State do support the action. I mean, I think 
there are a very significant number that do. Polls I saw I 
think were about 60/40 against the designation. So I am not 
trying to say that. I do think that in time more people in Utah 
will come to like the idea, and I think that the test of time 
will convince a lot of people there that this was a good thing 
to do.
    In terms of the President's actions, I am not a politician. 
I am an artist, and I listened to the testimony of Miss McGinty 
today, and her explanations sounded reasonable and clear to me. 
She sounded like a credible witness to me. So that is all I can 
really say.
    Mr. Faleomavaega. Mr. Austin, I was confused. I thought 
maybe it was Boulder, Colorado, but I didn't know there was a 
Boulder in Utah but go ahead.
    Mr. Austin. Boulder, Utah. Yes. Well, I agree with Tom that 
initially it was somewhat of a shock to everyone, and to some 
it was a pleasant shock and some not so. Yet, what I witnessed 
locally in Boulder and Escalante, and these are very small 
communities all adjacent to the parks, that there was some 
feeling that they didn't like the way it was done; yet, they 
were happy with the results.
    Now, I think that, with no intention of insults here, our 
Utah Delegation should pay close attention to that, that we do 
have--the result is we are protecting these lands, and it has 
bypassed an impasse that we have been at for many, many, many 
years.
    And I commend the President for taking that bold action, 
and I think that he is just not--he didn't go off half-cocked 
and without thinking about this for some time. I mean, I didn't 
speak to him, but I am sure that from what we have heard today 
from Secretary Babbitt and Kathleen McGinty indicates that it 
was, you know, primarily his decision and so forth.
    And I know that today most of the people that I am 
associated with in business are quite excited now that the 
monument is there, and they are seeing the opportunities. They 
have kind of gotten over the initial shock, and the whole issue 
of process is rather forgotten. They are not thinking about it 
anymore. I am hearing a lot of discussion about it here today, 
but at the local level, it is a forgotten issue.
    Mr. Faleomavaega. Just one. I know my time is up, Mr. 
Chairman, but I would note for the record that this three year 
management plan is ongoing right now, and the Administration is 
actively participating in the process, and that the residents 
and the leaders of the State of Utah are participants.
    Mr. Austin. Well, at the local level--I mean, we do have 
BLM folks strolling into town asking myself as well as many 
other people in town to encourage them to make comments and be 
part of the process. You have to remember the nature of these 
small rural areas is that engaging in process is generally not 
part of their way of doing things. They tend to ignore many of 
the processes of attending meetings and so forth.
    Mr. Faleomavaega. My time is up. Thank you, gentlemen.
    Mr. Hansen. I thank the gentleman for his comments. You 
know, I have been on this committee for 17 years, and I always 
stand amazed at the perception that people have of the law--the 
Antiquities Law, the NEPA Act, the FLPMA Act, and the 
Wilderness Act. Mr. Roosevelt makes the statement, ``You cannot 
improve upon it. Let it alone.'' They have already improved 
upon it. The NEPA Act changed it, Wilderness Act, FLPMA--they 
all have parts of it that could be instigated anytime somebody 
wants to. It has already been done.
    You get into other issues of what happens now. Do you 
realize when this happened, my phone rang off the hook, and it 
was people from Idaho, Oregon, California, Georgia, all of them 
saying, ``Don't let that happen in my State.'' And you probably 
heard some testimony here when it happened in Alaska--you know 
what happened in Alaska? Right after that, Alaska said no. They 
are off. Statutory law took them off.
    Same thing happened to Wyoming. When Wyoming got one put 
on, statutory law took it off. So there are two States 
excluded. So, yes, I think right now there is probably an 
attitude to repeal the whole shooting match because it has 
outlived itself.
    But on the other side of the coin, it probably wouldn't be 
a smart thing to do. That is why I think Mr. Babbitt wasn't 
thinking, and I cautioned him to think it through, that 
possibly it would be smarter, if he thinks about it, and amend 
it. This law didn't come from God. It wasn't coming from Moses 
on Mt. Sinai that gave us the Ten Commandments. Laws are made 
by puny little men, and men change them.
    Now, you all talk about protection, as everybody has today, 
as if you think that the monument is more protection than the 
FLPMA Act. Give me a break. It is just not so. The FLPMA Act is 
more protection than a monument, by far.
    I asked Mr. Till, the artist, where has anything been 
desecrated under the FLPMA Act in your area? I haven't seen it, 
and I have represented that area for 10 years. I have lived in 
that area my entire life, back and forth every year--two or 
three times a year I am down there--two or three times a month 
many times. I am still looking for where that has happened.
    The FLPMA Act--what a lot of so-called environmentalists 
don't understand--gives much more protection than the monument 
does. So when one of our great artists that lives in Sundance, 
Utah, stands up and says, ``All of this will be open for 
development if this bill goes through,'' in effect, shot 
himself in the foot on this monument. Now it is starting to 
open for development.
    You saw Senator Bennett there. Have you seen his bill? 
Well, maybe, Mr. Austin, you want that. You probably want 
thousands of people pouring through Boulder every day. I don't 
and, frankly, I think those three pieces of wilderness we put 
in there should be in that Wilderness Act in the area.
    And, in effect, in my opinion and the opinion of a lot of 
good legal experts, the wilderness WSAs were extinguished when 
the President stood up and did that, and we are willing to take 
that to Court and find that out. And I think we would win on 
that one because there is nothing in a monument that allows for 
wilderness. It does in these other areas. Now, it has been 
wilderness, but it happens after so we are all entitled to our 
viewpoints. I have no problem with that.
    Mr. Austin talks about the idea that the majority of people 
want 5.7. Which of the hundred different polls are you talking 
about? There are polls all over the place. One is 200 sampling. 
Now, those of us--we are in the poll business. We don't want to 
be, but we are just because we are elected. And I think, if 
anything, I could read a poll. And a 200 sample, the one you 
are referring to, taken in the middle of Salt Lake is hardly a 
very good poll.
    The best poll taken on that was done by a fellow by the 
name of Dr. Snyder at the Utah State University who did five--
put it out, and the first question, he explained, ``How many of 
you want the 5.7 million?'' Now, this was done in an exhaustive 
study. 54 percent of them said they wanted it.
    The next question they explained what wilderness was, what 
you can and can't do, because the vast majority of Utahans and 
Americans don't even know the definition of the term. After 
they understood it, it dropped to 19 percent. I would be 
willing as Chairman of this committee to put it on the ballot 
and say, ``I will live with whatever the people of Utah want. 
Vote on it.'' If they want 5.7, fine. I will back Congressman 
Hinchey's bill. If they want zero, fine. I will back that up. 
If they want 1.2, I will back that.
    But many times most people don't realize. I would be more 
than willing to put it on the ballot and find out. I hear this 
stated all the time from environmental people, ``The majority 
of them want it.'' Where are they? Show me that poll. We have 
looked at every one of them and had that thing polled to death. 
So really I respect what every one of you said.
    I have great respect for Theodore Roosevelt and what he 
did. My son-in-law, a very prominent litigator in Utah, gathers 
Teddy Roosevelt books like you can't believe. I have never seen 
such a collection of them in my entire life. In fact, if you 
don't mind, I will have him call you. He would love to talk to 
you.
    But let us put this thing in its proper perspective when we 
talk about this. One thing nice about living in America, we can 
all say what we think. And today we have heard a lot of that, 
and I appreciate it. And this hearing is adjourned.
    Mr. Roosevelt. The ``it'' that you referred to, the 
antecedent to it is not the Antiquities Act, but Grand Canyon.
    Mr. Hansen. I am sorry?
    Mr. Roosevelt. The ``it'' that you referred to is not the 
Antiquities Act that can't be improved upon, but it is Grand 
Canyon.
    Mr. Hansen. Oh, I would agree with that.
    Mr. Roosevelt. You said in your opening statement that 
``it'' was the----
    Mr. Hansen. Unlike you, I have a love affair with that 
area. I have no problem. I agree with that.
    Mr. Roosevelt. OK.
    [Whereupon, at 3:07 p.m., the Subcommittee was adjourned; 
and the following was submitted for the record:]
    [Additional material submitted for the record follows.]
    [GRAPHIC] [TIFF OMITTED] T1269.001
    
    [GRAPHIC] [TIFF OMITTED] T1269.002
    
    [GRAPHIC] [TIFF OMITTED] T1269.003
    
    [GRAPHIC] [TIFF OMITTED] T1269.004
    
    [GRAPHIC] [TIFF OMITTED] T1269.005
    
    [GRAPHIC] [TIFF OMITTED] T1269.006
    
    [GRAPHIC] [TIFF OMITTED] T1269.007
    
    [GRAPHIC] [TIFF OMITTED] T1269.008
    
    [GRAPHIC] [TIFF OMITTED] T1269.009
    
    [GRAPHIC] [TIFF OMITTED] T1269.010
    
    [GRAPHIC] [TIFF OMITTED] T1269.011
    
    [GRAPHIC] [TIFF OMITTED] T1269.012
    
    [GRAPHIC] [TIFF OMITTED] T1269.013
    
    [GRAPHIC] [TIFF OMITTED] T1269.014
    
    [GRAPHIC] [TIFF OMITTED] T1269.015
    
    [GRAPHIC] [TIFF OMITTED] T1269.016
    
    [GRAPHIC] [TIFF OMITTED] T1269.017
    
    [GRAPHIC] [TIFF OMITTED] T1269.018
    
    [GRAPHIC] [TIFF OMITTED] T1269.019
    
    [GRAPHIC] [TIFF OMITTED] T1269.020
    
    [GRAPHIC] [TIFF OMITTED] T1269.021
    
    [GRAPHIC] [TIFF OMITTED] T1269.022
    
    [GRAPHIC] [TIFF OMITTED] T1269.023
    
    [GRAPHIC] [TIFF OMITTED] T1269.024
    
    [GRAPHIC] [TIFF OMITTED] T1269.025
    
    [GRAPHIC] [TIFF OMITTED] T1269.026
    
    [GRAPHIC] [TIFF OMITTED] T1269.027
    
    [GRAPHIC] [TIFF OMITTED] T1269.028
    
    [GRAPHIC] [TIFF OMITTED] T1269.029
    
    [GRAPHIC] [TIFF OMITTED] T1269.030
    
    [GRAPHIC] [TIFF OMITTED] T1269.031
    
    [GRAPHIC] [TIFF OMITTED] T1269.032
    
    [GRAPHIC] [TIFF OMITTED] T1269.033
    
    [GRAPHIC] [TIFF OMITTED] T1269.034
    
    [GRAPHIC] [TIFF OMITTED] T1269.035
    
    [GRAPHIC] [TIFF OMITTED] T1269.036
    
    [GRAPHIC] [TIFF OMITTED] T1269.037
    
    [GRAPHIC] [TIFF OMITTED] T1269.038
    
    [GRAPHIC] [TIFF OMITTED] T1269.039
    
    [GRAPHIC] [TIFF OMITTED] T1269.040
    
    [GRAPHIC] [TIFF OMITTED] T1269.041
    
    [GRAPHIC] [TIFF OMITTED] T1269.042
    
    [GRAPHIC] [TIFF OMITTED] T1269.043
    
    [GRAPHIC] [TIFF OMITTED] T1269.044
    

</pre></body></html>
